State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

the briefs was Joshua L. Kaul, attorney general. There was an
oral argument by Aaron O'Neil.

396 Wis.2d 196
Supreme Court of Wisconsin.

STATE of Wisconsin, PlaintiffRespondent-Petitioner,
v.
Mark D. JENSEN, Defendant-Appellant.
No. 2018AP1952-CR
|
Oral Argument: November 17, 2020
|
Opinion Filed: March 18, 2021

For the defendant-appellant, there was a brief filed by Lauren
J. Breckenfelder and Dustin C. Haskell, assistant state public
defenders. There was an oral argument by Lauren Jane
Breckenfelder.
DALLET, J., delivered the majority opinion of the Court,
in which ROGGENSACK, C.J., ANN WALSH BRADLEY,
REBECCA GRASSL BRADLEY, and HAGEDORN, JJ.,
joined, and in which ZIEGLER and KAROFSKY, JJ., joined
except for ¶35. KAROFSKY, J., filed a concurring opinion,
in which ZIEGLER, J., joined.
Opinion

Synopsis
Background: State, following order of the United States
District Court for the Eastern District of Wisconsin, William
C. Griesbach, C.J., 2013 WL 6708767, vacating defendant's
conviction for first-degree intentional homicide of his wife,
initiated new proceedings against defendant. The Circuit
Court, Kenosha County, Chad G. Kerkman, J., granted state's
motion to reinstate the original conviction and life sentence.
Defendant appealed. The Court of Appeals reversed. State
petitioned for review.

The Supreme Court, Rebecca Frank Dallet, J., held that the
Court's prior holding, 299 Wis.2d 267, 727 N.W.2d 518,
that certain statements made by wife before she died were
testimonial in nature constituted the law of the case.

REBECCA FRANK DALLET, J.
**246 *199 ¶1 Fourteen years ago, Mark Jensen was on
trial for killing his wife, Julie.1 Before the start of that trial,
we held that certain hearsay statements made by Julie were
testimonial. State v. Jensen (Jensen I), 2007 WI 26, ¶2, 299
Wis. 2d 267, 727 N.W.2d 518. For that reason, and because
Jensen had no opportunity to cross-examine Julie about
those statements, the statements were inadmissible under
the Confrontation Clause.2 We are now asked to determine
whether the law on testimonial hearsay has since changed to
such a degree that, at Jensen's new trial,3 the circuit court was
no longer *200 bound by Jensen I. We hold that it has not.
We therefore affirm the court of appeals’ decision.4

I
Affirmed.

Attorneys and Law Firms

¶2 Julie died from poisoning in 1998. Prior to her death,
she made several statements suggesting that, if she died, the
police should investigate Jensen. She wrote a letter and gave it
to her neighbor with instructions to give the letter to the police
should anything happen to her. She also left two voicemails
with Pleasant Prairie Police Officer Ron Kosman two weeks
before she died stating that if she were found dead, Jensen
should be Kosman's “first suspect.” In 2002, Jensen was
charged with first-degree intentional homicide. Over the next
several years, the circuit court held a series of pretrial hearings
addressing the admissibility of Julie's letter and voicemails.

For the plaintiff-respondent-petitioner, there were briefs filed
by Aaron R. O'Neil, assistant attorney general; with whom on

¶3 The circuit court initially ruled that Julie's letter was
admissible but her voicemails were not. After that ruling,

Jill Karofsky, J., concurred and filed opinion, which Annette
Kingsland Ziegler, J., joined.
See also 331 Wis.2d 440, 794 N.W.2d 482.
**245 Appeal from Circuit Court, Kenosha County, Chad
G. Kerkman, Judge (L.C. No. 2002CF314)

Pet-App. 1

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

however, the United States Supreme Court decided Crawford
v. Washington, 541 U.S. 36, 124 S.Ct. 1354, 158 L.Ed.2d
177 (2004), which established that an unavailable witness's
hearsay statement is inadmissible under the Confrontation
Clause if the statement is testimonial and the defendant
had no prior opportunity to cross-examine the witness. Id.
at 50-54, 124 S.Ct. 1354. In light of that decision, Jensen
asked the circuit court to reconsider its previous ruling.
Upon reconsideration, the circuit court determined that, under
Crawford, Julie's letter and voicemails (“Julie's statements”)
were testimonial hearsay and were inadmissible because
Jensen had no opportunity to cross-examine Julie.
*201 ¶4 The State appealed and we affirmed, applying
Crawford and the United States Supreme Court's subsequent
decision, Davis v. Washington, 547 U.S. 813, 126 S.Ct.
2266, 165 L.Ed.2d 224 (2006).5 **247 Jensen I, 299 Wis.
2d 267, 727 N.W.2d 518. Davis set out what has come
to be known as the “primary purpose test”: a statement is
testimonial if its primary purpose is “to establish or prove
past events potentially relevant to later criminal proceedings.”
547 U.S. at 822, 126 S.Ct. 2266. The Court explained that
although statements made in response to police questioning
are generally testimonial, such statements are nontestimonial
if their primary purpose is to help the police “meet an
ongoing emergency.” Id. at 822, 126 S.Ct. 2266. Applying
that test, we determined in Jensen I that the primary purpose
of Julie's statements was not to help the police resolve an
active emergency but to “investigate or aid in prosecution
in the event of her death.” Jensen I, 299 Wis. 2d 267, ¶¶27,
30, 727 N.W.2d 518. Thus, under Crawford and Davis’s
interpretation of the Confrontation Clause, Julie's statements
were inadmissible. Id., ¶34.
¶5 We remanded the cause to the circuit court to determine
whether Julie's statements were nevertheless admissible
under the forfeiture-by-wrongdoing doctrine, which we
adopted in Jensen I. See id., ¶¶2, 52. At the time, that
doctrine stated that a defendant forfeits his constitutional
right to confront a witness when the defendant caused that
witness's unavailability. See id., ¶57. On remand, the circuit
court found that the State had shown by a preponderance
of the evidence that Jensen caused Julie's unavailability.
Therefore, the Confrontation Clause notwithstanding, *202
Julie's statements were admissible after all. Relying at least
in part on those statements, a jury convicted Jensen of Julie's
murder.

¶6 Jensen again appealed. State v. Jensen (Jensen II), 2011
WI App 3, 331 Wis. 2d 440, 794 N.W.2d 482. While that
appeal was pending, the United States Supreme Court decided
another case directly affecting Jensen, Giles v. California, 554
U.S. 353, 128 S.Ct. 2678, 171 L.Ed.2d 488 (2008). There, the
Court refined the forfeiture-by-wrongdoing doctrine, holding
that it applies only when the defendant caused the witness's
unavailability with the specific intent of preventing the
witness from testifying. See id. at 361-68, 128 S.Ct. 2678.
In Jensen II, the court of appeals “assum[ed]” that Jensen
had not killed Julie specifically to keep her from testifying
at trial; therefore, under Giles, Jensen had not forfeited his
Confrontation Clause rights and the circuit court had erred
in admitting Julie's statements. But the court of appeals also
held that the circuit court's error was harmless, given the
“voluminous” other evidence supporting the jury's guilty
verdict. See Jensen II, 331 Wis. 2d 440, ¶35, 794 N.W.2d 482.
¶7 That harmless error conclusion formed the basis for
Jensen's federal habeas corpus litigation.6 There, the federal
courts agreed with Jensen that it was not harmless error
to admit Julie's testimonial statements in violation of the
Confrontation Clause. Jensen v. Schwochert, No. 11-C-0803,
2013 WL 6708767 (E.D. Wis. Dec. 18, 2013), aff'd, Jensen v.
Clements, 800 F.3d 892, 908 (7th Cir. 2015) (holding that was
it was “beyond any possibility for fairminded disagreement”
that admitting Julie's statements “had a *203 substantial
and injurious effect” on the jury's verdict (quoted source
omitted)). Concluding that the Wisconsin court of appeals’
decision in Jensen II was an “unreasonable application of
**248 clearly established federal law,” the federal court
ordered Jensen's conviction vacated. Schwochert, 2013 WL
6708767, at *16-17. The State immediately initiated new
proceedings against Jensen.
¶8 In this new pretrial period, Jensen filed a motion to exclude
Julie's statements, per our holding in Jensen I. The State urged
the circuit court to address anew whether Julie's statements
were admissible, arguing that the United States Supreme
Court had since “narrowed” the definition of “testimonial” to
such a degree that the circuit court was not bound by Jensen I.
The circuit court agreed. It explained that “a lot has happened”
since Jensen I and that “based upon the law that we have
today,” Julie's statements were not testimonial. The circuit
court reached that conclusion by “applying the factors in Ohio
v. Clark, the more recent cases including Michigan v. Bryant,
and other cases that came out since Crawford v. Washington
and Jensen I.”7 The State then moved the circuit court to forgo
a new trial and reinstate Jensen's original conviction and life

Pet-App. 2

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

sentence on the grounds that, if Julie's statements were again
admissible, the evidence now was identical to that in Jensen's
first trial. The circuit court granted the State's motion. Jensen
appealed.
¶9 The court of appeals reversed, holding that neither it
nor the circuit court was “at liberty to decide” that Julie's
statements were nontestimonial, given our *204 holding in
Jensen I. State v. Jensen (Jensen III), No. 2018AP1952-CR,
unpublished slip op., at 12 (Wis. Ct. App. Feb. 26, 2020).
The court of appeals explained that under Cook v. Cook, 208
Wis. 2d 166, 560 N.W.2d 246 (1997), this court is the only
one with the power to modify or overrule one of our previous
decisions. The court of appeals concluded that, because we
have never modified or overruled Jensen I, the circuit court
erred in finding Julie's statements admissible and, in turn,
failing to hold a new trial. It then remanded the cause “for a
new trial at which Julie's letter and [voicemails] may not be
admitted into evidence.” Id. Having decided Jensen's appeal
under Cook, the court of appeals declined to address Jensen's
other challenges, including claims that the circuit court judge
was biased against him and that the circuit court violated
the federal court's habeas order by reinstating his conviction
without a trial.
¶10 We granted the State's petition for review of the following
three issues: (1) whether the court of appeals erred in
reviewing the circuit court's decision under Cook instead
of the law of the case; (2) if so, whether the circuit court
permissibly deviated from the law of the case and correctly
determined that Julie's statements are nontestimonial hearsay;
and (3) whether we should remand the cause to the court of
appeals to decide Jensen's remaining challenges.
¶11 Although we agree with the court of appeals’ ultimate
conclusion that the circuit court is bound by Jensen I, we hold
that the court of the appeals erred in relying on Cook to reach
that decision. In Cook, we held that the court of appeals has
no power to overrule, modify, or withdraw language from one
of its own published decisions; only this court has that power.
See Cook, 208 Wis. 2d at 189, 560 N.W.2d 246. The issue
here, *205 however, is about the law of the case, to which
Cook does not apply. Accordingly, we modify the court of
appeals’ decision to the extent it relies on **249 Cook. Our
analysis proceeds under the doctrine of the law of the case.

II

¶12 Whether a decision establishes the law of the case is
a question of law that we review de novo. State v. Stuart
(Stuart I), 2003 WI 73, ¶20, 262 Wis. 2d 620, 664 N.W.2d 82.
Although lower courts have the discretion to depart from the
law of the case when a “controlling authority has since made
a contrary decision of the law,” State v. Brady, 130 Wis. 2d
443, 448, 388 N.W.2d 151 (1986), whether such a contrary
decision has been made is a question of law that we review
de novo. See Kocken v. Wis. Council, 2007 WI 72, ¶¶25-26,
301 Wis. 2d 266, 732 N.W.2d 828.
¶13 The law of the case is a “longstanding rule” that requires
courts to adhere to an appellate court's ruling on a legal issue
“in all subsequent proceedings in the trial court or on later
appeal.” Stuart I, 262 Wis. 2d 620, ¶23, 664 N.W.2d 82
(quoting Univest Corp. v. Gen. Split Corp., 148 Wis. 2d 29,
38, 435 N.W.2d 234 (1989)). The rule ensures stability for
litigants and reinforces the finality of a court's decisions. See
Univest Corp., 148 Wis. 2d at 37-38, 435 N.W.2d 234. Courts
in subsequent proceedings should therefore “be loathe” to
revisit an appellate court's decision absent “extraordinary
circumstances.” Christianson v. Colt Indus. Oper. Corp., 486
U.S. 800, 817, 108 S.Ct. 2166, 100 L.Ed.2d 811 (1988). That
admonition aside, absolute adherence to the law of the case
is not required. As is relevant *206 here, lower courts may
depart from the initial decision if “a controlling authority has
since made a contrary decision of the law” on the same issue.8
Stuart I, 262 Wis. 2d 620, ¶24, 664 N.W.2d 82 (quoting Brady,
130 Wis. 2d at 448, 388 N.W.2d 151).
¶14 Our analysis thus proceeds in two parts. First, we
determine which case established the law of the case that
Julie's statements are testimonial hearsay. Second, we analyze
whether a controlling court has since issued a contrary
decision on the same point of law.

A
¶15 The parties largely agree that Jensen I established the
law of the case. Jensen also argues that either federal habeas
case, Schwochert or Clements, could establish the law of the
case because both concluded that admitting Julie's statements
violated the Confrontation Clause. But a federal habeas
proceeding cannot establish the law of the case because
it “is not a subsequent stage of the underlying criminal
proceedings; it is a separate civil case.” E.g., Edmonds v.
Smith, 922 F.3d 737, 739 (6th Cir. 2019). Therefore, Jensen I

Pet-App. 3

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

is the only decision establishing the law of the case that Julie's
9

hearsay statements are testimonial.

*207 B
¶16 We next analyze whether the current law regarding the
admissibility of testimonial **250 hearsay is contrary to
that relied upon in Jensen I. We decided Jensen I under both
Crawford and Davis. Therefore, we must determine whether
the United States Supreme Court has since contradicted
Crawford or Davis.
State
Stuart
- See
--v.- (Stuart II), 2005
WI 47, ¶3 n.2, 279 Wis. 2d 659, 695 N.W.2d 259. As
Jensen's Confrontation Clause issue arises under the federal
Constitution, we are bound by the United States Supreme
Court's jurisprudence interpreting that clause. See, e.g., State
v. Delebreau, 2015 WI 55, ¶43, 362 Wis. 2d 542, 864 N.W.2d
852.
¶17 Since Jensen I, the United States Supreme Court has
decided two cases that address the definition of testimonial
hearsay: Michigan v. Bryant, 562 U.S. 344, 131 S.Ct. 1143,
179 L.Ed.2d 93 (2011), and Ohio v. Clark, 576 U.S. 237,
135 S.Ct. 2173, 192 L.Ed.2d 306 (2015). The State argues
that Bryant and Clark narrowed the definition of “testimonial”
so extensively that Jensen I no longer applies, thereby
allowing the circuit court to re-evaluate Julie's statements and
conclude that they are admissible nontestimonial statements.
Jensen counters that neither Bryant nor Clark altered the
Confrontation Clause analysis set forth in Crawford and
Davis in any way that undermines our reasoning in Jensen I.
¶18 We agree with Jensen. At the time we decided Jensen
I, the Confrontation Clause barred the admission at trial of
an unavailable witness's hearsay *208 statement that the
defendant had no prior meaningful opportunity to crossexamine and that was made for the primary purpose of
creating prosecutorial evidence. Bryant and Clark represent
developments in applying the primary purpose test, but
neither is contrary to it.

1
¶19 Prior to Crawford, an unavailable witness's hearsay
statement was admissible under the Confrontation Clause if
it met a certain “reliability” threshold. See Ohio v. Roberts,
448 U.S. 56, 66, 100 S.Ct. 2531, 65 L.Ed.2d 597 (1980).
A statement met that threshold if it fell within a “firmly

rooted hearsay exception” or if it bore some other “indicia
of reliability.” Id. The United States Supreme Court had
read traditional hearsay rules and the Confrontation Clause
as somewhat redundant, reasoning that “certain hearsay
exceptions rest upon such solid foundations that admission
of virtually any evidence within them comports with” the
Confrontation Clause. See id.
¶20 Crawford “fundamentally change[d]” that analysis.
Jensen I, 299 Wis. 2d 267, ¶14, 727 N.W.2d 518.
Crawford first focused the scope of the Confrontation
Clause analysis on the circumstances in which one makes a
statement, explaining that the Constitution is “acute[ly]”—
but not exclusively—concerned with “formal statement[s]
to government officers” rather than “casual remark[s] to an
acquaintance.” Crawford, 541 U.S. at 51, 124 S.Ct. 1354.
The Court then turned to the statement itself, holding that the
Confrontation Clause's application to an unavailable witness's
hearsay statement turns on two key factors: the statement's
purpose and whether the statement had been “tested” on
cross-examination. Crawford, 541 U.S. at 55-56, 124 S.Ct.
1354.10
**251 *209 ¶21 On the former, Crawford held that
the Confrontation Clause applied only to statements that
are “testimonial,” which it defined as a statement “made
for the purpose of establishing or proving some fact.”
Id. at 51, 124 S.Ct. 1354 (quoted source omitted). The
Court declined, however, to “spell out a comprehensive
definition of ‘testimonial.’ ” Id. at 68, 124 S.Ct. 1354; see
also Davis, 547 U.S. at 822, 126 S.Ct. 2266 (declining
to “produce an exhaustive classification of all conceivable
statements”). Rather, it identified three broad “formulations”
of testimonial statements: (1) “ex parte in-court testimony,”
such as “prior testimony that the defendant was unable
to cross-examine”; (2) out-of-court statements “contained
in formalized testimonial materials,” such as an affidavit
or a deposition; and (3) “statements that were made
under circumstances [that] would lead an objective witness
reasonably to believe that the statement would be available
for use at a later trial.” Crawford, 541 U.S. at 51-52, 124 S.Ct.
1354 (quoted sources omitted). Putting these factors together,
but again declining to limit its holding to the specific facts in
Crawford, the Court held that, “at a minimum,” the definition
of “testimonial” includes prior testimony and a statement
made during police interrogation. Id. at 68, 124 S.Ct. 1354.
¶22 In Davis and its companion case, Hammon, however,
the Court explained that not all statements to police are

Pet-App. 4

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

testimonial. There, the Court analyzed statements made to
police during their response to two *210 domestic violence
incidents. It applied Crawford to both situations, but factual
differences between the two cases led the Court to divergent
conclusions. In Davis, the victim told the 911 operator that
Davis was “jumpin’ on [her] again” and beating her with
his fists. She “described the context of the assault” and gave
the 911 operator other identifying information about Davis.
Davis, 547 U.S. at 817-18, 126 S.Ct. 2266. In Hammon,
the police had responded to a report of domestic violence,
finding the victim on the front porch and Hammon inside
the house. The victim allowed the police to go inside, where
they first questioned Hammon and then her. At the end of
that questioning, the victim “fill[ed] out and sign[ed] a battery
affidavit” in which she explained that Hammon broke a glass
heater, pushed her into the broken glass, hit her in the chest,
damaged her van so that she could not leave, and attacked her
daughter. Id. at 819-21, 126 S.Ct. 2266.
¶23 The Court held that the victim's statements in Davis
were not testimonial because their primary purpose was to
“enable police assistance with an ongoing emergency.” Id. at
828, 126 S.Ct. 2266. The Court differentiated these “frantic”
statements, made “as they were actually happening” and
while the victim was “in immediate danger,” from those
in Crawford, which were made “hours after the events ...
described had occurred.” Id. at 827, 831, 126 S.Ct. 2266
(emphasis removed). The statements also helped the police
“assess the situation, the threat to their own safety, and
possible danger to the potential victim.” Id. at 832, 126 S.Ct.
2266 (quoting Hiibel v. Sixth Jud. Dist. Ct., 542 U.S. 177, 186,
124 S.Ct. 2451, 159 L.Ed.2d 292 (2004)). Thus, the victim
“simply was not ... testifying” because “[n]o ‘witness’ goes
into court to proclaim an emergency.” Id. at 828, 126 S.Ct.
2266.
¶24 The Court reached the opposite conclusion in Hammon.
There, it held that the victim's statements *211 were
testimonial because their primary purpose was to provide
a “narrative of past events.” Id. at 832, 126 S.Ct. 2266.
Even though Hammon **252 was present while the police
took the victim's statements, there “was no emergency in
progress.” Id. at 829, 126 S.Ct. 2266. Her statements did
not describe what was happening at that very moment, as in
Davis, but rather what happened before the police arrived. Id.
at 830, 126 S.Ct. 2266.
¶25 We decided Jensen I by analyzing Julie's statements under
the primary purpose test as explained in Davis. See Jensen

I, 299 Wis. 2d 267, ¶¶18-19, 727 N.W.2d 518. We must
therefore examine the United States Supreme Court's more
recent decisions in Bryant and Clark to determine if either
decision is contrary to that test, thereby justifying the circuit
court's departure from Jensen I.

2
¶26 The Court's main task in Bryant was to clarify what
it means, outside of Davis’s specific factual context, for a
statement to have the primary purpose of “enabl[ing] police
assistance to meet an ongoing emergency.” See Bryant,
562 U.S. at 359, 131 S.Ct. 1143 (quoting Davis, 547 U.S.
at 822, 126 S.Ct. 2266). Indeed, the Court noted that it
“confront[ed] for the first time circumstances in which the
‘ongoing emergency’ discussed in Davis extends beyond an
initial victim to a potential threat to the responding police and
the public at large.” Id. In Bryant, the police found the victim,
Covington, at a gas station bleeding badly from a gunshot
wound and having trouble speaking. They asked Covington
who shot him and where the shooting occurred. Covington
told the police that Bryant shot him through the back door
of Bryant's house. Covington was then taken to a hospital,
where he died a few hours later. *212 Id. at 349-50, 131 S.Ct.
1143. The Michigan Supreme Court held that Covington's
statements were inadmissible testimonial hearsay similar to
those in Hammon because he made them after the shooting
occurred and the police did not “perceive[ ] an ongoing
emergency at the gas station.” Id. at 351, 131 S.Ct. 1143.
¶27 The United States Supreme Court reversed. It held that
the primary purpose of Covington's statements was to help
the police resolve an ongoing emergency, because when the
police arrived on the scene, they did not know whether the
person who shot Covington posed an ongoing threat to the
public. Id. at 371-72, 131 S.Ct. 1143. Covington's behavior
—profusely bleeding from the stomach, repeatedly asking
when an ambulance would arrive, having difficulty breathing
—objectively revealed that he was answering the officers’
questions only to give them information about what might
be an active-shooter scenario. Id. at 373-74, 131 S.Ct. 1143.
Other evidence supporting that conclusion included the fact
that, like the 911 call in Davis, Covington's statements were
“harried” and made during a “fluid and somewhat confused”
situation. Id. at 377, 131 S.Ct. 1143. Because the primary
purpose of the statements was to help the police resolve an
ongoing emergency, they were not testimonial.

Pet-App. 5

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

¶28 In reaching that conclusion, Bryant emphasized that
the test for determining a statement's primary purpose is an
objective one. Id. at 360, 131 S.Ct. 1143. When deciding
whether a statement is made to assist the police in resolving
an ongoing emergency, courts must consider the overall
circumstances in which the statement is made, such as
whether the statement is made near the scene of the crime
or later at the police station. Id. at 360–61, 131 S.Ct. 1143.
Ultimately, the crux of the inquiry is whether the statement
is made to “end[ ] a threatening *213 situation” (not
testimonial) or to “prove[ ] past events potentially relevant to
later criminal prosecution” (testimonial). Id. at 361, 131 S.Ct.
1143 (quoting **253 Davis, 547 U.S. at 822, 832, 126 S.Ct.
2266). On that point, the Court cautioned against construing
Davis’s “ongoing emergency” definition too narrowly:
Domestic violence cases like Davis and Hammon often
have a narrower zone of potential victims than cases
involving threats to public safety. An assessment of
whether an emergency that threatens the police and public
is ongoing cannot narrowly focus on whether the threat
solely to the first victim has been neutralized because the
threat to the first responders and public may continue.
Id. at 363–64, 131 S.Ct. 1143.
¶29 Bryant also reminded courts that whether an ongoing
emergency exists is only one factor for determining a
statement's primary purpose. Id. at 366, 131 S.Ct. 1143.
Other factors are also relevant, such as the statements and
actions of both the declarant and the interrogators and
formality of the encounter. Id. at 366-67, 131 S.Ct. 1143.
But just as formal police interrogations do not always
produce testimonial statements, informal questioning “does
not necessarily indicate ... the lack of testimonial intent.”
Id. at 366, 131 S.Ct. 1143; see also Davis, 547 U.S. at 822
& n.1, 126 S.Ct. 2266. Courts must objectively analyze the
declarant's and the interrogator's “actions and statements.”
Bryant, 562 U.S. at 367-68, 131 S.Ct. 1143. The Court noted
that this approach was the one it “suggested in Davis” when
it first articulated that statements made to resolve an ongoing
emergency are not testimonial. Id. at 370, 131 S.Ct. 1143.

*214 3
¶30 Whereas Bryant’s contextual analysis focused on the
person making the statement, Clark focused on the person
to whom the statement was made. In Clark, the Court was
asked to resolve “whether statements to persons other than

law enforcement officers are subject to the Confrontation
Clause.” 576 U.S. at 246, 135 S.Ct. 2173. There, Clark
had been convicted of assaulting his girlfriend's three-yearold child due, in part, to statements the child made to his
teachers identifying Clark as his abuser. The child made those
statements in response to his teachers’ inquiries about visible
injuries on his body. Concerned that the child was being
abused, the teachers asked him questions “primarily aimed at
identifying and ending the threat” of potentially letting him
go home that day with his abuser. Id. at 247, 135 S.Ct. 2173.
When the teachers were questioning the child, their objective
was “to protect” him, “not to arrest or punish his abuser”; they
“were not sure who had abused him or how best to secure his
safety.” Id.
¶31 The Court held that the Confrontation Clause applied to
“at least some statements made to individuals who are not law
enforcement,” but not the child's statements here. Id. at 246,
135 S.Ct. 2173. Reiterating Bryant’s guidance to consider
all of the relevant circumstances, the Court explained that
“[c]ourts must evaluate challenged statements in context, and
part of that context is the questioner's identity.” Id. at 249,
135 S.Ct. 2173 (explaining that it is “common sense that the
relationship between a student and his teacher is very different
from that between a citizen and the police”). The Court then
considered “all the relevant circumstances,” including the
child's age, the school setting, the teachers’ objective, and
the overall informality of the situation, *215 and concluded
that the primary purpose of the child's statements was not
to “creat[e] evidence” for Clark's prosecution. Id. at 246,
135 S.Ct. 2173. Although the Court again “decline[d] to
adopt a categorical rule” on the issue, id., it pointed out that
statements by someone as young as this child **254 “will
rarely, if ever, implicate the Confrontation Clause,” id. at 248,
135 S.Ct. 2173.

C
¶32 Bryant and Clark neither contradicted Crawford or
Davis nor drastically altered the Confrontation Clause
analysis. Given that both Crawford and Davis declined to
“comprehensive[ly]” define “testimonial statement,” it was
inevitable that future cases like Bryant and Clark would
further refine that term. See Crawford, 541 U.S. at 68, 124
S.Ct. 1354; Davis, 547 U.S. at 821-22, 126 S.Ct. 2266. In
the “new context” of a potential threat to the responding
police and the public at large, Bryant “provide[d] additional
clarification with regard to what Davis meant by ‘the primary

Pet-App. 6

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

purpose of the interrogation is to enable police assistance
to meet an ongoing emergency.’ ” Bryant, 562 U.S. at 359,
131 S.Ct. 1143. Similarly, in Clark, the Court applied the
primary purpose test to answer a question it had “repeatedly
reserved: whether statements made to persons other than law
enforcement officers are subject to the Confrontation Clause.”
Clark, 576 U.S. at 246, 135 S.Ct. 2173.
¶33 The Court's own reflections on its post-Crawford
decisions demonstrate that it did not see those decisions as
contradicting Crawford or Davis but rather as efforts to “flesh
out” the test it first articulated there. See id. at 243-46, 135
S.Ct. 2173; see also id. at 252, 135 S.Ct. 2173 (Scalia, J.,
concurring) (plainly stating in 2015 that Crawford “remains
the law”). Federal courts of appeals’ interpretations of Bryant
and Clark confirm that *216 progression. See, e.g., United
States v. Norwood, 982 F.3d 1032, 1043-44 (7th Cir. 2020);
Issa v. Bradshaw, 910 F.3d 872, 876 (6th Cir. 2018); United
States v. LeBeau, 867 F.3d 960, 980 (8th Cir. 2017). The
Seventh Circuit Court of Appeals, for instance, recently
noted that Bryant “further elaborated” on Davis’s ongoing
emergency analysis by “ma[king] clear that the totality of the
circumstances guides the primary purpose test, not any one
factor.” Norwood, 982 F.3d at 1043-44 (emphasis removed).
That court has likewise cited Clark as a continuation in the
primary purpose test's development. See, e.g., United States
v. Amaya, 828 F.3d 518, 528-29, 529 n.4 (7th Cir. 2016).

content of Julie's statements but also objectively evaluating
the relevant “circumstances” under which she made them.
Jensen I, 299 Wis. 2d 267, ¶¶26-30, 727 N.W.2d 518. That
is what the United States Supreme Court held in Bryant. See
562 U.S. at 359, 131 S.Ct. 1143 (requiring **255 courts
to “objectively evaluate the circumstances” surrounding the
statement's creation when determining its primary purpose).
In Jensen I, we rejected the State's argument that “the
government needs to be involved in the creation of the
statement” for that statement to be testimonial. See Jensen
I, 299 Wis. 2d 267, ¶24, 727 N.W.2d 518. This mirrors
the holding in Clark. See 576 U.S. at 246, 135 S.Ct. 2173
(recognizing that “at least some statements to individuals
who are not law enforcement officers could conceivably raise
confrontation concerns”). Far from being contrary to Jensen
I, Bryant and Clark are consistent with it.

III
¶36 Our decision in Jensen I that Julie's statements
constituted testimonial hearsay established the law of the
case. Subsequent developments in the law on testimonial
hearsay are not contrary to Jensen I. Therefore, the circuit
court was not permitted to deviate from our holding in Jensen
I. Accordingly, we affirm the court of appeals’ decision. We
modify that decision, however, to the extent that the court of
appeals incorrectly relied upon Cook.

¶34 Our recent jurisprudence also reveals that Crawford and
Davis—and therefore our analysis in Jensen I—have not been
contradicted. Even after Bryant and Clark, we continue to
cite Crawford and Davis in resolving whether an unavailable
witness's statement is testimonial. See State v. Reinwand,
2019 WI 25, ¶¶19-22, 385 Wis. 2d 700, 924 N.W.2d 184;
State v. Nieves, 2017 WI 69, ¶¶26-29, 376 Wis. 2d 300, 897
N.W.2d 363; State v. Zamzow, 2017 WI 29, ¶13, 374 Wis. 2d
220, 892 N.W.2d 637; State v. Mattox, 2017 WI 9, ¶¶24-25,
373 Wis. 2d 122, 890 N.W.2d 256. Even more to the point,
on the limited occasions we have cited Bryant or Clark, we
have interpreted them as continuing to apply the primary
purpose test. See Reinwand, 385 Wis. 2d 700, ¶¶22, 24, 924
N.W.2d 184; Mattox, 373 Wis. 2d 122, ¶32, 890 N.W.2d 256
(“Clark reaffirms the primary purpose test”). We have never
interpreted Bryant or Clark to be a departure from Crawford
or Davis, much less the type of drastic departure required to
justify deviating from the law of the case.

JILL J. KAROFSKY, J. (concurring).
¶37 I join the majority opinion, with the exception of ¶35,
*218 because I agree that our decision in Jensen I that
Julie's statements constituted testimonial hearsay established
the law of the case and a controlling court has not issued a
contrary decision on the same point of law. State v. Jensen
(Jensen I), 2007 WI 26, 299 Wis. 2d 267, 727 N.W.2d
518. I write separately, however, because I disagree with
the majority's assertion that the Jensen I court “objectively
evaluat[ed] the relevant ‘circumstances’ under which she
made [her statements].” Majority op., ¶35. In other words, I
conclude that the Jensen I court completely failed to consider
the context in which Julie made her statements.

¶35 In some ways, Jensen I anticipated Bryant and Clark. For
instance, we decided Jensen I by not *217 only analyzing the

¶38 Had this court in Jensen I truly considered that context, it
would have recognized that Julie was undeniably a victim of

By the Court.—The decision of the court of appeals is
modified, and as modified, affirmed.

Pet-App. 7

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

domestic abuse and that prior to her death she lived in terror
born of the unimaginable fear that her husband was going to
kill her and claim that her death was a suicide. It was under
these circumstances that she left two voicemails for Pleasant
Prairie Police Officer Ron Kosman and wrote a letter which
she gave to a neighbor with instructions to give it to the police
should anything happen to her.
¶39 This writing begins with a discussion of domestic abuse
and how Crawford v. Washington, 541 U.S. 36, 124 S.Ct.
1354, 158 L.Ed.2d 177 (2004), impacted the prosecution of
domestic abuse cases. Next, I summarize the United States
Supreme Court's decisions in Crawford, Davis v. Washington,
547 U.S. 813, 126 S.Ct. 2266, 165 L.Ed.2d 224 (2006), and
Davis’ companion case, Hammon v. Indiana. I follow with an
examination of Jensen I, since it was decided less than a year
after Davis and Hammon, and with a discussion of three cases
from the United States Supreme Court and this court that were
decided post-Jensen I. This case overview reveals how the
United States Supreme Court and this court have increasingly
given weight to *219 context when assessing whether the
hearsay statement of an unavailable witness is testimonial in
nature. Next, to assist future courts in assessing context, I
supply a non-exhaustive list of contextual questions based
off the previously summarized cases. Finally, I conclude
this concurrence with a discussion of assessing context in
domestic abuse cases **256 and an objective evaluation of
the circumstances under which Julie made her statements.

I.
DOMESTIC
PROSECUTION

ABUSE

AND

VICTIMLESS

¶40 Domestic abuse, or interpersonal violence, is a significant
public health issue. About one in four women and one in seven
men have experienced an act of physical violence from an
intimate partner in their lifetime. Caitlin Valiulis, Domestic
Violence, 15 Geo. J. Gender & L. 123, 124 (2014). In addition,
and far more sobering, the nation's crime data suggests that
over half of female homicide victims in the United States are
killed by a current or former intimate partner. See Natalie
Nanasi, Disarming Domestic Abusers, 14 Harv. L. & Pol'y
Rev. 559, 563 & n.16 (2020) (citing statistics from the Center
for Disease Control and Prevention regarding the role of
intimate partner violence).
¶41 To counteract this public health issue, prosecutors
have worked to hold abusers accountable. This is often a
difficult, if not impossible, task because abusers’ actions often

render their victims unavailable to testify. Beginning in the
mid-1990s, prosecutors pursued these so-called “victimless”
prosecutions by seeking to introduce reliable evidence
using victims’ out-of-court statements through 911 operators,
medical professionals, social workers, and law enforcement
officers. See Andrew King-Ries, *220 Crawford v.
Washington: The End of Victimless Prosecution?, 28 Seattle
U. L. Rev. 301 (2005). Victim advocates and prosecutors
applauded this approach because it maintained victims’ safety
and avoided retraumatization. Id. This practice, however,
came to a screeching halt after the United States Supreme
Court's decision in Crawford,1 in which the Court profoundly
altered the analysis as to when an unavailable witness's
hearsay statement is admissible under the Confrontation
Clause of the Sixth Amendment.

II. PRECEDENT FROM THE UNITED STATES SUPREME
COURT ABOUT NONTESTIMONIAL HEARSAY
¶42 In Crawford, the United States Supreme Court
fundamentally changed the analysis regarding the
admissibility of an out-of-court witness's statement by
deciding that when such a statement is testimonial in nature,
the witness must testify and face cross-examination. 541
U.S. at 68, 124 S.Ct. 1354. Consequently, if that witness
is unavailable, his or her testimony will be excluded. Id.
The Crawford Court did not further explain what it meant
by “testimonial.” Writing for the majority, Justice Scalia
reasoned:
Where testimonial evidence is at issue, however, the
Sixth Amendment demands what the common law *221
required: unavailability and a prior opportunity for crossexamination. We leave for another day any effort to spell
out a comprehensive definition of ‘testimonial.’ Whatever
else the term covers, it applies at a minimum to prior
testimony at a preliminary hearing, before a grand jury, or
at a former trial; and to police interrogations.
Id. (Footnote omitted.)
¶43 The United States Supreme Court first applied its
reasoning in Crawford to **257 situations of domestic
abuse in Davis and Hammon. In doing so, the Court
created a primary-purpose test to determine whether or not
a statement is testimonial. In short, the test is designed to
ascertain whether the primary purpose of an interrogation is
to enable police to meet an ongoing emergency. Statements
are “testimonial when the circumstances objectively indicate

Pet-App. 8

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

that there is no such ongoing emergency, and that the primary
purpose of the interrogation is to establish or prove past events
potentially relevant to later criminal prosecution.” Davis, 547
U.S. at 822, 126 S.Ct. 2266.
¶44 In Davis, the Court analyzed a 911 call in which the victim
reported that Davis was “jumpin’ on [her] again” and beating
her with his fists. Id. at 817, 126 S.Ct. 2266. The victim also
“described the context of the assault” and gave identifying
information about Davis. Id. at 818, 126 S.Ct. 2266. The
Court held that these statements were admissible because their
primary purpose was to “enable police assistance to meet
an ongoing emergency.” Id. at 828, 126 S.Ct. 2266.2 The
Court distinguished this statement from the *222 one at issue
in Crawford, reasoning that the statements were made “as
they were actually happening” and while the victim was “in
immediate danger.” Id. at 827, 831, 126 S.Ct. 2266 (emphasis
in original). The Court also determined that the statements
were helpful to the police because they allowed them to assess
any potential threats towards them or the victim. Id. at 832,
126 S.Ct. 2266. In sum, the Court decided that the victim
was not testifying because “[n]o ‘witness’ goes into court to
proclaim an emergency and seek help.” Id. at 828, 126 S.Ct.
2266.
¶45 The Court reached a different conclusion in Hammon, in
which police called to a domestic violence incident found the
victim on the front porch and Hammon inside the house. Id. at
819, 126 S.Ct. 2266. As part of their investigation, the officers
asked the victim to fill out and sign a “battery affidavit.” Id.
at 820, 126 S.Ct. 2266. In filling out the affidavit, the victim
described how Hammon broke a glass heater, pushed her into
the broken glass, hit her in the chest, prevented her from
leaving by damaging her van, and attacked her daughter. Id.
The Court determined the primary purpose of this statement
was to provide a “narrative of past events,” and the Court
reasoned that giving a statement about past events meant
there was “no emergency in progress.” Id. at 829, 832, 126
S.Ct. 2266. For these reasons, the Court decided the victim's
affidavit was inadmissible hearsay. Id. at 834, 126 S.Ct. 2266.

*223 III. JENSEN I
¶46 Shortly after the United States Supreme Court decided
Davis and Hammon, this court determined in Jensen I that
the primary purpose of Julie's letter was not to help the
police in an ongoing emergency, but to “investigate or aid
in prosecution in the event of her death.” Jensen I, 299 Wis.

2d 267, ¶27, 727 N.W.2d 518. Additionally, **258 the
court also reasoned that the voicemails “were entirely for
accusatory and prosecutorial purposes.” Id., ¶30.
¶47 In Julie's second voicemail, she told Officer Kosman that
she thought Jensen was going to kill her. The letter that Julie
gave her neighbor read as follows:
I took this picture [and] am writing this on Saturday
11-21-98 at 7AM. This ‘list’ was in my husband's business
daily planner—not meant for me to see, I don't know what
it means, but if anything happens to me, he would be my
first suspect. Our relationship has deteriorated to the polite
superficial. I know he's never forgiven me for the brief
affair I had with that creep seven years ago. Mark lives for
work [and] the kids; he's an avid surfer of the Internet....
Anyway—I do not smoke or drink. My mother was an
alcoholic, so I limit my drinking to one or two a week.
Mark wants me to drink more—with him in the evenings. I
don't. I would never take my life because of my kids—they
are everything to me! I regularly take Tylenol [and] multivitamins; occasionally take OTC stuff for colds, Zantac,
or Immodium; have one prescription for migraine tablets,
which Mark use[s] more than I.
I pray I'm wrong [and] nothing happens ... but I am
suspicious of Mark's suspicious behaviors [and] fear for my
early demise. However, I will not leave David *224 [and]
Douglas. My life's greatest love, accomplishment and wish:
“My 3 D's”—Daddy (Mark), David [and] Douglas.
Id., ¶7.
¶48 Although the record in this case was replete with
references to domestic abuse and the Jensen I majority took
great pains to explain that it reached its decision by examining
“[t]he content and the circumstances surrounding the letter”
and applied the same reasoning to the voicemails, id., ¶27,
nowhere in the majority opinion, not even in a passing phrase
or fleeting word, did this court acknowledge that Julie was
the victim of domestic abuse. Instead, employing an ill-suited
analogy, the majority compared Julie's letter and voicemails to
Lord Cobham's letter at Sir Walter Raleigh's trial for treason.
Id., ¶29. Drawing a parallel between a 1603 treason trial
—where Cobham, the missing (but still very much alive)
accomplice, wrote a letter maintaining his innocence while
accusing Raleigh—and a 1998 domestic homicide makes for
a particularly inapt analogy; it draws a comparison remote
in time, place, content, and circumstance in every possible
aspect.

Pet-App. 9

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

IV. POST-JENSEN I
¶49 Post-Jensen I, the United States Supreme Court issued
two decisions that further illuminated the import of assessing
context when courts are determining the primary purpose
of an unavailable witness's hearsay statement, Michigan v.
Bryant, 562 U.S. 344, 131 S.Ct. 1143, 179 L.Ed.2d 93
(2011), and Ohio v. Clark, 576 U.S. 237, 135 S.Ct. 2173, 192
L.Ed.2d 306 (2015). In Bryant, the police found a gunshot
victim at a gas station. 562 U.S. at 349, 131 S.Ct. 1143.
Although the victim was bleeding profusely and was having
trouble speaking, *225 he told police that Bryant shot him
through the back door of Bryant's house. Id. Unfortunately,
the victim died within hours. Id. The Bryant Court decided
that the victim's statement was admissible because its primary
purpose was to help the police resolve an ongoing emergency,
especially in light of the fact that Bryant posed an ongoing
threat to the community at large. Id. at 371-73, 131 S.Ct.
1143. The Court emphasized that determining the primary
purpose of a statement is an objective test and clarified
that an ongoing emergency is only **259 one factor to
be considered. Id. at 360, 366, 131 S.Ct. 1143. The Court
outlined other important factors, including the statements and
actions of both the declarant and the interrogators, and the
formality of the encounter. Id. at 366-67, 131 S.Ct. 1143. The
court noted that victims may have “mixed motives” when
making a statement to the police. Id. at 368, 131 S.Ct. 1143
(“During an ongoing emergency, a victim is most likely to
want the threat to her and to other potential victims to end,
but that does not necessarily mean that the victim wants or
envisions prosecution of the assailant.”).
¶50 Clark, 576 U.S. 237, 135 S.Ct. 2173, involved a different
type of violence in the home: child abuse. In that case,
Clark was accused of abusing his girlfriend's three-year old
son after the victim disclosed the abuse to a teacher who
observed visible injuries on the boy's body. Id. at 240-41, 135
S.Ct. 2173. The statements to the teacher were determined to
be nontestimonial because the teacher's objective in asking
questions was to protect the victim, not to arrest or punish his
abuser. Id. at 247, 135 S.Ct. 2173. The Clark Court reiterated
the importance of context, explaining “[c]ourts must evaluate
challenged statements in context, and part of that context
is the questioner's identity.” Id. at 249, 135 S.Ct. 2173. In
considering “all the relevant circumstances,” including the
child's age, the school *226 setting, the teacher's objective,
and the overarching informality of the situation, the Court

concluded that the primary purpose of the victim's statements
was not to “creat[e] evidence” for Clark's prosecution. Id.
at 246, 135 S.Ct. 2173. Rather, the teacher's questions were
intended to identify the abuser “to protect the victim from
future attacks.” Id. at 247, 135 S.Ct. 2173.
¶51 Subsequently, we interpreted Clark in Reinwand, in
which Joseph Reinwand was convicted of first-degree
intentional homicide for killing his daughter's former partner.
State v. Reinwand, 2019 WI 25, 385 Wis. 2d 700, 924 N.W.2d
184. Reinwand's daughter and the victim were planning to
mediate a custody dispute and in the days leading up to the
mediation, Reinwand threatened to harm or kill the victim
if he continued to seek custody. Id., ¶6. The victim reported
these threats to family and friends, saying he was scared for
his life and that if anything happened to him, people should
look to Reinwand. Id. A short time later, the victim was found
dead in his home. This court looked to four relevant factors
in deciding whether Reinwand's statements were testimonial:
(1) the formality/informality of the situation producing the
out-of-court statement; (2) whether the statement is given
to law enforcement or a non-law enforcement individual;
(3) the age of the declarant; and (4) the context in which
the statement was given.
Id., ¶25 (citing State v. Mattox, 2017 WI 9, ¶32, 373 Wis. 2d
122, 890 N.W.2d 256).
¶52 The Reinwand court concluded that the statements were
nontestimonial because: (1) they were given in informal
situations, primarily inside people's houses and at an Arby's
restaurant; (2) none of the statements were given to law
enforcement or intended *227 for law enforcement; (3)
the age of the victim was irrelevant; and (4) the victim's
statements were made to friends and family and his demeanor
suggested genuine concern because he seemed “concerned,
stressed, agitated ... and genuinely frightened.” Id., ¶¶27-30.
The court concluded that the victim's “demeanor suggests that
he was expressing genuine concern and seeking advice, rather
than attempting to create a substitute for trial testimony.” Id.,
¶30.

**260 V. ASSESSING CONTEXT
¶53 The post-Crawford cases emphasized the importance of
assessing context when courts are determining whether the
hearsay statement of an unavailable witness is testimonial.
The following non-exhaustive list of questions summarizes

Pet-App. 10

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

the contextual inquiries the United States Supreme Court and
this court made in post-Crawford cases:
• Is there an ongoing emergency? (Davis)
• Do the statements help the police assess whether there is
a potential threat? (Davis)
• Is the victim in immediate danger? (Davis)
• Is the statement a narrative of past events? (Hammon)
• Is the statement related to an ongoing threat to the
community at large? (Bryant)
• What's the declarant's actual statement? (Bryant)
• What are the actions of the declarant? (Bryant)
• What are the actions and statements of the interrogators?
(Bryant)
• Are the interrogators’ intentions to protect the victim or
arrest/prosecute the abuser? (Clark)
*228 • Is the encounter formal (at a police station) or
informal? (Bryant)
• Was the statement given to law enforcement? (Clark)
• Were the statements intended for law enforcement?
(Clark)
• How old is the declarant? (Clark)
• What is the relationship between the declarant and the
suspect? (Clark)
• What was the demeanor of the declarant at the time the
statements were made? (Reinwand)
• Is the statement a prediction of future events? (Reinwand)

(2011) (“[A] domestic violence victim exists in a relationship
defined by long-term, ongoing, powerful, and continuous
abuse ... it is illogical and impractical to attempt to find the
beginning and end of an ‘emergency’ in such a context.”). In
addition, victims of domestic abuse are often afraid to report
acts of violence, or they recant or refuse to cooperate after
initially providing information because they fear retaliation.
Id. at 184-85. Therefore, victims may not make a report or
they may minimize or deny incidents of abuse. It is also
important to understand that no one *229 knows an abuser
better than the abuser's victim. And the most dangerous time
for a victim of domestic abuse is when he or she decides
to leave the relationship. See Lisa A. Goodman & Deborah
Epstein, Listening to Battered Women: A Survivor-Centered
Approach to Advocacy, Mental Health, and Justice 76 (2008)
(“Substantial data show that separation from the batterer is
the time of greatest risk of serious violence and homicide for
battered women and for their children.”).
¶55 Having suggested some contextual questions and
acknowledging the challenges of understanding context in
cases of domestic abuse, I conclude this concurrence by
objectively evaluating the relevant **261 circumstances
under which Julie made her statements, a task the majority
opinion erroneously claims the Jensen I court did. That
evaluation reveals that Julie:
• was a victim of domestic abuse;
• believed there was an ongoing emergency as she feared
her husband was going to kill her;
• perceived herself to be in immediate danger because her
husband was engaging in behavior that did not make
sense to her;
• had significant safety concerns;
• was afraid her death was going to be made to look like
a suicide;
• loved her sons;

VI. CONTEXT IN DOMESTIC ABUSE CASES
¶54 Applying the above considerations to situations of
domestic abuse can be challenging because domestic abuse
rarely takes place in a vacuum. That is, there are often multiple
incidents and the abuse can span the course of days, weeks,
months, or years. See, e.g., Eleanor Simon, Confrontation and
Domestic Violence Post-Davis: Is There and Should There Be
a Doctrinal Exception?, 17 Mich. J. Gender & L. 175, 206

• wanted her sons to know she did not intend to kill herself;
• was making a prediction about her husband's future
behavior;
• was not questioned/interrogated in this case; and
*230 • did not have a formal encounter in a police station.

Pet-App. 11

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

¶56 When looking at this evidence in context, it is apparent
that Julie was a victim of domestic abuse and that prior to her
death she lived in terror born of the unimaginable fear that her
husband was going to kill her and claim that her death was
a suicide. It was under these circumstances that she left the
voicemail messages for Officer Kosman and wrote the letter
which she gave to a neighbor with instructions to give it to
the police should anything happen to her.
¶57 With this context in mind, we must ask: Was Julie making
statements for the future prosecution of her husband for her
murder? Or was she a woman trying to survive ongoing
domestic abuse, fearing and predicting an imminent attempt
on her life, telling her sons that she loved them too much to
commit suicide? This is the voice—Julie's voice—that this
court failed to acknowledge in Jensen I.

¶58 Although the law of the case prohibits this court from
reconsidering the determinations reached by the Jensen I
court, had the Jensen I court actually “objectively evaluat[ed]
the relevant circumstances” surrounding Julie's statements, it
would have recognized the atmosphere of domestic abuse that
suffused the factual background and the relationship at the
center of this case and possibly reached a different conclusion.
¶59 For the foregoing reasons, I concur.

¶60 I am authorized to state that Justice ANNETTE
KINGSLAND ZIEGLER joins this concurrence.
All Citations
396 Wis.2d 196, 957 N.W.2d 244, 2021 WI 27

Footnotes

1
2
3
4
5
6
7
8

9

10

1

To avoid confusion—and to remain consistent with previous decisions in this case—we refer to Mark Jensen as “Jensen”
and Julie Jensen as “Julie.”
U.S. Const. amend. VI, cl. 4 (“In all criminal prosecutions, the accused shall enjoy the right ... to be confronted with the
witnesses against him ....”).
The Honorable Chad G. Kerkman of the Kenosha County Circuit Court presiding.
State v. Jensen, No. 2018AP1952-CR, unpublished slip op. (Wis. Ct. App. Feb. 26, 2020).
Unless otherwise noted, all references to Davis v. Washington, 547 U.S. 813, 126 S.Ct. 2266, 165 L.Ed.2d 224 (2006),
are also references to Hammon v. Indiana, which the Court consolidated with Davis.
We denied Jensen's petition for review regarding Jensen II. See Jensen v. Schwochert, No. 11-C-0803, 2013 WL
6708767, at *5 (E.D. Wis. Dec. 18, 2013), aff'd, Jensen v. Clements, 800 F.3d 892 (7th Cir. 2015).
The circuit court noted, incorrectly, that Davis (and Hammon) was decided after Jensen I. Not only was Davis decided
before Jensen I but in Jensen I we expressly followed Davis.
See
State
v.Jensen
- -- - (Jensen
- - -I), 2007 WI 26, ¶19, 299 Wis.
2d 267, 727 N.W.2d 518.
Courts may also depart from the law of the case in two other situations: when the evidence at a subsequent trial is
“substantially different” than that at the initial trial; and when following the law of the case would result in a “manifest
injustice.” See Stuart I, 262 Wis. 2d 620, ¶ 24, 664 N.W.2d 82 (quoted source omitted). Neither of those situations applies
here.
Even if Schwochert or Clements could establish the law of the case, our conclusion would be the same because both
agreed with our holding in Jensen I that Julie's statements are testimonial hearsay. See Schwochert, 2013 WL 6708767, at
*17 (“Jensen's rights under the Confrontation Clause of the Sixth Amendment were violated when the trial court admitted”
Julie's statements); Clements, 800 F.3d at 908 (adding that “there is no doubt that” admitting Julie's statements violated
“Jensen's rights under the Confrontation Clause”).
Before Crawford, cross-examination was but one method of proving that a testimonial hearsay statement was acceptably
reliable. See Ohio v. Roberts, 448 U.S. 56, 70-73, 100 S.Ct. 2531, 65 L.Ed.2d 597 (1980); Mancusi v. Stubbs, 408 U.S.
204, 216, 92 S.Ct. 2308, 33 L.Ed.2d 293 (1972). But Crawford went further, holding that a prior opportunity for meaningful
cross-examination was the only way to show that a testimonial hearsay statement was sufficiently reliable under the
Confrontation Clause. Crawford v. Washington, 541 U.S. 36, 55-56, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004).
In a 2004 survey of 64 prosecutors’ offices in California, Oregon, and Washington, 63 percent of respondents reported
that Crawford v. Washington, 541 U.S. 36, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004) had significantly impeded domestic
violence prosecution. Tom Lininger, Prosecuting Batterers After Crawford, 91 Va. L. Rev. 747, 750 (2005). Further, 76

Pet-App. 12

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

State v. Jensen, 396 Wis.2d 196 (2021)
957 N.W.2d 244, 2021 WI 27

2

percent of respondents indicated that after Crawford their offices were more likely to dismiss domestic violence charges
when the victims refused to cooperate or were unavailable. Id. at 773.
The Davis Court described these statements as “frantic,” 547 U.S. at 827, 126 S.Ct. 2266, a word that connotes a
lack of thought or good judgment. This type of language is emblematic of the obstacles domestic abuse victims face in
effectively conveying the truth of their experiences to institutional gatekeepers. “[D]omestic violence complainants can
find themselves in a double bind. The symptoms of their trauma—the reliable indicators that abuse has in fact occurred—
are perversely wielded against their own credibility in court. [Post-traumatic stress disorder] symptoms can ... contribute
to credibility discounts that may be imposed by police, prosecutors, and judges.” Deborah Epstein & Lisa A. Goodman,
Discounting Women: Doubting Domestic Violence Survivors’ Credibility and Dismissing Their Experiences, 167 U. Penn.
L. Rev. 399, 422 (2019).

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

Pet-App. 13

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

OFFICE OF THE CLERK

WISCONSIN COURT OF APPEALS
110 EAST MAIN STREET, SUITE 215
P.O. Box 1688
MADISON, WISCONSIN 53701-1688
Telephone (608) 266-1880
TTY: (800) 947-3529
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

DISTRICT II

February 26, 2020

To:
Hon. Chad G. Kerkman
Circuit Court Judge
Kenosha County Courthouse, Br. 8
912 56th St.
.
Kenosha, WI 53140

Dustin C. Haskell
Assistant State Public Defender
735 N. Water St., Rm. 912
Milwaukee, WI 53203
Aaron R. 0 'Neil
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857

Rebecca Matoska-Mentink
Clerk of Circuit Court
Kenosha County Courthouse
912 56th St.
.
Kenosha, WI 53140

Jeremy C. Perri
First Asst. State Public Defender
735 N. Water St., Rm. 912
Milwaukee, WI 53203

John Blimling
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857
Michael D. Graveley
District Attorney
912 56th St.
Kenosha, WI 53140-3747

You are hereby notified that the Court has entered the following opinion and order:
2018AP1952-CR

State of Wisconsin v. Mark D. Jensen (L.C. #2002CF314)

Before Reilly, P.J., Gundrum and Davis, JJ.
Summary disposition orders may not be cited in any court of this state as precedent or
authority, except for the limited purposes specified in WIS. STAT. RULE 809.23(3).

Pet-App. 14

No. 2018API952-CR

This case has much history, having already been the subject of one supreme court
decision more than a decade ago, State v. Jensen (Jensen I), 2007 WI 26,299 Wis. 2d 267, 727
N.W.2d 518, a prior decision by this court, State v. Jensen (Jensen JI), 2011 WI App 3,331
Wis. 2d 440, 794 N.W.2d 482, and multiple federal court decisions, Jensen v. Schwocliert,
No. 11-C-0803, unpublished slip op. (E.D. Wis. Dec. 18, 2013), aff'd, Jensen v. Clements, 800
F.3d 892 (7th Cir. 2015), Jensen v. Clements, No. ll-C-803, unpublished slip op. (E.D. Wis.
Nov. 27, 2017), and Jensen v. Pollard, 924 FJd 451 (7th Cir. 2019).
In this current challenge, Mark Jensen appeals from a judgment of the circuit court

convicting him of first-degree intentional homicide, which judgment was entered after the United
States District Court for the Eastern District of Wisconsin granted his petition for a writ of
habeas corpus and ordered Jensen "released from custody unless, within 90 days of the date of
this decision, the State initiates proceedings to retry him."

Jensen v. Schwochert,

No. l l-C-0803, at 55. Because the circuit court entered this judgment without affording Jensen a
new trial (and without otherwise being based upon a plea), he asserts the court erred either by
"unconstitutionally direct[ing] a new judgment against him without a trial or plea, or because the
circuit court re-entered an old, constitutionally infirm conviction that was invalidated by a higher
court." Based upon our review of the briefs and record, we conclude at conference that this case
is appropriate for summary disposition. See WIS. STAT.

RULE

809.21 (2017-18). 1 Because we

agree the circuit court erred in entering judgment against Jensen without affording him a new
trial, we reverse and remand for further proceedings.

1

All references to the Wisconsin Statutes are to the 2017-18 version unless otherwise noted.

2
Pet-App.
15

....
No. 2018AP1952-CR

BackgroumP
In 2002, Jensen was charged with first-degree intentional homicide of his wife, Julie, in
connection with her death by poisoning. He filed a motion challenging on Confrontation Clause
grounds the admissibility of a handwritten letter Julie wrote prior to her death. The letter,
bearing Julie's signature, had been in a sealed envelope addressed to "Pleasant Prairie Police
Department, Ron Kosman or Detective Ratzenburg" and given to a neighbor.

Julie had

instructed the neighbor that he should give the envelope to police if anything happened to her.
The letter stated, among other things, that "if anything happens to me, [Jensen] would be my first
suspect" and "I pray I'm wrong [and] nothing happens ... but I am suspicious of [Jensen's]
suspicious behaviors [and] fear for my early demise."
Jensen similarly challenged the admissibility of voicemail messages and other oral

In one of the messages, Julie told Kosman she

statements Julie made to Officer Kosman.

thought Jensen was attempting to kill her and asked that Kosman call her back. Jensen I, 299
Wis. 2d 267, 16; Jensen v. Schwochert, No. ll-C-0803, at 2.

Our supreme court further

described Julie's messages as indicating that "Jensen had been acting strangely and leaving
himself notes Julie had photographed and that she wanted to speak with Kosman in person
~

•

I

,

because she was afraid Jensen was recording her phone conversations." Jensen I, 299 Wis. 2d
267, 130. The other oral statements at issue relate to Kosman speaking with Julie in person in
response to her voicemail messages. As our supreme court expressed it in Jensen I, in such

2

Because of the extensive history of this case and the role that history plays in this appeal, we
draw much of the background information from the prior cases.

3 16
Pet-App.

,.
No. 2018AP1952-CR

statements, Julie indicated, among other things, that "if she were found dead, . . . she did not
3
commit suicide, and Jensen was her first suspect." Id., ,r6.

The circuit court originally ruled that the letter and in-person statements to Kosman were
admissible. After the United States Supreme Court decided Crawford v. Washington, 541 U.S.
36 (2004), however, Jensen moved for reconsideration. Revisiting the issue, the circuit court
concluded the -letter and voicemail messages were testimonial statements and as such were
inadmissible under Crawford.

'The State had conceded the in-person statements were

testimonial.
On appeal to our supreme court, the court observed in Jensen I that the United States
Supreme Court "fundamentally changed the Confrontation Clause analysis" with its decision in
Crawford. Jensen I, 299 Wis. 2d 267, ,Il 4. Prior to Crawford, our supreme court noted,

Confrontation Clause jurisprudence was driven by Ohio v. Roberts, 448 U.S. 56 (1980). As the
Jensen I court expressed it,

Under Roberts, when an out-of-court declarant is unavailable, his
or her statement is admissible if it bears an adequate indicia of
reliability, which could be satisfied if the statement fell within a
firmly rooted hearsay exception or bore particularized guarantees
of trustworthiness. Roberts, 448 U.S. at 66.
Jensen I, 299 Wis. 2d 267, ,rt4.

Constituting a "major shift in Confrontation Clause

jurisprudence," the Crawford Court instead "determined that the Confrontation Clause bars

This evidence was presented at Jensen's preliminary hearing. State v. Jensen (Jensen I), 2007
WI 26, ifif4-7, 299 Wis. 2d 267, 727 N.W.2d 518.
3

4
Pet-App.
17

No. 2018AP1952-CR

admission of an out-of-court-testimonial statement unless the declarant is unavailable and the
defendant has had a prior opportunity to examine the declarant with respect to the statement."

Jensen I, 299 Wis. 2d 267,115 (emphasis added). The Jensen I court recognized that Crawford
"did not spell out a comprehensive definition of what 'testimonial' means" and then identified
indicators from Crawford to aid in a determination of whether a statement is testimonial or
nontestimonial. Jensen I, 299 Wis. 2d 267, 116.
The Jensen I court also recognized that in a·post-Crawford Confrontation Clause case,

Davis v. Washington, 547 U.S. 813 (2006), the Uniteq. States Supreme Court referenced a
"primary purpose" test in holding: "Statements are nontestimonial when made in the course of
police interrogation under circumstances objectively indicating that the primary purpose of the
interrogation is to enable police assistance to meet an ongoing emergency." Jensen I, 299
Wis. 2d 267, 119. Ultimately, the court held that "Julie's statements to the police and the letter
are testimonial." Id., 120.
With respect to its holding that the letter and statements by Julie are testimonial, the

Jensen I court discussed the following:
.

.

We begin first with the statements Julie made in her letter. The
circuit court concluded that the letter was testimonial as it had no
apparent purpose other than to "bear testimony" and Julie intended
it exclusively for accusatory and prosecutorial purposes.
Furthermore, the circuit court stated, "I can't imagine any other
purpose in sending a letter to the police that is to be opened only in
the event of her death other than to make an accusatory statement
given the contents of this particular letter."
Id., 126. The Jensen I court expressed its agreement with the circuit court's observation, and
added

that

Julie's

letter

"even

referred

to

5 18
Pet-App.

Jensen

as

a

'suspect."'

Id.

r

No. 2018AP1952-CR

Similar to the circuit court, the Jensen I court stated that
[t]he content and the circumstances surrounding the letter make it
very clear that Julie intended the letter to be used to further
investigate or aid in prosecution in the event of her death.· Rather
than being addressed to a casual acquaintance or friend, the letter
was purposely directed toward law enforcement agents. The letter
also describes Jensen's alleged activities and conduct in a way that
clearly implicates Jensen if "anything happens" to her.

Id., 127.
The Jensen I court noted t];ie similarity between Julie's letter and Lord Cobham's letter
accusing Sir Walter Raleigh of treason, followed by an infamous trial that provided an impetus
for the Confrontation Clause. Id., 129; see also Crawford, 541 U.S. at 44-45. The Jensen I
court stated that Julie's letter was
testimonial in nature as it clearly implicates Jensen in her murder.
If we were to conclude that her letter was nontestimonial, we
would be allowing accusers the right to make statements clearly
intended for prosecutorial purposes without ever having to worry
about being cross-examined or confronted by the accused. We
firmly believe Craw/ord and the Confrontation Clause do not
support such a result.

Jensen I, 299 Wis. 2d 267, 129. Specifically as to the voicemail messages Julie left for Kosman,
the Jensen I court again agreed with the circuit court.
Again, the circuit ~ourt determined that these stateme~ts served no
other purpose than· to bear testimony and were entirely for
Furthermore, Julie's
ac_cusatory and prosecutorial purposes.
voicemail was not made for emergency purposes qr to escape from
a perceived danger. She instead sought to relay information in
order to further the investigation of Jensen's activities. This
distinction convinces us that the voicemails are testimonial. See
Pitts v. State, 280 Ga. 288, 627 S.E.2d 17, 19 (2006) ("Where the
primary purpose of the telephone call is to establish evidentiary
facts, so that an objective person would recognize that the
statement would be used in a future prosecution, then that phone
call 'bears testimony' against the accused and implicates the
concerns of the Confrontation Clause.").

6
Pet-App.
19

No. 2018AP1952-CR

Jensen I, 299 Wis. 2d 267, 130. The Jensen I court's ultimate holding on the issue of Julie's
letter and voicemail messages is that they are "testimonial."4 Id., 134.
Despite its determination that Julie's letter and other statements are testimonial, the

Jensen I court did not simply rule them inadmissible because it also held that the doctrine of
"forfeiture by wrongdoing" might apply to this evidence, so it remanded the matter back to the
circuit court to determine whether, by a preponderance of the evidence, Jensen caused Julie's
unavail~bility for. confrontation and thus forfeited

his right to confro.nt her.

Id., 158. Following

a hearing on remand focused on the forfeiture-by-wrongdoing exception, the circuit court

The Jensen I court noted that the State had conceded that the in-person statements Julie made
to Kosman when he followed up on her voicemails were testimonial. Jensen I, 299 Wis. 2d 267, 111 n.4;
State v. Jensen (Jensen II), 2011 WI App 3, 111 n.4, 331 Wis. 2d 440, 794 N.W.2d 482. In this current
appeal, the State asks us to rule that Julie's. voicemails and in-person statements, along with the letter, are
nontestimonial. · In doing so, the State effectively treats the voicemails and in-person statements as being
of the same nature and character for Confrontation Clause purposes and refers to them collectively as ''the
statements." The State is not incorrect in doing so as Julie's voicemail messages and in-person statements
to Kosman are in fact of the same nature and character for Confrontation Clause purposes in that they
occurred around the same time, related to the same concern that Jensen may have been trying to kill her,
and were made to the same person, who was a law enforcement officer. As the Jensen I court stated with
regard to the voicemail messages:
4

[T]he circuit court determined that these statements served no other purpose than to bear
testimony and were entirely for accusatory and prosecutorial purposes. Furthermore,
Julie's voicemail was not made for emergency purposes or to escape from a perceived
danger. She instead sought to relay information in order·to further the investigation of
Jensen's activities. This distinction convinces us that the voicemails are testimonial.
(continued)
7 20
Pet-App.

No. 2018AP1952-CR

determined by a preponderance of the evidence that Jensen had caused Julie's unavailability and
thus had forfeited his confrontation right, and it ruled Julie's letter and statements admissible.
The circuit court held a trial at which the letter and other statements were admitted, and Jensen
was found guilty.
Subsequent to the trial, the United States Supreme Court decided Giles v. California, 554

U.S. 353 (2008), which addressed the forfeiture-by-wrongdoing doctrine. On appeal of his
conviction to,

this c~~' Jen~en -~hallenged ·the admission of the letter and statements, and

ultimately the guilty verdict against him, based upon Giles' holding regarding the forfetture-bywrongdoing doctrine, which holding conflicted with our supreme court's holding on that issue in

Jensen I. Jensen II, 331 Wis. 2d 440, 122. We assumed, without deciding, that the letter and
statements were erroneously admitted at trial but held that their admission was harmless.

Id., 135.
Jensen also contended in the appeal to us that his due process right to a fair trial was
violated because the judge who presided over his trial was the same judge who previously made
the finding that he had forfeited his Confrontation Clause challenge to the letter and statements

Jensen I, 299 Wis. 2d 267, ,I30. Pursuant to Cook v. Cook, 208 Wis. 2d 166, 189, 560 N.W.2d 246
(1997), and in light of our supreme court's decision·in Jensen I, we conclude we are not at liberty to treat
Julie's in-person statements to Kosman any differently than her voicemail messages to him, and we
conclude that both the messages and in-person statements are testimonial. Furthermore, the State
abandoned its opportunity to argue that the in-person statements are nontestimonial when it conceded in
Jensen I that they were testimonial. See A.O. Smith Corp. v. Allstate Ins. Cos., 222 Wis. 2d 475, 491,
588 N.W.2d 285 (Ct. App. 1998) ("[A]n issue raised in the trial court, out not raised on appeal, is deemed
abandoned."). We further note that it appears the federal courts also determined that both the voicemail
and in-person statements, as well as the letter, were testimonial and that their admission at trial violated
Jensen's Confrontation Clause rights. See Jensen v. Schwochert, No. l 1-C-0803, unpublished slip op. at
18, 28, 54-55 (E.D. Wis. Dec. 18, 2013), affd, Jensen v. Clements, 800 F.3d 892, 896, 908 (7th Cir.
2015).

8
Pet-App.
21

No. 2018AP1952-CR

by causing Julie's unavailability. We rejected this contention on the merits and also concluded
he had forfeited it by failing to first raise it in the circuit court. Id., ,r,r94-96. On the merits, we
stated:
Under Wis. STAT. § 901.04, a judge must make preliminary
evidentiary findings such as the finding Judge Schroeder made that
Moreover,
Jensen was guilty of forfeiture by wrongdoing.
Judge Schroeder was ordered by our supreme court to make a
forfeiture by wrongdoing finding. Additionally, Jensen points to
nothing to support his implied contention that a judge who makes
the preliminary finding of forfeiture by wrongdoing must recuse
himself or herself from the trial. Finally, Jensen proffers no
objective evidence of bias. We address this argument no further.
Jensen II, 331 Wis. 2d 440, ,I96 (footnote omitted).

Jensen subsequently filed a petition for review by the Wisconsin Supreme Court, which
petition the court denied. Jensen then filed a habeas petition in federal court. The federal district
court for the Eastern District of Wisconsin ruled that the admission of the testimonial letter and
statements by Julie at trial violated Jensen's rights under the Confrontation Clause and, contrary
to our ruling in Jensen II, was not harmless error, and the court ordered Jensen "released from
custody unless, within 90 days of the date of this decision, the State initiates proceedings to retry

him." Jensen v. Schwochert, No. 11-C-0803, at 55.
The State appealed the federal district court's ruling to the Seventh Circuit Court of
Appeals, and that court affirmed, expressing "[t]hat the jury improperly heard Julie's voice from
the grave in the way it did means there is no doubt that Jensen's rights under the federal
Confrontation Clause were violated." Jensen v. Clements, 800 F.3d at 908. _The court stated
that the "letter and other accusatory statements [Julie] made to the police in the weeks before her
death regarding her husband should never have been introduced at trial," adding that "[t]he
erroneous admission of Julie's letter and statements to the police had a substantial and injurious
9
Pet-App.
22

No. 2018AP1952-CR

influence or effect in determining the jury's verdict." Id. at 895. Upon remand to the state
circuit court, Jensen's conviction was vacated and further proceedings were held.
Despite the Wisconsin Supreme Court's ruling in Jensen I and the federal court rulings
holding that Julie's letter and other statements were testimonial, as the parties prepared for a
retrial, the State asked the circuit court to consider anew the admissibility of the letter and Julie's
other statements and rule them admissible at a retrial. The State asserted, as it does on appeal,
that United States Supreme Court cases decided in 2011, 2012, and 2015 'modified the definition
of what constitutes a "testimonial" statement and that under the revised definition, Julie's letter
and other statements do not qualify.

The circuit court agreed and ruled that the letter and

statements are nontestimonial and could be admitted at trial. The State subsequently filed a
motion to reinstate the original jury verdict without a retrial, and the circuit court did just that,
reinstating the original conviction as well as Jensen's life sentence, explaining that there was no
5
need for a new trial because the evidence would be "materially the same as the first trial."

Jensen appeals.

Discussion
In this appeal, -Jensen argues that the .. circuit court erred either by "unconstitutionally
direct[ing] a new judgment against him without a trial or plea, or because the circuit court reentered an old, constitutionally infirm conviction that was invalidated by a higher court." We
need not delve into the murky waters of deciding between these two because whichever action
the court in fact took under the law was in error as they are both based on the court's erroneous
Related litigation then followed in federal court, but our ruling is not dependent on those
proceedings.
5

10 23
Pet-App.

6,.

No. 2018AP1952-CR

ruling that Julie's letter and other statements are nontestimonial and thus not subject to the
Confrontation Clause.
"[T]he Confrontation Clause applies ... to statements that are testimonial in nature," but
does not apply to statements that are nontestimonial. State v. Reinwand, 2019 WI 25, ,r,r22-23,
385 Wis. 2d 700, 924 N.W.2d 184.

Whether a particular statement is testimonial or

nontestimonial is a question of law we review de novo. State v. Deadwiller, 2012 WI App 89,
,r7, 343-Wis. 2d 703, 820 N.W.2d 149.
While our recitation of the procedural history of this case is long, our analysis will be
short. Neither we nor the circuit court are at liberty to decide that the letter and other statements
Julie made to Kosman are nontestimonial. Under Cook v. Cook, 208 Wis. 2d 166, 189, 560
N.W.2d 246 (1997), "[t]he supreme court is the only state court with the power to overrule,
modify or withdraw language from a previous supreme court case." See Jensen II, 331 Wis. 2d
440, ,r21. That is what the circuit court erroneously did and what the State asks us to affirm in
this case.
We will not again detail all that the supreme court said in Jensen I with regard to the
- testimonial -nature of Julie's letter and other statements to Kosman. We will, however, point-out
again that the court stated:

If we were to conclude that her letter was nontestimonial, we
would be allowing accusers the right to make statements clearly
intended for prosecutorial purposes without ever having to worry
about being cross-examined .or confronted by the accused. We
firmly believe Crawford and the Confrontation Clause do not
support such a result.

11 24
Pet-App.

No. 2018APl952-CR

Jensen I, 299 Wis. 2d 267, 129 (emphasis added). The supreme court made its "firmO belie[f]"
abundantly clear, not just in a case with facts very similar to the facts in this case, but in this case
itself, with these same exact facts.

Id. In the end, the court ruled in Jensen I _that "the

statements Julie made to Kosman, including the letter, are testimonial," id., 158, and it did so not
solely based upon the Crawford decision, but upon the Confrontation Clause itself. We are not
at liberty to state otherwise. 6 With that, we must conclude the c4"cuit court erred in entering a
judgment of conviction without a new trial, a new trial which was envisioned by the federal
district court when it returned this case to the circuit court with instructions to "release [Jensen]
froi:n custody unless, within 90 days of the date of this decision, the State initiates proceedings to
retry him." Jensen v. Schwochert, No. 11-C-0803, at 55. We reverse and we remand for a new
trial at which Julie's letter and other statements may not be admitted into evidence.

7

We have already recognized in Jensen II, almost four years after Jensen I, that we are bound
by our supreme court's declaration in Jensen I that "the statements Julie made to Kosman, including the
letter addressed to the police, are 'testimonial,"' Jensen II, 331 Wis. 2d 440, 127, and we referred to
these statements as testimonial, see id., -U113, 14, 35, 38, 71, 73. Related to our ruling that we are bound
by the Jensen I court's determination that the letter and other statements are testimonial, we specifically
stated:
6

In order to determine which statements may be analyzed under the broader version of the

forfeiture by wrongdoing analysis, we must first determine which statements are
testimonial and which are not. Fortunately, our supreme court has done so for us in
Jensen, 299 Wis. 2d 267, ,r2. See Livesey v. Copps Corp., 90 Wis. 2d 577, 581, 280
N.W.2d 339 (Ct. App. 1979) (recognizing that "[t]he court of appeals is bound by the
prior decisions of the Wisconsin Suprerµe Court'').

Jensen II, 331 Wis. 2d 440, -U27.

Jensen also argues that if his "current conviction is a re-entry of the old constitutionally infirm
judgment ... this judgment is infected by the same judicial bias that Jensen presented in his direct appeal
in Jensen II." Jensen recognizes that we already answered in Jensen II that he had failed to show
judicial bias, but he acknowledges he is just raising the issue again to preserve it "for review by a federal
habeas court, if necessary." Because we already have ruled that he is entitled to a new trial upon remand
(at which trial the challenged statements may not be admitted) and that he has not shown judicial bias, we
see no need to address this issue further.
7

12 25
Pet-App.

No. 2018AP1952-CR

Therefore,
IT IS ORDERED that the judgment of the circuit court is summarily reversed pursuant to
WIS. STAT. RULE 809.21.

IT IS FURTHER ORDERED that this case is remanded with directions.
IT IS FURTHER ORDERED that this summary disposition order will not be published.

Sheila T. Reiff
Clerk of Court ofAppeals

Pet-App. 26
13

FILED
09-18-2017
Clerk of Circuit Court

STATE OF WISCONSIN

CIRCUIT COURT

KENOSHA COUNTY

DA Case No.: FR2000 839

STATE OF WISCONSIN
Plaintiff,

Kenosha County
2002CF000314

Court Case No.: 2002CF000314

vs.
MARK D. JENSEN
DOB: 10/05/1959
Defendant.

ORDER
Hon. Chad Kerkman

For Official Use

The court having carefully considered the briefs filed by the State and the defendant to
reinstate the Defendant’s original conviction and having heard oral argument’s at the hearing
held on 1st day of September, 2017 makes the following findings:
1. On July 13, 2017, the court, applying Ohio V. Clark, Michigan v. Bryant and other
cases decided since Crawford v. Washington and Jensen I as cited by the State in
its briefs, found Julie Jensen’s letter and statements to Officer Kosman to be nontestimonial, not violative of the Defendant’s constitutional confrontation clause, and
admissible under exceptions to the rules against hearsay.
2. As a result, the evidence at a second trial in the case of State v. Mark Jensen would
be materially the same as in the first trial.
3. The federal district court in its clarifying Order of August 18, 2017 held that the State
has complied with its Order by reinstating proceedings to try the Defendant.
4. Because all the evidence at the second trial will be materially the same as at the first
trial, it makes no sense to have a second trial.
5. As the State had previously paraphrased the Supreme Court of the United States:
“There is no constitutional necessity at this point for proceeding with a new trial for
[Jensen] has already been tried to a jury with [the letter and statements] placed
before it and has been found guilty.” Jackson v. Denno, 378 U.S. 368,395, 845
S.Ct. 1774, 12 L.Ed.2d 908 (1964).

Pet-App. 27
09/08/2017
813-1

STATE OF WISCONSIN - VS - Mark D. Jensen

Accordingly, IT IS HEREBY ORDERED:
THE JUDGMENT OF CONVICTION IS REINSTATED.
THE PREVIOUSLY IMPOSED SENTENCE OF LIFE IMPRISONMENT WITHOUT
PAROLE IS REINSTATED.
THE DEFENDANT’S BOND IS REVOKED.
CUSTODY OF THE DEFENDANT IS COMMITTED TO THE CUSTODY OF THE
DEPARTMENT OF CORRRECTIONS FOR CONFINEMENT IN THE WISCONSIN
STATE PRISON FOR THE REMAINDER OF HIS LIFE.

BY THE COURT:
Dated this 18th day of September, 2017
BY THE COURT:
Electronically signed by Judge Chad G. Kerkman, Circuit Court Branch 8
Circuit Court Judge
_____________________________

Judge Chad Kerkman
Kenosha County Circuit Court

Pet-App. 28
09/08/2017

2
813-2

1

STATE OF WISCONSIN:

2

CIRCUIT COURT:

KENOSHA COUNTY:

BRANCH 8

3
4

STATE OF WISCONSIN,

5

Plaintiff,

6

-vs-

7

MARK D. JENSEN,

8

Defendant.

)
)
)
)
)
)
)
)
)

CASE NO. 02-CF-314
MOTION HEARING

9
10
11
12

THE HONORABLE CHAD G. KERKMAN
JUDGE PRESIDING

13
14
15

APPEARANCES

16

ATTORNEY ANGELINA GABRIELE, Kenosha County
Deputy District Attorney, and ATTORNEY ROBERT JAMBOIS,
Special Prosecutor, appeared on behalf of the State of
Wisconsin.

17
18
19

ATTORNEYS DEBORAH SUSAN VISHNY AND MACKENZIE
RENNER, Assistant State Public Defenders, appeared on
behalf of the defendant who appeared in person.

20
21
22

DATE OF PROCEEDINGS:
September 1, 2017

23
24

SHERRY BAUER
COURT REPORTER

25

Pet-App. 29
1

1
2

THE COURT:
Jensen, 02-CF-314.

3

I'll call State versus Mark D.

Appearances.

MR. JAMBOIS:

Good morning, Your Honor.

4

The State of Wisconsin appears by Special Prosecutor

5

Robert Jambois and Deputy District Attorney Angelina

6

Gabriele.

7

MS. VISHNY:

Mr. Jensen appears in person

8

subject to jurisdictional objections by Attorneys Deja

9

Vishny and Mackenzie Renner.

10

THE COURT:

Good morning, Your Honor.

Good morning.

We are here

11

today for pretrial motions.

12

scheduled for September 25th.

13

correspondence from Attorney Vishny on -- it's dated

14

August 25th -- about the -- listing all the motions you

15

want to have heard today.

16

We have a jury trial
The Court received

I really appreciate that.

Before we get to those motions I just want

17

to make sure that you received my draft of the jury

18

questionnaire and it was consistent with our

19

discussions?

20

MS. VISHNY:

21

THE COURT:

Yes.
Okay.

Number two, the motion

22

to seal your motion, I think the State was objecting to

23

that.

24
25

And so, I have unsealed that motion.
MS. VISHNY:

Yeah.

something on the record, Judge.

Pet-App. 30
2

I just want to clarify
I think that I made my

1

record in writing why I had sought to seal it.

2

until the Court had ruled, I had done a motion to seal

3

the second pleading.

4

we received notice from the clerk that the second --

5

the response brief was unsealed, but that the first one

6

never was.

7

some kind of error, but I just wanted to point that out

8

to the Court.

9

And

I just want to let you know that

So I don't know if that's because there is

THE COURT:

Thank you.

I did look into

10

that and I was told when documents are eFiled and there

11

is a request to seal from the attorneys, a petition is

12

supposed to pop up that the judge is supposed to

13

review.

14

I certainly didn't get it.

15

Maybe it's not true.

16

decision in my opinion, not an attorney or clerk

17

decision whether a document is sealed.

18

MS. VISHNY:

I'm not aware if a petition popped up for you.
That's what I was told.

I don't know.

Yeah.

But that's a judge

I assumed that.

I'm

19

just letting you know I only got notice on the second

20

pleading by the defense, not the first.

21

THE CLERK:

They're both unsealed.

22

THE COURT:

Right.

23

They're both unsealed

now.

24

MS. VISHNY:

25

THE COURT:

Okay.

Thank you.

All right.

Pet-App. 31
3

Now getting to the

1

motions in your list.

2

conviction filed by the State on August 11th.

3

responded August 25th.

4

replied to that as well.

5

and the briefs.

6

The motion to reinstate the
Defense

I'm pretty sure the State
I have reviewed the motions

Anything further, Attorney Jambois?

MR. JAMBOIS:

Nothing from the State, Your

7

Honor.

I would indicate that the suggestion that this

8

Court is obligated to re-try the matter, that that's

9

exactly the only remedy available, just doesn't make

10

any sense when you consider what if, for example, the

11

parties had negotiated resolution of this case?

12

if there was a plea agreement?

13

foreclosed from accepting a guilty plea on a negotiated

14

settlement?

15

What

Would the Court be

When the appellate -- when the Federal

16

District Court sent this matter back with the

17

conditional writ of habeas corpus, the court sent it

18

back to this Court.

19

jurisdiction to do what is necessary in order to

20

transform an invalid judgment into a valid judgment, as

21

Justice Scalia has indicated.

22

we've pursued here is a very typical process in

23

pretrial litigation.

24
25

A Court that has broad

And the process that

The Court is called upon to make all of
these significant, discretionary decisions regarding

Pet-App. 32
4

1

the admissibility or the exclusion of evidence.

2

the Court has made those decisions and the decisions

3

clearly reflect then that the first verdict in this

4

case was a valid verdict.

5

alternatively view my motion, as I've indicated in the

6

brief, as a motion to -- for judgment in accordance

7

with the verdict, a valid verdict.

8

you could view it as a motion to reinstate the judgment

9

of conviction that had been previously vacated.

10

And

And so, you could

Or, alternatively,

The Court has authority to do either one.

11

And the major difference between the two would be is if

12

you grant the State's motion for judgment in accordance

13

with the verdict, then you would also need to

14

resentence the defendant.

15

reinstate the vacated judgment of conviction, then you

16

simply reinstate the previously imposed sentence as

17

well.

If you grant the motion to

Thank you.

18

THE COURT:

19

MS. VISHNY:

Attorney Vishny.
Judge, just -- I just want to

20

clarify the record.

The State did file a responsive

21

brief which at least I received notice of on

22

August 28th and the defense also supplemented the

23

record in terms of facts on August 30th.

24

in writing so we didn't have to have oral argument.

25

But I just wanted to make sure the factual record was

Pet-App. 33
5

We did that

1

accurate.

2

THE COURT:

3

MS. VISHNY:

I do have that.
Thank you very much.

Judge,

4

I really said everything that I had to say in writing

5

except for one quote that I think is relevant from

6

Jensen v. Schwochert, which is this.

7

is Judge Griesbach at page 15.

8

case anybody wants to see it.

9

2013, Judge Griesbach said, "If, as a general matter,

The court -- this

And I brought copies in
But on December 18,

10

there are other grounds that can constitutionally

11

support a state's" -- I'm sorry -- "a state court's

12

ruling that, as rendered, is contrary to clearly

13

established federal law, the state may seek the same

14

ruling on the alternative grounds at a new trial in

15

state court."

16

So that's exactly what happened here.

The

17

State sought the same ruling, which is the admission of

18

the letter, and now we have to have a new trial.

19

completely disagree with the State's assessment that

20

this Court has the authority to defy a federal court

21

order.

22

you can't.

23

sought an advisory opinion from Judge Griesbach in my

24

opinion is wrong.

25

I

The Supremacy Clause holds very clearly that
The State's interpretation of when it

But I think we've laid out the arguments

Pet-App. 34
6

1

and I'm sure that this Court has read everything, so --

2

and looked at the case law.

3

rest on the written arguments that we have made.

4

it is clear that this Court -- that having a plea

5

agreement has nothing to do with this.

6

trial is pending are free to reach plea negotiations at

7

any time.

8

doesn't have a right to force a case to trial.

9

this case is scheduled for trial.

And at this time I will
But

Parties when a

Nobody has a right -- a federal court
But

It has to be tried.

10

And the State is simply wrong in its assessment that

11

this Court can simply reinstate the Judgment of

12

Conviction.

13

Thank you.
THE COURT:

All right.

Well, I appreciate

14

the State filing their motion in federal court for

15

clarification.

16

guidance.

17

helpful to me.

18

fact initiate proceedings to retry Jensen within

19

90 days of the effective date of the court's order.

20

a result, Respondent is not required to release Jensen

21

from his custody.

22

the court that Jensen is no longer in Respondent's

23

custody, but is being held awaiting trial in the

24

Kenosha County Jail.

25

his custody, Respondent has no power to release him in

That -- I think it does give me some

I think the federal court's decision is
It states on page 5, "The State did in

As

In fact, the parties have advised

Because Jensen is no longer in

Pet-App. 35
7

1

any event, and thus cannot be found in contempt for

2

failing to do so."

3

And I agree that the court also went on to

4

state that they offer no opinion as to whether my

5

decision that -- that the challenged statements are

6

non-testimonial and whether the previous conviction can

7

be constitutionally reinstated without a new trial.

8

The court -- the court clearly offered no opinion on

9

that.

But I also think it's clear that the State would

10

not be in contempt if there were no trial because the

11

State did, in fact, reinitiate proceedings to try the

12

defendant.

13

I made a decision -- an evidentiary

14

decision -- on Julie Jensen's letter and that decision

15

was consistent with Judge Schroeder's decision to allow

16

that evidence to come in into the trial.

17

think that the evidence in a new trial would be

18

materially the same as in the first trial.

19

been no interlocutory appeal.

20

to be very long.

21

And so, I

There has

This trial is expected

Six, maybe seven weeks.

And so, the question right now is should

22

the prior conviction be reinstated along with the

23

sentence or do we need to have a new trial because we

24

believe that the federal court ordered us to have a new

25

trial even though the evidence would be the same.

Pet-App. 36
8

1

That doesn't make a whole lot of sense to

2

me.

If the evidence is going to be materially the same

3

as in the first trial and the federal judge says, yes,

4

the State has complied with our order, they've -- they

5

had the choice of releasing the defendant or

6

reinstating proceedings to try the defendant, and it

7

sounds to me like the federal judge has agreed that the

8

State has done what they needed to do, it doesn't make

9

a whole lot of sense to me as far as judicial economy

10

to have a new trial on the same evidence as in the

11

first trial.

12

So I am going to grant the State's motion

13

to reinstate the conviction and the sentence.

14

not going to have a trial on September 25th.

15

Court of Appeals and the Supreme Court can do as they

16

will.

17

MS. VISHNY:

18

MR. JAMBOIS:

Thank you, Your Honor.

prepare an order for the Court's signature.

20

want to prepare the order.

22
23

MS. VISHNY:

And the

Okay.

19

21

We are

No.

I'll

Unless you

Why don't you prepare

it.
MR. JAMBOIS:

Well, I wanted to confer

24

with the Attorney General's Office first.

25

done as quickly as we can.

It will be

Certainly no later than

Pet-App. 37
9

1

Monday or Tuesday.

2

MS. VISHNY:

All right.

Before the Court

3

signs an order, I would ask that the defense be able to

4

review it.

5

MR. JAMBOIS:

6

MS. VISHNY:

7

THE COURT:

8

MS. VISHNY:

9

Labor Day.

Okay.

Of course.
Monday -Five days.
Five days.

procedural issues just to be clear.

11

where this is going.

12

therefore, the trial is off.

13

cancel its subpoenas as a result.

15
16
17

THE COURT:

MS. VISHNY:

And,

The defense is going to

I don't see how we're going to

Okay.

That's fine.

So we're

going to cancel the subpoenas.

19

MS. VISHNY:

22

We all know

have a trial on September 25th.

THE COURT:

21

Okay.

To federal court.

18

20

Monday is

I just want to do just a couple of

10

14

Yeah.

Yes.
The other motions are pending

should they need to be heard at a later date.
THE COURT:

Yes.

Yes.

And, again, thank

you very much for your list.

23

MS. VISHNY:

24

MR. JAMBOIS:

25

MS. VISHNY:

Thank you, Your Honor.
Thank you, Your Honor.
Oh, wait.

Pet-App. 38
10

I did have one

1

other matter and that's about where Mr. Jensen is going

2

to be located.

3

reinstated, which would mean he would be transported to

4

Dodge Correctional.

5

in the custody of Kenosha County for one week so that

6

his lawyers can easily confer with him.

7

MR. JAMBOIS:

I know that the sentence has been

I would ask that Mr. Jensen remain

Why don't I do this then.

8

I'll prepare the order for the Court's signature on

9

Friday and then --

10

MS. VISHNY:

11

MR. JAMBOIS:

12

No.

We object to that.

Well, he must remain here

until the Court signs an order.

13

MS. VISHNY:

Okay.

Well, if the Court

14

signs the order by the end of business Tuesday, I think

15

that will probably do the trick.

16

THE COURT:

I thought I understood that

17

you wanted some time to review the order.

18

not be signing it on Tuesday if you wanted time.

19

MS. VISHNY:

So I will

I just want to make sure that

20

counsel can see him on Tuesday because we're not going

21

to confer with him here in the courtroom.

22

fine.

23

here on Tuesday then.

24
25

You can submit it on Tuesday.

So that's

He'll still be

That's all I really cared about.

MR. JAMBOIS:

I wanted time to confer with

the Attorney General's Office.

Pet-App. 39
11

I might not get that

1

done by Tuesday.

2

Friday of next week and that's what the State was

3

intending to do because, like I said, we need to

4

consult with the Attorney General's Office about it.

5

So I was hoping to file the order by

MS. VISHNY:

Let me just say this, Judge.

6

On May 15th, or whatever date it was in May, in 2016,

7

Mr. Jambois came to this Court and said he was going to

8

be filing a motion to readmit the letter and then to

9

reinstate the conviction.

In other words, the State

10

has planned this action for approximately 15 months at

11

this juncture.

12

I realize that they have conferred with

13

the Attorney General's Office prior to this and that

14

this has been a joint venture between the Attorney

15

General's Office and the prosecutors in this case.

16

least to some degree there's been some coordination

17

since the Attorney General's Office went to federal

18

court.

19

production of an order here.

20

I see no reason for further delay in the

The defense is prepared to produce the

21

order by Tuesday.

22

Court.

23

don't see any reason for delay.

24
25

At

That would be consistent with the

In fact, we could even get it done today.

THE COURT:

I

My normal practice is if a

proposed order is filed with the Court, then I allow

Pet-App. 40
12

1

five days for the other party to review it.

2

want to draft an order, have it filed on Tuesday,

3

that's fine.

4

well, that's fine.

5

give you five days on each order and then I'll sign an

6

order.

7

If the State wants to propose an order as
I can take a look at that and I'll

MS. VISHNY:

Okay.

8

with the Court's procedure.

9

me, Judge.

10
11

THE COURT:

MS. VISHNY:

Thank you for enlightening

It's just how I normally do

That's fine.

I just needed

to know that.

14

THE COURT:

15

MR. JAMBOIS:

16

I was not familiar

it.

12
13

So if you

All right.
Thank you, Your Honor.

(End of proceedings.)

17
18
19
20
21
22
23
24
25

Pet-App. 41
13

1

STATE OF WISCONSIN )

2

)

3

COUNTY OF KENOSHA

)

4
5
6
7

I, Sherry Bauer, a Registered Merit Reporter in

8

and for the State of Wisconsin, hereby certify that the

9

foregoing 13 pages comprise a true, complete, and

10

correct transcript of the proceedings had at the Motion

11

Hearing held before the Honorable Chad G. Kerkman,

12

Branch 8, on September 1, 2017, at the Kenosha County

13

Courthouse, Kenosha, Wisconsin.

14
15
16

In witness whereof I have hereunto set my hand
this 1st day of September, 2017.

17
18
19

Electronically Signed By

20

Sherry Bauer

21

Registered Merit Reporter

22
23
24
25

Pet-App. 42
14

Jensen v. Pollard, 141 S.Ct. 165 (Mem) (2020)
207 L.Ed.2d 1100

June 29, 2020
141 S.Ct. 165
Supreme Court of the United States.

Mark D. JENSEN, Petitioner,
v.
William POLLARD.
No. 19-7603.
|
End of Document

Case below, 924 F.3d 451.
Opinion
Petition for writ of certiorari to the United States Court of
Appeals for the Seventh Circuit denied.
All Citations
141 S.Ct. 165 (Mem), 207 L.Ed.2d 1100
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

Pet-App. 43

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Case: 17-3639

Document: 54

Filed: 11/06/2019

Pages: 1

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
November 6, 2019
Before
ILANA DIAMOND ROVNER, Circuit Judge
DIANE S. SYKES, Circuit Judge
AMY C. BARRETT, Circuit Judge

No. 17-3639
MARK D. JENSEN,
Petitioner-Appellant,

Appeal from the
United States District Court
for the Eastern District of Wisconsin.

v.
No. 11-C-803
WILLIAM POLLARD,
Respondent-Appellee.

William C. Griesbach,
Judge.
ORDER

On consideration of the petition for rehearing and for rehearing en banc, no judge
in active service has requested a vote on the petition for rehearing en banc,1 and all of
the judges on the original panel have voted to deny rehearing. It is therefore ordered that
the petition for rehearing and for rehearing en banc is DENIED.

1

Circuit Judge Michael B. Brennan did not participate in the consideration of the petition
for rehearing.

Pet-App. 44

Jensen v. Pollard, 924 F.3d 451 (2019)

924 F.3d 451
United States Court of Appeals, Seventh Circuit.

Mark D. JENSEN, Petitioner-Appellant,
v.
William POLLARD, Respondent-Appellee.

Attorneys and Law Firms
Attorney,
FEDERAL
Craig
W.
Albee,
DEFENDER SERVICES OF EASTERN WISCONSIN,
INCORPORATED, Milwaukee, WI, Joseph Aragorn
Bugni, Attorney, FEDERAL DEFENDER SERVICES OF
WISCONSIN, INC., Madison, WI, for Petitioner-Appellant.
Aaron R. O'Neil, Attorney, OFFICE OF THE ATTORNEY
GENERAL, Wisconsin Department of Justice, Madison, WI,
for Respondent-Appellee.

No. 17-3639
|
Argued November 7, 2018
|
Decided May 15, 2019
|
Rehearing and Rehearing En

Before Rovner, Sykes, and Barrett, Circuit Judges.
Opinion
Sykes, Circuit Judge.

Banc Denied November 6, 2019*
Synopsis
Background: Following affirmance of his conviction for
first-degree murder, 331 Wis.2d 440, 794 N.W.2d 482, state
inmate filed petition for writ of habeas corpus. The United
States District Court for the Eastern District of Wisconsin,
William C. Griesbach, Chief Judge, 2013 WL 6708767,
granted petition, and state appealed. The Court of Appeals,
800 F.3d 892, affirmed. After mandate issued, state trial
reinstated petitioner's conviction. The United States District
Court for the Eastern District of Wisconsin, No. 11-C-803,
William C. Griesbach, Chief Judge, 2017 WL 5712690,
denied petitioner's motion to enforce conditional writ, and
petitioner appealed.

The Court of Appeals, Sykes, Circuit Judge, held that district
court did not abuse its discretion in determining that state
complied with conditional habeas writ.
Affirmed.
Rovner, Circuit Judge, concurred in part, concurred in
judgment, and filed opinion.
*452 Appeal from the United States District Court for the
Eastern District of Wisconsin. No. 11-C-803 — William C.
Griesbach, Chief Judge.

In a prior appeal, we affirmed an order granting Mark Jensen's
application for habeas relief from his conviction for the 1998
murder of his wife, Julie. Jensen v. Clements, 800 F.3d 892
(7th Cir. 2015). The Wisconsin Court of Appeals had rejected
Jensen's Confrontation Clause challenge to the admission of
Julie's “voice from the grave” letter expressing her fear that
her husband might kill her. The rationale for that ruling was
harmless error. We agreed with the district court that the state
court unreasonably applied Supreme Court precedent. Id. at
908.
After our mandate issued, the district judge issued a
conditional writ requiring the State of Wisconsin to either
release Jensen or “initiate[ ] proceedings to retry him”
within 90 days. The State timely initiated retrial proceedings.
But before the retrial, the state trial judge concluded that
the out-of-court statements were not testimonial, curing the
constitutional defect in Jensen's first trial. Reasoning that
a second trial was unnecessary, the trial judge reinstated
Jensen's original conviction. *453 Jensen appealed the new
judgment, but the Wisconsin Court of Appeals has not yet
ruled.
In the meantime, Jensen returned to federal court and moved
to enforce the conditional writ, which he argued guaranteed
a retrial without the challenged statements. The district court
denied the motion and we affirm. Our jurisdiction is limited
to assessing the State's compliance with the conditional writ.
The State complied with the writ when it initiated proceedings
for Jensen's retrial.

Pet-App. 45

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Jensen v. Pollard, 924 F.3d 451 (2019)

I. Background
In March 2002 Kenosha County prosecutors charged Jensen
with first-degree intentional homicide for the death of his
wife, Julie, on December 3, 1998. Julie's “voice from the
grave” was central to the prosecution's case. Two weeks
before her death, Julie wrote a letter disclaiming any intention
of suicide and stating that she feared her husband was going to
kill her. She gave the letter to a neighbor in a sealed envelope
with instructions to give it to the police if anything happened
to her. Julie also made similar statements to a police officer
shortly before her death.
Based on Crawford v. Washington, 541 U.S. 36, 124
S.Ct. 1354, 158 L.Ed.2d 177 (2004), the Kenosha County
Circuit Court concluded that the letter and statements were
testimonial hearsay, inadmissible under the Confrontation
Clause. See U.S. Const. amend. VI. On interlocutory appeal
the Wisconsin Supreme Court agreed that the letter and
statements were testimonial. But the court also held that
the trial judge could admit the evidence under the forfeiture
exception to the Confrontation Clause if he found by a
preponderance of the evidence that Jensen caused his wife's
death. State v. Jensen (“Jensen I”), 299 Wis.2d 267, 727
N.W.2d 518, 536 (2007). After a ten-day hearing, the trial
judge admitted the evidence. The State introduced the letter
and statements at trial, and a jury found Jensen guilty.
While Jensen's appeal to the Wisconsin Court of Appeals
was pending, the United States Supreme Court held that the
forfeiture exception applies only when a defendant acts with
the particular purpose of preventing the witness's testimony.
See Giles v. California, 554 U.S. 353, 367–68, 128 S.Ct. 2678,
171 L.Ed.2d 488 (2008). The Wisconsin Court of Appeals
affirmed Jensen's conviction without deciding whether Giles
abrogated Jensen I. It instead concluded that any error, if
one occurred, was harmless. State v. Jensen (“Jensen II”),
331 Wis.2d 440, 794 N.W.2d 482, 493 (Wis. Ct. App. 2010).
The court also found that Jensen had waived a separate dueprocess claim alleging judicial bias. Id. at 504. The Wisconsin
Supreme Court denied Jensen's petition for review.
Jensen then turned to federal court. He filed a habeas petition
under 28 U.S.C. § 2254, reasserting his Confrontation Clause
and judicial-bias claims. After observing that the State did
not dispute that Julie's letter and statements were testimonial,
the district judge held that the admission of the evidence was
an unreasonable application of the forfeiture exception and

harmless-error doctrine. Jensen v. Schwochert (“Jensen III”),
No. 11-C-0803, 2013 WL 6708767, at *17 (E.D. Wis. Dec. 18,
2013). The judge issued a conditional writ with the following
mandate:
Jensen is therefore ordered released from custody unless,
within 90 days of the date of this decision, the State initiates
proceedings to retry him. The Clerk is directed to enter
judgment accordingly. In the event [the State] elects to
appeal, the judgment will be stayed pending disposition of
the appeal.
*454 Id. The State appealed and we affirmed. Jensen, 800
F.3d at 908. The writ issued on October 19, 2015.
On December 29 the state trial judge vacated Jensen's
conviction, and the prosecution noticed its intent to retry
him. Jensen predictably moved to exclude Julie's statements.
The prosecution objected, arguing that two Supreme Court
decisions postdating Jensen II narrowed the definition of
“testimonial,” abrogating Jensen I’s holding that Julie's
letter and statements were testimonial for purposes of
Confrontation Clause analysis. See Ohio v. Clark, ––– U.S.
––––, 135 S. Ct. 2173, 192 L.Ed.2d 306 (2015); Michigan v.
Bryant, 562 U.S. 344, 131 S.Ct. 1143, 179 L.Ed.2d 93 (2011).
The trial judge agreed. Applying Wisconsin's law-of-the-case
doctrine, he concluded that Jensen I no longer controlled and
ruled that Julie's statements were not testimonial.
At this point the State asked the federal habeas court for
clarification. Its position was that the trial court's latest ruling
cured any constitutional error, so it intended to move for
reinstatement of the original judgment if the conditional writ
allowed it. The district judge clarified that the State was
not required to release Jensen because it initiated retrial
proceedings within 90 days of the order. The prosecution
then asked the state trial court to reinstate Jensen's original
conviction. The judge granted that request, reasoning that no
purpose would be served by holding a duplicate trial with
identical evidence. Jensen's appeal from the new judgment is
pending in the state court of appeals.
While still exhausting his state remedies, Jensen returned to
federal court with a motion challenging the reinstatement of
the conviction. He argued that the State didn't comply with
the writ because it didn't actually retry him. Alternatively, he
asked the district judge to adjudicate his judicial-bias claim,
which wasn't resolved in the original habeas proceedings.
The judge declined to do either. He instead held that the
conditional writ only compelled the State to initiate retrial

Pet-App. 46

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Jensen v. Pollard, 924 F.3d 451 (2019)

proceedings and that the State had done so. But he didn't stop
there. The judge determined that § 2254 “require[d]” him to
“inquire into whether the State's actions constitute[d] a good
faith effort to comply with the substance, as well as the form,
of the court's order.” He then examined the state court's postwrit proceedings in detail. After concluding that the State
had colorable legal grounds to seek reinstatement of Jensen's
conviction, the judge denied relief. Jensen appealed.

II. Discussion
When a district court issues a conditional habeas writ, it
retains jurisdiction to determine compliance. See Hudson v.
Lashbrook, 863 F.3d 652, 656 (7th Cir. 2017). But once
the State complies with the writ, the district court loses
jurisdiction. Id. Accordingly, the only question properly
before this court is whether the State complied with the writ.1
The relevant facts are undisputed: After initiating proceedings
to retry Jensen, the State sought to introduce Julie's letter
and statements. Relying on Supreme Court decisions that
postdated Jensen II, the trial judge held that the evidence was
admissible and granted the State's ensuing motion to reinstate
the conviction. That new judgment is now under review by the
Wisconsin Court of Appeals. The sole federal dispute centers
on the meaning of the conditional writ. We review a district
court's interpretation of its conditional writ *455 for abuse
of discretion. Pidgeon v. Smith, 785 F.3d 1165, 1172 (7th Cir.
2015).
The writ mandates that Jensen must be “released from
custody unless ... the State initiates proceedings to retry him.”
The district judge rejected Jensen's contention that the writ
guaranteed him a trial free of Julie's letter and statements.
The judge reasoned that the State could not have complied
with such a writ within 90 days given the complexity of the
case. He also explained that the language of the writ left
room to resolve the case without a new trial. That is, the writ
“deliberately required only the initiation of proceedings for a
retrial within the time allowed in order for the State to comply
with the writ.”
That interpretation was not an abuse of discretion. It
neatly tracks the conditional writ's unambiguous language.
Conversely, Jensen's proposed interpretation asks us to ignore
the writ's instruction to “initiate proceedings” in favor of a
more robust command for a “trial free of [Julie's] letter.” The
Supreme Court has cautioned that courts “should not infer ...

conditions from silence” when interpreting conditional writs.
Jennings v. Stephens, ––– U.S. ––––, 135 S. Ct. 793, 799, 190
L.Ed.2d 662 (2015). Instead, a petitioner's “rights under the
judgment were what the judgment provided.” Id. at 798. The
judgment here gave the State two options: release Jensen or
initiate proceedings to retry him. It did not contain an implicit
right to retrial without Julie's letter or statements.
But while the judge's interpretation of his order is correct,
we are skeptical that § 2254 required him to scrutinize the
prosecutor's good faith. As with all conclusions of law, we
consider this issue de novo. See Warren v. Baenen, 712 F.3d
1090, 1096 (7th Cir. 2013). Looking beyond the express terms
of a writ to assess the State's good faith risks creating the
very unstated conditions that courts cannot read into writs.
See Jennings, 135 S. Ct. at 799. And asking whether post-writ
proceedings are “shams” requires examining the legal merits
of state proceedings prior to exhaustion. See 28 U.S.C. §
2254(b)(1). Indeed, the district court's inquiry here discussed
the very issues that remain pending in Jensen's direct appeal
in the Wisconsin Court of Appeals.
We have long held that courts should presume that
states will comply with equitable remedies in good faith.
Jenkins v. Bowling, 691 F.2d 1225, 1234 (7th Cir. 1982).
This presumption applies with particular force in § 2254
proceedings, where “[f]ederalism and comity principles
pervade.” Johnson v. Foster, 786 F.3d 501, 504 (7th Cir.
2015). A conditional writ under § 2254 is not “a general grant
of supervisory authority over state trial courts.” Jennings, 135
S. Ct. at 799; see also Hudson, 863 F.3d at 656 (“The writ is
directed to the person detaining another: it is not directed at
the state government in toto.”). In short, jurisdiction to assess
state compliance with conditional writs is constrained by the
actual remedy ordered by the court—that is, the terms of the
writ.
In this case the conditional writ required the State to either
release Jensen or “initiate proceedings to retry him.” The
State did the latter, and at that moment the district court lost
jurisdiction. Jensen's custody flows from a new judgment
reinstating the original conviction on an alternative ground
from that challenged in Jensen III. See Coulter v. McCann,
484 F.3d 459, 466 (7th Cir. 2007) (holding that post-writ
proceedings in state court can confirm that no constitutional
violation occurred in the first place). We lack jurisdiction
to explore whether that judgment is constitutionally infirm.
Jensen is free to challenge any perceived constitutional errors
via his *456 direct appeal in state court. Indeed, he must

Pet-App. 47

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Jensen v. Pollard, 924 F.3d 451 (2019)

exhaust those remedies before raising any constitutional
claims in a new § 2254 petition.
Affirmed.
Rovner, Circuit Judge, concurring in part and concurring in
the judgment.
I agree with my colleagues that we may review only for abuse
of discretion the district court's determination that the State
complied with the writ. And I am persuaded that, once we
have concluded that there is no abuse of discretion, there is
nothing left for the federal courts to do until the petitioner
has exhausted state court remedies and brings a new federal
habeas proceeding. I do not agree, however, that it was
inappropriate for the district court to examine whether the
State complied in good faith with the writ or instead engaged
in sham proceedings in order to circumvent the writ.
The majority cites Jenkins v. Bowling, 691 F.2d 1225, 1234
(7th Cir. 1982), for the proposition that, “We have long
held that courts should presume that states will comply with
equitable remedies in good faith.” But Jenkins also makes
clear that the presumption is rebuttable and that federal courts
have the power to correct noncompliance:
When formulating equitable remedies against a state—an
entity still to be regarded as having some sovereign dignity
—a federal court should try to minimize their abrasive
potential. It should presume that the state will attempt to

comply in good faith with the letter and spirit of its ruling.
Events may rebut the presumption in particular cases[.] ...
If the state does try [to evade the order], the federal courts
have all the powers they need, including the power to
issue mandatory injunctions as detailed and specific as the
situation requires, backed up by all the force of the United
States, to make their decisions effective.
Jenkins, 691 F.2d at 1234. Although Jenkins did not
address habeas proceedings, it did involve a federal court
“formulating equitable remedies against a state,” and the
comity concerns are comparable.
In my view, the district court properly assessed whether
there was good faith compliance with the writ, or a possible
bad faith effort to circumvent the writ. That was especially
appropriate in a case where the State sought to reinstate
(and in fact did reinstate) the very same judgment that the
federal courts had found constitutionally infirm, a procedural
scenario that I believe I have not encountered in my
nearly thirty-five years on the federal bench. The district
court's analysis of whether the State had engaged in sham
proceedings to circumvent the writ was part and parcel of
its review of whether the State had complied with the writ.
Therefore, I respectfully concur in part, and concur in the
judgment.
All Citations
924 F.3d 451

Footnotes

*
1

Circuit Judge Michael B. Brennan did not participate in the consideration of the petition for rehearing.
We thus lack jurisdiction to consider Jensen's judicial-bias claim.

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

Pet-App. 48

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Jensen v. Clements, Not Reported in Fed. Supp. (2017)
2017 WL 5712690

2017 WL 5712690
Only the Westlaw citation is currently available.
United States District Court, E.D. Wisconsin.

Mark D. JENSEN, Petitioner,
v.
Marc CLEMENTS, Respondent.
Case No. 11-C-803
|
Signed 11/27/2017
Attorneys and Law Firms
Brian T. Fahl, Fahl Law Office LLC, Elm Grove, WI, Craig
W. Albee, Joseph A. Bugni, Federal Defender Services of
Wisconsin Inc., Milwaukee, WI, for Petitioner.
Marguerite M. Moeller, Middleton, WI, Warren D. Weinstein,
Wisconsin Department of Justice Office of the Attorney
General, Madison, WI, for Respondent.

DECISION AND ORDER DENYING MOTION TO
ENFORCE JUDGMENT
William C. Griesbach, Chief Judge
*1 This court granted Petitioner Mark D. Jensen's
application for a writ of habeas corpus on December 18,
2013, on the ground that the Wisconsin Court of Appeals
had unreasonably applied clearly established federal law
in deciding that the admission at his state trial of out-ofcourt statements his deceased wife had made implicating
him in her death, though a violation of Jensen's rights under
the Confrontation Clause, was harmless error. Jensen v.
Schwochert, No. 11-C-803, 2013 WL 6708767 (E.D. Wis.
Dec. 18, 2013), ECF No. 65. The court ordered Jensen
“released from custody unless, within 90 days of the date of
this decision, the State initiates proceedings to retry him.”
Id. at *17. On appeal, during which the order was stayed,
a divided panel of the Seventh Circuit affirmed. Jensen
v. Clements, 800 F.3d 892 (7th Cir. 2015). Respondent's
petitions for reconsideration and en banc review were denied.
After the Seventh Circuit's mandate issued on October 19,
2015 (ECF No. 79), Jensen was returned to the Kenosha
County Jail, and the Kenosha County Circuit Court vacated

his judgment of conviction on December 29, 2015, and set the
matter for a new trial. ECF No 86-1 at 21. In the proceedings
leading up to the trial, the circuit court determined that in light
of recent Supreme Court precedent, the statements at issue
were not testimonial and their admission at trial did not violate
Jensen's Sixth Amendment confrontation right. ECF No. 94-9
at 73–74. The circuit court thereafter determined that its new
ruling on Julie's statements, including her letter and reports
to police, cured the constitutional defect in Jensen's first
trial, and based upon this determination reinstated Jensen's
conviction and sentence. ECF No. 94-11 at 11–12, 35–36.
This matter now returns to this court on Jensen's motion to
enforce judgment, which argues that the State violated this
court's order to release or retry Jensen with the series of
events that resulted in the reinstatement of his conviction and
sentence. ECF No. 93.
There is no dispute that Jensen has the right to challenge the
circuit court's ruling that the out-of-court statements of his
deceased wife are admissible after all and its decision to enter
a judgment of conviction against him for the murder of his
wife based on the earlier verdict, both procedurally and on the
merits. The question presented by the unusual facts of the case
is whether he must first seek review in the appellate courts of
the State of Wisconsin before returning to this court for relief
under 28 U.S.C. § 2254. For the reasons set forth below, I
conclude that he must do so. Jensen's motion will therefore
be denied.

BACKGROUND
Earlier orders by this court and the Seventh Circuit recite
the history of Jensen's case in great detail, so only a brief
summary and discussion of recent procedural developments
is necessary here. See Jensen, 800 F.3d at 895–98; Jensen,
2013 WL 6708767, at *1–5. Julie Jensen was found dead in
the Jensens' home on December 3, 1998. Jensen, 2013 WL
6708767, at *1. Her death was initially treated as a suicide,
but there was no dispute that her death resulted at least in
part from poisoning by ethylene glycol, a chemical used in
antifreeze. Id. Prosecutors eventually charged her husband,
Mark Jensen, with first degree intentional homicide on March
19, 2002. Id. at *3. The case against Jensen relied in part
upon a sealed letter she had given to neighbors and several
statements to police that Julie made in the weeks before her
death expressing her fear that her husband was plotting to kill
her. Id. at *1–2. The admissibility of the letter and statements

Pet-App. 49

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Jensen v. Clements, Not Reported in Fed. Supp. (2017)
2017 WL 5712690

has been the focal point of litigation in this case over the past
fifteen years.
*2 Before Jensen's trial for Julie's murder, the United
States Supreme Court decided Crawford v. Washington, 541
U.S. 36 (2004), which recast the right protected by the
Sixth Amendment's Confrontation Clause. As a result, the
circuit court determined that Julie's letter and statements
were inadmissible testimonial statements. Jensen, 2013 WL
6708767, at *3. The State sought an interlocutory review of
that decision, and after granting a bypass petition allowing the
case to skip the Wisconsin Court of Appeals, the Wisconsin
Supreme Court reversed the circuit court's decision. State
v. Jensen, 2007 WI 26, ¶ 2, 727 N.W.2d 518. Although
the Wisconsin Supreme Court agreed with the circuit court
that the statements were testimonial, it adopted a broad
“forfeiture by wrongdoing doctrine” and remanded for a
hearing to determine whether Jensen had “lost the right to
object on confrontation grounds to the admissibility of outof-court statements of a declarant whose unavailability the
defendant ... caused.” Id. On remand, the Kenosha County
Circuit Court conducted a ten-day evidentiary hearing and
concluded that Jensen forfeited his confrontation right by
killing Julie and therefore causing her absence from trial.
Jensen, 2013 WL 6708767, at *3. As his defense at the trial
that followed, Jensen attempted to show that Julie committed
suicide and sought to frame him for her death, but the jury—
which saw the letter and Julie's other statements—ultimately
convicted Jensen of first-degree intentional homicide. Id. at
*4–5.
While Jensen's direct appeal to the Wisconsin Court of
Appeals was pending, the Supreme Court decided Giles v.
California, 554 U.S. 353 (2008), which rejected the broad
forfeiture by wrongdoing doctrine adopted by the Wisconsin
Supreme Court in Jensen's case. Nevertheless, the Wisconsin
Court of Appeals affirmed Jensen's conviction on direct
review. State v. Jensen, 2011 WI App 3, ¶ 1, 794 N.W.2d
482. Assuming, without deciding, that the circuit court erred
under Giles by admitting the testimonial letter and statements,
the court of appeals concluded that any error was harmless
beyond a reasonable doubt in light of the weight of the state's
evidence and the strength of its case. Id. ¶ 35. The Wisconsin
Supreme Court denied Jensen's petition for review on June
15, 2011.
On August 24, 2011, Jensen filed a petition for a writ of
habeas corpus under 28 U.S.C. § 2254, and this court issued
its decision granting the petition on December 18, 2013.

Jensen, 2013 WL 6708767. Noting that “[t]he parties [did]
not dispute that both the letter and Julie Jensen's statements
to [a police officer] were testimonial,” this court concluded
that those “erroneously admitted testimonial statements had
a ‘substantial and injurious effect’ on the jury's verdict.” Id.
at *6–7, *10 (quoting Brecht v. Abrahamson, 507 U.S. 619,
622 (1993)). Because the erroneous admission of the letter
and statements therefore was not harmless, the decision by
the Wisconsin Court of Appeals constituted an unreasonable
application of clearly established federal law. Id. at *17. The
court issued the following direction with regard to Jensen:
Jensen is therefore ordered released from custody unless,
within 90 days of the date of this decision, the State initiates
proceedings to retry him. The Clerk is directed to enter
judgment accordingly. In the event Respondent elects to
appeal, the judgment will be stayed pending disposition of
the appeal.
Id. Respondent appealed, and the Seventh Circuit affirmed,
agreeing that “the improperly admitted letter and accusatory
statements resulted in actual prejudice to Jensen.” Jensen,
800 F.3d at 908. Under this court's order, the 90-day window
for the State to release Jensen or initiate proceedings to retry
him opened when the Seventh Circuit issued its mandate on
October 19, 2015. ECF No. 79.
On December 29, 2015, the Circuit Court of Kenosha County
vacated Jensen's judgment of conviction and reopened
the case. ECF No. 86-1 at 21. That day, the State also
communicated its intent to retry Jensen. Id. In anticipation of
the new trial, Jensen filed a motion on November 29, 2016,
to exclude all of Julie's testimonial statements, including the
letter. ECF No. 94-3 at 97. After two rounds of extensive
briefing and oral argument on the motion,1 the circuit court
found in July 2017 that Julie's letter and statements to
officers were non-testimonial based upon the post-Crawford
evolution of the meaning of “testimonial” in cases such as
Michigan v. Bryant, 562 U.S. 344 (2011), and Ohio v. Clark,
135 S. Ct. 2173 (2015), both decided after Jensen's first trial.
ECF No. 94-9 at 73–74, 96. The circuit court therefore denied
Jensen's motion and concluded that the letter and related
statements would be admissible at Jensen's new trial. ECF No.
94-9 at 96.
*3 The State took two relevant actions in response the
circuit court's decision that Julie's letter and statements would
be admissible at Jensen's second trial. First, Respondent
filed a motion for clarification in this court on August 10,
2017. ECF No. 86. After explaining recent developments

Pet-App. 50

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Jensen v. Clements, Not Reported in Fed. Supp. (2017)
2017 WL 5712690

in Jensen's case, Respondent informed this court that the
Kenosha County prosecutors intended to move the circuit
court to reinstate Jensen's conviction on the grounds that the
trial court's recent conclusion that the letter and statements
were not testimonial “cure[d] the constitutional error believed
to have existed in the first trial.” Id. at 4. Respondent
sought clarification as to whether reinstatement of Jensen's
conviction under these circumstances would comply with
this court's order that Jensen be “released from custody
unless, within 90 days of the date of this decision, the State
initiates proceedings to retry him.” Id. at 5. This court granted
Respondent's motion in an August 18, 2017 order. ECF
No. 90. Recognizing that this court possessed continuing
jurisdiction to assess Respondent's compliance with the
conditional writ of habeas corpus, this court concluded that,
because “[t]he State did in fact initiate proceedings to retry
Jensen within 90 days of the effective date of the court's
order[,] ... Respondent is not required to release Jensen from
his custody.” Id. at 5. The court further observed that because
“Jensen is no longer in Respondent's custody, but is being held
awaiting trial in the Kenosha County Jail[,] ... Respondent has
no power to release him in any event.” Id. at 5–6. However,
the court declined to offer an opinion “as to whether the
circuit court's determination that the challenged statements
are non-testimonial is proper and whether Jensen's previous
conviction can be constitutionally reinstated without a new
trial,” recognizing that addressing either would constitute
improper issuance of an advisory opinion. Id. at 6.
Second, as represented to this court, the State filed a motion
in the Kenosha County Circuit Court on August 11, 2017,
seeking to reinstate Jensen's judgment of conviction and
accompanying life sentence. ECF No. 94-10 at 42–56.2 The
circuit court held a hearing on the motion on September 1,
2017. Id. at 97–100 & ECF No. 94-11 at 1–10. Citing this
court's August 18, 2017 order, the circuit court concluded that
“it's clear that the State would not be in contempt if there were
no trial because the State did, in fact, reinitiate proceedings
to try” Jensen. ECF No. 94-11 at 4. The circuit court
further found that, as a result of its decision to admit Julie's
letter and statements at the upcoming trial, “the evidence
in a new trial would be materially the same as in the first
trial.” Id. Questioning the appropriateness of investing court
time and resources in holding a duplicate trial, the circuit
court granted the State's motion. Id. at 5. The circuit court
entered the new judgment of conviction and life sentence for
Jensen on September 8, 2017. Id. at 11–12. A September 18,
2017 written order briefly elaborated on the circuit court's
reasoning: “There is no constitutional necessity at this point

for proceeding with a new trial for [Jensen] has already
been tried to a jury with [the letter and statements] placed
before it and has been found guilty.” Id. at 35–36 (alterations
in original) (quoting Jackson v. Denno, 378 U.S. 368, 394
(1964)). Returning to this court, Jensen filed his motion to
enforce judgment on September 29, 2017. ECF No. 93.

ANALYSIS
A district court that grants a petition for a writ of habeas
corpus may nonetheless “delay the release of a successful
habeas petitioner in order to provide the State an opportunity
to correct the constitutional violation found by the court.”
Hilton v. Braunskill, 481 U.S. 770, 775 (1987). Consequently,
when a district court issues a conditional writ of habeas
corpus, the court “retains jurisdiction to determine whether a
party has complied with the terms of [the] conditional order.”
Phifer v. Warden, U.S. Penitentiary, Terre Haute, Ind., 53
F.3d 859, 861 (7th Cir. 1995). When a State fails to correct
the constitutional violation within the time established by
the district court, “the consequence ... is always release.”
Wilkinson v. Dotson, 544 U.S. 74, 87 (2005) (Scalia, J.,
concurring). But “[o]nce ... the habeas writ [is] complied
with, ... the district court [loses] jurisdiction over the case.”
Hudson v. Lashbrook, 863 F.3d 652, 656 (7th Cir. 2017).
Jensen first argues that this court's conditional writ was clear:
“if the State failed to retry Jensen without the letter, Jensen
was entitled to release.” Mot. to Enforce J., ECF No. 93
at 18. But that is not what this court's order said. As the
court noted in its Decision and Order Granting Respondent's
Motion for Clarification, the order stated that Jensen was to
be “released from custody unless, within 90 days of the date
of this decision, the State initiates proceedings to retry him.”
ECF No. 90 at 5 (quoting ECF No. 65 at 33) (emphasis added).
Given the complexity and length of the original trial, the court
certainly did not expect the State to retry Jensen within 90
days of the effective date of its order. The original trial lasted
six weeks and involved experts in toxicology, pathology, and
psychiatry. Moreover, cases in which a writ of habeas corpus
is issued frequently do not result in a retrial. The parties are
often able to reach agreement on a disposition that obviates
the need for a new trial. Given this uncertainty over whether
the parties would need to retry the case, and if they did, how
much time they would need to prepare for and complete a
new trial, the court deliberately required only the initiation of
proceedings for a retrial within the time allowed in order for
the State to comply with the writ. And as the court likewise

Pet-App. 51

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Jensen v. Clements, Not Reported in Fed. Supp. (2017)
2017 WL 5712690

noted in its clarification order, the State did comply at least
with the letter of the court's conditional writ: “The State did in
fact initiate proceedings to retry Jensen within 90 days of the
effective date of the court's order.” Id. As a result, the court
concluded that the State was not required to release Jensen
from its custody at that time. Id.
*4 The State argues that having already determined that it
complied with the letter of the writ by initiating proceedings
to retry Jensen, the court no longer has jurisdiction over
the original petition: “[W]hen a state meets the terms of
the habeas court's condition, thereby avoiding the writ's
actual issuance, the habeas court does not retain any further
jurisdiction over the matter.” Gentry v. Deuth, 456 F.3d
678, 692 (6th Cir. 2006) (citing Pitchess v. Davis, 421 U.S.
482, 490 (1975) (per curiam)). But surely, a State cannot
claim to have complied with a conditional order for release
under § 2254 by vacating the previous judgment, initiating
proceedings for a new trial, and then, with no further analysis
or development of the record, simply reinstating the same
judgment that was the subject of the previous order. To
be meaningful, a federal court's jurisdiction to determine
whether a party has complied with the terms of its order
allows, indeed requires, the court to inquire into whether the
State's actions constitute a good faith effort to comply with the
substance, as well as the form, of the court's order, or instead
amounts to nothing more than a sham intended to circumvent
the federal court's writ.
Jensen suggests that the State has not acted in good faith.
He argues that rather than use the opportunity afforded by
the conditional writ to retry him, the State has sought to
delay his retrial, defy this court's order, and further violate
his constitutional rights. He contends that the State waited
seventeen months after the federal mandate before submitting
its brief arguing that the letter was not testimonial and
never presented the argument to this court pursuant to Rule
60(b)(6). The State then defied this court's ruling, Jensen
contends, by duping the trial judge into revisiting the settled
issue of whether the letter was testimonial and ruling it
admissible. The State then went even further, Jensen argues,
and convinced the trial judge to take the unprecedented step
of skipping the trial and reinstating his conviction. Mot. to
Enforce J., ECF No. 93 at 7, 27.
Jensen overlooks the fact that it was a state court, not the
prosecutor or other officer of the executive branch of state
government, that ultimately set the trial date, ruled that
the letter was non-testimonial after all, and reinstated the

judgment of conviction. The State court might have been in
error, but to claim that the judge was “duped” and characterize
the court's rulings as the State's deliberate defiance of this
court's order ignores the lengthy briefing on the issues offered
by the parties in the state court proceedings, the independent
analysis undertaken by the trial court, and the respect
due to state courts and state proceedings. As the Seventh
Circuit recently noted in another habeas case challenging
the proceedings in state court following the issuance of a
conditional order of release, “State authorities applying their
own criminal laws are not marionettes controlled by the
federal courts, and the writ of habeas corpus, while a ‘great
writ,’ is not without limit. The writ is directed to the person
detaining another: it is not directed at the state government in
toto.” Hudson, 863 F.3d at 655–56.
The circuit court in this case did not lightly undertake the
task of revisiting an issue that had been seemingly decided
by the Wisconsin Supreme Court more than ten years earlier
in the lengthy procedural history of this case. The question
of whether the letter and related statements were testimonial
under current law was raised by the State in its response to
Jensen's motion in limine seeking to preclude the State from
making any reference to or attempting to admit into evidence
in any manner Julie Jensen's letter. The State filed a 100-page
brief in response, 26 pages of which argued that under the
Supreme Court's more recent decisions in Bryant and Clark,
the letter and related statements to police were not testimonial
statements within the meaning of the Confrontation Clause
of the Sixth Amendment. ECF No. 94-5 at 48–74. As the
State pointed out, it is true that in the years since Jensen's
trial, the United States Supreme Court has issued a number
of decisions that have arguably narrowed the definition of the
kind of “testimonial statements” to which Crawford held the
Confrontation Clause strictly applies. Id. at 52–53.
*5 In Bryant, for example, decided three years after Jensen's
conviction, the Court held that statements by the mortally
wounded victim of a shooting identifying the shooter and
location of the shooting in response to questions put to him
by police officers dispatched to the place to which he had
fled were not testimonial. In reaching this conclusion, the
Court noted that “the most important instances in which
the [Confrontation] Clause restricts the introduction of outof-court statements are those in which state actors are
involved in a formal, out-of-court interrogation of a witness
to obtain evidence for trial.” 562 U.S. at 358. The primary
purpose of the police interrogation in that case, the Court
observed, was to enable police assistance to meet an ongoing

Pet-App. 52

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Jensen v. Clements, Not Reported in Fed. Supp. (2017)
2017 WL 5712690

emergency, rather than to gather evidence to prove past events
potentially relevant to later criminal prosecution. The Court
also commented on the informality of the encounter: “the
questioning in this case occurred in an exposed, public area,
prior to the arrival of emergency medical services, and in
a disorganized fashion. All of those facts make this case
distinguishable from the formal station-house interrogation
in Crawford.” Id. at 366. Based on its consideration of these
factors, the Court concluded that the victim's statements to
police were not testimonial and that their admission at trial
did not violate the Confrontation Clause. Id. at 378.
Then in Ohio v. Clark, decided more than seven years
after Jensen's previous conviction, the Court held that a
three-year-old victim's statements to his preschool teachers
identifying the defendant as the person who caused his
injuries were not testimonial. There the Court again reiterated
the importance of the purpose of the interrogation and the
formality surrounding it as important factors to consider in
determining whether the resulting statement was testimonial.
135 S.Ct. at 2179–80. “In the end,” the Court stated, “the
question is whether, in light of all the circumstances, viewed
objectively, the ‘primary purpose’ of the conversation was to
‘creat[e] an out-of-court substitute for trial testimony.’ ” Id.
at 2180 (quoting Bryant, 562 U.S. at 358). In holding that
the child victim's statements were not testimonial, the Court
noted that the interrogation was by teachers, not police, and
for the purpose of protecting the child from further abuse, not
to gather evidence for a prosecution. Id. at 2181.
It was in light of these more recent decisions that the State
argued Julie's letter and related statements to police prior to
her death should not be considered testimonial. The State also
argued in its response to Jensen's motion in limine that under
a well-established exception to the law of the case doctrine,
the court could and should revisit the question of whether
the letter and related statements were testimonial. ECF No.
94-9 at 74–77. That exception applies when controlling legal
authority has arrived at a contrary decision of the law under
which an earlier determination was made. Id. at 74 (citing
State v. Brady, 130 Wis. 2d 443, 448, 388 N.W.2d 151 (1986),
and White v. Murtho, 377 F.2d 428, 431–31(5th Cir. 1967)).
Only after additional and extensive briefing and argument by
both parties did the court render its decision that the law of the
case doctrine did not bar the court from revisiting the issue
and that, under the more recent decisions of the United States
Supreme Court, the letter and related statements to the police
were not testimonial and therefore admissible at trial. ECF
No. 94-9 at 68–74.

In light of the circuit court's conclusion that the letter
and related statements were not testimonial and thus their
admission at trial did not violate the Confrontation Clause,
the State then moved for reinstatement of the judgment
of conviction based on the jury's verdict in the previous
trial. “The defendant is not entitled to a new trial,” the
State argued, “since he has already had a trial by a jury
of his peers which was free of constitutional error.” Br. in
Supp. of Mot. to Reinstate, ECF No. 94-10 at 42. In the
State's view, the determination by the federal courts that the
Wisconsin Court of Appeals had unreasonably applied clearly
established federal law in finding the admission of such
evidence harmless error was not dispositive once the circuit
court found that admission of the same evidence was not error.
Since the original jury trial was not tainted by the erroneous
admission of evidence in violation of Jensen's confrontation
rights, the State argued that the circuit court should reinstate
the previous judgment of conviction, or alternatively, enter a
new judgment of conviction on the jury's verdict. Id. at 51.
The circuit court agreed and granted the State's motion.
*6 Whether the circuit court was free to revisit the issue
at this stage of the proceedings, and if so, whether the letter
and related statements are indeed non-testimonial and thus
admissible under the Confrontation Clause are, to be sure,
important questions that Jensen has every right to challenge.
But his challenge to the circuit court's rulings, at least as an
initial matter, must be by appeal to the Wisconsin appellate
courts. This is because the trial court's reinstatement of the
judgment of conviction represents a new state court judgment
for purposes of § 2254, and a federal court cannot grant relief
from such a judgment “unless it appears ... the applicant has
exhausted the remedies available in the courts of the State.”
28 U.S.C. § 2254(b)(1)(A).
In this respect, the case is similar to Hudson v. Lashbrook,
863 F.3d 652 (7th Cir. 2017). There, a federal district court,
following Lafler v. Cooper, 566 U.S. 156 (2012), held that but
for the ineffective assistance provided by his trial attorney,
the petitioner would have accepted the State of Illinois' plea
offer of twenty years rather than go to trial which, upon
conviction, resulted in a mandatory life term. 863 F.3d at
654. Based upon this determination, the federal court ordered
the State to reoffer the petitioner the original plea deal of
twenty years. In accordance with the federal court's order, the
State extended the offer, which the petitioner accepted, and
then both parties filed a joint motion to vacate the original
conviction and sentence. Noting that she would have rejected

Pet-App. 53

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Jensen v. Clements, Not Reported in Fed. Supp. (2017)
2017 WL 5712690

the plea agreement based on the petitioner's criminal history
even if she was considering it for the first time, however, the
state judge refused to accept the agreement and denied the
motion. Id. The petitioner then returned to the federal district
court on a motion to enforce that court's order. The district
court denied the motion on the grounds that the petitioner's
state appeal remained pending and that “the Illinois Appellate
Court should have the first opportunity to both define Lafler's
discretionary factors and in deciding how to resentence or
treat a reoffered plea, and to determine whether the state trial
court operated within the bounds of fair discretion in this
case.” Id. at 655. The Seventh Circuit affirmed, noting that
“[o]nce the state reoffered the plea deal, the habeas writ was
complied with, and the district court lost jurisdiction over the
case.” Id. at 656. Explaining further, the court noted:
The state judge, faced with what she thought was also not
a case or controversy, declined to opine until, finally, she
considered and rejected it. Whether she had jurisdiction,
and whether her merits ruling was proper or improper
are matters of state law, pending on appeal. And it bears
mentioning that at no point was the state judge herself a
party before the federal district judge in this case.
Id.
Similarly, in this case, the state trial judge, who was
not himself a party before the court, concluded that
significant changes in the law concerning a defendant's Sixth
Amendment right to confront the witnesses against him
allowed him to revisit an issue that the Wisconsin Supreme
Court had seemingly decided more than ten years ago when
the case first came before it prior to Jensen's trial. Given
the state supreme court's determination under then-existing
law that the letter and related statements were testimonial,
the State shifted to the alternative theory of admissibility
—forfeiture by wrongdoing—that the supreme court had
approved in the same decision. After the expenditure of
much time and effort, the State succeeded in introducing the
evidence under that theory, resulting in Jensen's conviction,
only to have the broad form of the forfeiture by wrongdoing
exception that the Wisconsin Supreme Court had adopted in
Jensen I rejected by the United States Supreme Court in Giles.
Whether under this unique set of circumstances the state trial
court had the authority to revisit the issue of whether the letter
and related statements were testimonial, as well as whether
the court's determination on the merits that they were not,
are matters of state and federal law of which Jensen is free
to seek review in the Wisconsin Court of appeals. Indeed,
it appears that Jensen has already filed a Notice of Intent
to Seek Post Conviction Relief from the new judgment of

conviction entered against him. See Wisconsin Circuit Court
Access for Kenosha County Case No. 2002CF000314, at
https://wcca.wicourts.gov (last visited Nov. 27, 2017).
*7 The fact that the circuit court characterized its action
as “reinstating” the judgment of conviction, as opposed to
entering a new judgment of conviction on the original verdict,
does not change the result. It remains the case that the original
conviction was vacated and the State initiated proceedings for
a new trial. Only after the trial court later determined that
the letter and statements that were the subject of the previous
harmless error analysis were not testimonial under current
law and thus lawfully admissible did the court decide that the
original trial was free of error and the resulting verdict valid.
It thereupon ordered entry of a judgment of conviction upon
the verdict rendered after the earlier trial, thereby giving rise
to new rights for Jensen to appeal and/or seek post-conviction
relief. It is for the Wisconsin appellate courts to determine, at
least as an initial matter, whether this procedure is lawful and
complies with the Constitution and laws of the United States,
as well as those of the State of Wisconsin.
Finally, the court declines Jensen's request to take up the
due process judicial bias claim raised in his original petition.
This court granted Jensen's original petition based on his
harmless error argument, so it was not necessary to address
his due process argument at that time. Jensen argued that
he was denied due process of law because the judge who
adjudicated his trial was no longer impartial after forming an
opinion as to Jensen's guilt as a consequence of the forfeiture
hearing ordered by the Wisconsin Supreme Court. As already
discussed above, however, Jensen obtained the relief he
sought in his original habeas corpus petition: the Kenosha
County Circuit Court vacated his tainted judgment of
conviction, and the State chose to initiate a new prosecution.
The judgment of conviction resulting from that renewed
prosecution is the one now before the court, meaning that
any remaining objections to Jensen's previous judgment of
conviction are moot. To the extent he believes that bias on the
part of the previous judge infected the jury trial upon which
a different judge entered a new judgment of conviction, he
is free to raise that issue in the appellate courts of Wisconsin
and, if unsuccessful, seek federal relief pursuant to § 2254.

CONCLUSION
For the reasons set forth above, the court concludes that the
State of Wisconsin complied with this court's conditional

Pet-App. 54

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Jensen v. Clements, Not Reported in Fed. Supp. (2017)
2017 WL 5712690

order when the State initiated a new prosecution after the
Kenosha County Circuit Court vacated Jensen's life sentence
and judgment of conviction. As a result, the court concludes
that it no longer possesses jurisdiction over Jensen's petition.
Thus, the State now holds Jensen in custody pursuant to a
judgment as to which Jensen has not yet exhausted his state
court remedies. Jensen's motion to enforce judgment (ECF
No. 95) is therefore DENIED.

SO ORDERED this 27th day of November, 2017.
All Citations
Not Reported in Fed. Supp., 2017 WL 5712690

Footnotes

1

2

See ECF No. 94-3 at 97–100 & ECF No. 94-4 at 1–9 (Jensen's motion); ECF No. 94-5 at 47–89 (State's response);
ECF No. 94-6 at 70–100, ECF No. 94-7 at 1–100, & ECF No. 94-8 at 1–45 (first motion hearing); ECF No. 94-8 at 47–
71 (Jensen's response brief); ECF No. 94-8 at 75–85 (State's reply); ECF No. 94-8 at 88–89 (Jensen's response letter);
ECF No. 94-8 at 90–95 (State's response letter); ECF No. 94-8 at 97–100, ECF No. 94–9 at 1–100, & ECF No. 94-10
at 1–2 (second motion hearing).
See also ECF No. 94-10 at 69–77 (Jensen's response); id. at 84–94 (State's reply); id. at 95–96 (Jensen's response letter).

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

Pet-App. 55

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

KeyCite Yellow Flag - Negative Treatment
Habeas Corpus Granted by Jensen v. Schwochert, E.D.Wis., December 18,
2013

331 Wis.2d 440
Court of Appeals of Wisconsin.

other act evidence that defendant had quizzed his paramour
about her sexual history was properly admitted panorama
evidence;
warrantless search of defendant's home and seizure of
his computer without a warrant did not violate Fourth
Amendment; and

STATE of Wisconsin,
Plaintiff–Respondent,
v.

defendant made no showing by preponderance of evidence
that trial judge was biased.

Mark D. JENSEN, Defendant–Appellant.†
No. 2009AP898–CR.
|
Submitted on Briefs June 4, 2010.
|
Opinion Filed Dec. 29, 2010.

Affirmed.
Attorneys and Law Firms

Synopsis
Background: Defendant was charged with intentional
homicide in the first degree of his wife. The Circuit Court,
Kenosha County, Bruce E. Schroeder, J., entered order
excluding wife's letter and voicemail messages to police, and
denied defendant's motion to exclude wife's statements to
neighbor and her son's teacher. On petition to bypass the Court
of Appeals in which State appealed and defendant crossappealed, the Supreme Court, Jon P. Wilcox, J., 299 Wis.2d
267, 727 N.W.2d 518, affirmed in part, reversed in part, and
remanded. On remand, defendant was convicted as charged
following jury trial in the Circuit Court. Defendant appealed.

Holdings: The Court of Appeals, Anderson, J., held that:
wife's non-testimonial statements were not hearsay under rule
which excluded from hearsay statements made by unavailable
witnesses;
any error in admission of hearsay was harmless beyond a
reasonable doubt;
evidence that defendant could have left pornographic photos
around house to harass wife was admissible;
other acts evidence that penis-focused pornography was
found on defendant's home and office computers was properly
admitted panorama evidence;

**486 On behalf of the defendant-appellant, the cause was
submitted on the briefs of Christopher W. Rose and Terry W.
Rose of Rose & Rose, Kenosha, and Michael D. Cicchini of
Cicchini Law Office, LLC, Kenosha.
On behalf of the plaintiff-respondent, the cause was submitted
on the brief of Marguerite M. Moeller, assistant attorney
general, and J.B. Van Hollen, attorney general.
Before BROWN, C.J., NEUBAUER, P.J., and ANDERSON,
J.
Opinion
ANDERSON, J.
*447 ¶ 1 Mark D. Jensen appeals from a judgment of
conviction for the first-degree intentional *448 homicide of
his wife Julie Jensen. Jensen presents many arguments on
appeal, none of which persuade. We affirm.

Background
¶ 2 Paragraphs three through thirteen of this opinion relate
pertinent background facts laid out by our supreme court in
State v. Jensen, 2007 WI 26, 299 Wis.2d 267, 727 N.W.2d
518. We will recite additional facts as they become relevant
to our discussion of the appellate issues.
¶ 3 A criminal complaint charging Jensen with first-degree
intentional homicide in the December 3, 1998 poisoning death

Pet-App. 56

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

of his wife Julie was filed in Kenosha county on March 19,
2002. Id., ¶ 3.
¶ 4 At Jensen's preliminary hearing conducted in spring
2002, the State presented testimony from several witnesses,
including Julie's neighbor, Tadeusz Wojt, Officer Ron
Kosman, and Detective Paul Ratzburg. Id., ¶ 4.
¶ 5 Wojt testified that just prior to Julie's death, she gave
him an envelope and told him that if anything happened to
her, Wojt should give the envelope to the police. Id., ¶ 5.
Wojt also stated that during the three weeks prior to Julie's
death, she was upset and scared, and she feared that Jensen
was trying to poison her or inject her with something because
Jensen was trying to get her to drink wine and she found
syringes in a drawer. Id., ¶ 5. Julie also allegedly told him that
she did not think she would make it through one particular
weekend because she had found suspicious notes written by
her husband and computer pages about poisoning. Id.
¶ 6 Kosman testified that he received two voicemails
approximately two weeks prior to Julie's death. *449 Id., ¶
6. Julie told Kosman in the second voicemail that she thought
Jensen was trying to kill her, and she asked him to call her
back. Id. Kosman returned Julie's call and subsequently went
to her home to talk with her. Id. Julie told Kosman that she saw
strange writings on Jensen's day planner, and she said Jensen
was looking at strange material on the Internet.1 Id. Julie also
informed Kosman that she had photographed **487 part of
Jensen's day planner and had given the pictures, along with
a letter, to a neighbor (Wojt). Id. Julie then retrieved at least
one picture, but not the letter from the neighbor, and gave it to
Kosman, telling him if she were found dead, that she did not
commit suicide, and Jensen was her first suspect. Id. Kosman
also testified that in August or September 1998, Julie told him
it had become very “cold” in their home and that Jensen was
not as affectionate as he used to be. Id. Kosman stated that
Julie said that when Jensen came home from work, he would
immediately go to the computer. Id.
¶ 7 Ratzburg testified that on the day after Julie's death, he
received a sealed envelope from Wojt. Id., ¶ 7. The envelope
contained a handwritten letter,2 addressed to “Pleasant
Prairie Police Department, Ron *450 Kosman or Detective
Ratzburg”; it bore Julie's signature that read as follows:
I took this picture [and] am writing this on Saturday 11–
21–98 at 7AM. This “list” was in my husband's business

daily planner—not meant for me to see, I don't know what
it means, but if anything happens to me, he would be my
first suspect. Our relationship has deteriorated to the polite
superficial. I know he's never forgiven me for the brief
affair I had with that creep seven years ago. Mark lives for
work [and] the kids; he's an avid surfer of the Internet....
Anyway—I do not smoke or drink. My mother was an
alcoholic, so I limit my drinking to one or two a week.
Mark wants me to drink more—with him in the evenings.
I don't. I would never take my life because of my kids
—they are everything to me! I regularly take Tylenol
[and] multi-vitamins; occasionally take OTC stuff for
colds, Zantac, or Immodium; have one prescription for
migraine tablets, which Mark use[s] more than I.
I pray I'm wrong [and] nothing happens ... but I am
suspicious of Mark's suspicious behaviors [and] fear for
my early demise. However, I will not leave David [and]
Douglas. My life's greatest love, accomplishment and
wish: “My 3 D's”—Daddy (Mark), David [and] Douglas.
Id.
¶ 8 Following the preliminary hearing, Jensen was bound over
for trial, and an information charging Jensen with first-degree
intentional homicide was filed. Id., ¶ 8. Jensen subsequently
entered a plea of not guilty at his arraignment on June 19,
2002. Id.
¶ 9 Among the pretrial motions Jensen filed were motions
challenging the admissibility of the letter received by
Ratzburg and the oral statements Julie allegedly made to
Wojt and Kosman. Id., ¶ 9. Jensen also *451 challenged the
admissibility of oral statements Julie purportedly made to her
physician, Dr. Richard Borman, and her son's teacher, Therese
DeFazio. Id. These motions were extensively briefed and
argued before the court. Id. The circuit court evaluated each
of Julie's disputed statements independently to determine its
admissibility under the hearsay rules and the then-governing
test of Ohio v. Roberts, 448 U.S. 56, 100 S.Ct. 2531, 65
L.Ed.2d 597 (1980). Jensen, 299 Wis.2d 267, ¶ 9, 727 N.W.2d
518. The circuit court ruled that most, but not all, of the
statements were admissible. Id. Julie's in-person statements
to Kosman and Julie's letter **488 were admitted in their
entirety. Id. The State conceded the voicemails to Kosman
were inadmissible hearsay. Id.
¶ 10 On May 24, 2004, Jensen moved for reconsideration on
the admissibility of Julie's statements in light of the United
States Supreme Court's ruling in Crawford v. Washington,
541 U.S. 36, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004),

Pet-App. 57

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

that the Sixth Amendment's Confrontation Clause bars
admission against a criminal defendant of an uncrossexamined “testimonial” statement that an unavailable witness
previously made out of court. See Jensen, 299 Wis.2d 267, ¶
10, 727 N.W.2d 518. After a hearing on the motion, the circuit
court orally announced its decision on June 7, 2004, and
concluded that Julie's letter and voicemails were testimonial
and therefore inadmissible under Crawford. Jensen, 299
Wis.2d 267, ¶ 10, 727 N.W.2d 518. The circuit court rejected
the State's argument that the statements were admissible
under the doctrine of forfeiture by wrongdoing.3 Id. The
circuit court also determined that Julie's statements to Wojt
and DeFazio were nontestimonial *452 and, therefore, the
statements were not excluded. Id. On August 4, 2004, the
circuit court issued a written order memorializing its oral
rulings. Id.
¶ 11 The State appealed the circuit court's ruling with respect
to Julie's letter and her voicemail message to Kosman.4 Id.,
¶ 11. Jensen subsequently cross-appealed the ruling that the
statements of Wojt and DeFazio were not excluded. Id. After
the State and Jensen had filed opening briefs in the court of
appeals, the State filed a petition to bypass, which Jensen did
not oppose. Id. Our supreme court granted the petition. Id.

¶¶ 2, 57. As such, it remanded the case to the circuit court
“for a determination of whether, by a preponderance of
the evidence, Jensen caused Julie's unavailability, thereby
forfeiting his right to confrontation.” Id., ¶ 2.

Remand
¶ 14 On remand, a ten-day forfeiture by wrongdoing hearing
ensued. For its decision, the circuit court followed the
supreme court's mandate to make a determination of whether,
by a preponderance of the evidence, Jensen caused Julie's
unavailability. See id., ¶¶ 2, 57. Ultimately, the circuit court
admitted the disputed evidence, relying on its finding by a
preponderance of the evidence that Jensen had caused Julie's
absence from the trial and thus forfeited his right to confront
the testimonial statements attributed to Julie.
*454 ¶ 15 During the forfeiture hearing, the State also
introduced other acts evidence which it offered to demonstrate
the existence of motive. At trial, various objections were
made to the allegedly improper other acts evidence and ruled
on by the circuit court.

¶ 12 Reduced to their essence, the appeal and crossappeal before the supreme court concerned the circuit court's
determinations on the testimonial or nontestimonial nature
of various statements of Julie's that the State sought to
introduce. Id. The supreme court affirmed the order of the
circuit court as to its initial rulings on the admissibility of
the various statements under Crawford. Jensen, 299 Wis.2d
267, ¶ 2, 727 N.W.2d 518. It *453 held that the statements
Julie made to Kosman, including the letter, are “testimonial,”
while the statements Julie made to Wojt and DeFazio are
“nontestimonial.” Id.

¶ 16 The circuit court also conducted hearings on other
motions, including Jensen's motion to suppress the search
evidence from his home. The central issue was whether
the consent form signed by Jensen provided authority for
police to search and seize Jensen's computer and hard drive.
Detective Paul Ratzburg testified that on December 3, 1998,
he was dispatched to the Jensen home because Julie had
been found dead. Ratzburg said that he asked Jensen if he
knew of any information on why Julie died and that Jensen
indicated he was unsure but thought it had something to
do with an allergic reaction to medications. Ratzburg stated
Jensen indicated that he had been up earlier that evening or
the day before looking up that information on the internet.

¶ 13 However, it reversed the circuit court's decision as to
the applicability of the forfeiture by wrongdoing doctrine to
Julie's testimonial statements. Id. In so doing, the supreme
court “explicitly” adopted a broad forfeiture by wrongdoing
doctrine “whereby a defendant is deemed to have lost the
right to object on confrontation grounds to the admissibility
of out-of-court statements of a declarant whose **489
unavailability the defendant has caused.” Id., ¶ 2; see also
id., ¶ 57. It concluded that if the State can prove by a
preponderance of the evidence that the accused caused the
absence of the witness, the forfeiture by wrongdoing doctrine
will apply to the confrontation rights of the defendant. Id.,

¶ 17 Ratzburg also testified that he showed Jensen a Consent
to Search and Seizure document and informed Jensen that
he wanted to investigate the potential cause of Julie's death
and whether it was connected to the previously reported
incidents by Jensen and Julie that they thought they had
prowlers leaving pornographic photographs in and around
the Jensen home. He said he told Jensen that because of
their investigation, Jensen would have to find somewhere else
to spend the night. Jensen said that would be no problem,
he would stay with his dad. Jensen read and signed the
consent document. The document, State's Exhibit 1, included

Pet-App. 58

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

Jensen's authorization for the police to conduct “a complete
search of my premise, automobile, and/or person.” And
further included: “I, *455 Mark Jensen, fully realize my
right to refuse to consent to this said search and seizure.
I do hereby authorize the said police officers to take from
my premise, automobile and/or person any letters, writings,
paper, materials or other property which they may desire.”
¶ 18 After hearing the evidence on the motion to suppress,
the court denied it, finding that it would be “quite apparent
to a reasonable person that the search was going to be a very
thorough one” and that a reasonable person would conclude:
[A]t a minimum the police would turn the computer on and
review historical information contained on it or otherwise
examine its contents, again, particularly since [Jensen]
himself had told the police that he had used it the previous
day **490 to access sites dealing with drug reactions
which would be relevant to this case.
¶ 19 After the many days of motion hearings concluded,
the over thirty-day jury trial began on January 3, 2008, and
concluded on February 21, 2008. A judgment of conviction
finding Jensen guilty of first-degree intentional homicide was
entered on February 27, 2008. Given the enormity of the
record, and in the interest of judicial economy, we include
further facts and evidence presented at trial in our discussion.

Discussion
¶ 20 Four months after Jensen's conviction, in June 2008,
the United States Supreme Court decided Giles v. California,
554 U.S. 353, 128 S.Ct. 2678, 171 L.Ed.2d 488 (2008),
and clarified the forfeiture by wrongdoing exception to the
Confrontation Clause. On April 6, 2009, Jensen filed notice
of this appeal. On appeal, Jensen raises multiple challenges to
his homicide conviction:
*456 1. Did Giles' narrow interpretation of the
forfeiture by wrongdoing exception to the Confrontation
Clause overrule the Wisconsin Supreme Court's broad
interpretation in Jensen making Julie's letter and statements
to Kosman inadmissible pursuant to Crawford ?
2. Are the admission of Julie's letter and Jensen's statements
to Kosman harmless error?
3. Is Julie's letter to police a dying declaration?

4. Are the statements Julie made to Therese DeFazio, Tad
and Margaret Wojt, Kosman and Ratzburg, via the letter,
inadmissible hearsay which should have been excluded?
5. Was the circuit court biased against Jensen's case?
6. Was prejudicial other acts evidence admitted which
should have been excluded from trial?
7. Should the computer evidence seized at Jensen's home
have been excluded because the evidence was obtained
without a warrant and was beyond the scope of the consent
given?
8. Should Jensen's conviction be reversed in the interest of
justice?
¶ 21 Several of Jensen's challenges are nonstarters which
we address later in this discussion; the rest center on the
admissibility of testimonial and nontestimonial evidence as it
relates to the Sixth Amendment right of confrontation, to the
hearsay rules and to their respective exceptions.

Giles
¶ 22 First, Giles. In a much narrower interpretation of the
forfeiture by wrongdoing exception to the Confrontation
Clause than that espoused by our supreme *457 court in
Jensen, the United States Supreme Court, in Giles, held that
a defendant forfeits his or her confrontation right only when
acting with intent to prevent the witness from testifying; the
requirement of intent “means that the exception applies only if
the defendant has in mind the particular purpose of making the
witness unavailable.” See Giles, 128 S.Ct. at 2687 (citations
omitted). The Supreme Court further clarified that “only
testimonial statements are excluded by the Confrontation
Clause,” but “[s]tatements to friends and neighbors about
abuse and intimidation, and statements to physicians in the
course of receiving treatment would be excluded, if at all, only
by hearsay rules which are free to adopt the dissent's version
of forfeiture by wrongdoing.” See id. at 2692–93.
¶ 23 Put another way then, nontestimonial statements are
not excluded by the Confrontation Clause and thereby may
**491 be analyzed for purposes of a hearsay objection
under the version of the forfeiture by wrongdoing doctrine
espoused by the Giles' dissent, which, like the version
espoused by our supreme court in Jensen, is very broad.

Pet-App. 59

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

See Jensen, 299 Wis.2d 267, ¶¶ 2, 57, 727 N.W.2d
518. The broad version of the forfeiture by wrongdoing
analysis—specifically approved in Giles for nontestimonial
statements—deems nontestimonial statements admissible if
the witness's “unavailability to testify at any future trial was
a certain consequence of the murder. And any reasonable
person would have known it.” See Giles, 128 S.Ct. at 2698
(Breyer, J., dissenting) (citation omitted); see also id. at 2692–
93, and Jensen, 299 Wis.2d 267, ¶¶ 2, 57, 727 N.W.2d 518.
¶ 24 Jensen asserts that, under the narrow version of the
forfeiture by wrongdoing exception espoused by the Giles'
majority, the admission of the testimonial *458 statements
is reversible error. He further argues that the admission of
the nontestimonial statements is reversible error under State
v. Manuel, 2005 WI 75, ¶ 60, 281 Wis.2d 554, 697 N.W.2d
811, which held that nontestimonial statements still should be
evaluated for Confrontation Clause purposes. See Jensen, 299
Wis.2d 267, ¶ 12 n. 5, 727 N.W.2d 518.
¶ 25 Mistakenly, while Jensen ardently relies on
Giles' clarification narrowing the forfeiture by wrongdoing
exception, he pays no heed to Giles' further clarification
that “only testimonial statements are excluded by the
Confrontation Clause,” but “[s]tatements to friends and
neighbors about abuse and intimidation, and statements to
physicians in the course of receiving treatment would be
excluded, if at all, only by hearsay rules, which are free to
adopt the dissent's version of forfeiture by wrongdoing.” See
Giles, 128 S.Ct. at 2692–93 (emphasis added).
¶ 26 Unlike Jensen, we do pay heed to the entirety of
the Giles' decision. In so doing, we recognize that Manuel's
holding that nontestimonial statements should be evaluated
for Confrontation Clause purposes is in direct conflict with
Giles' holding that “only testimonial statements are excluded
by the Confrontation Clause.” We adhere to the Giles'
holding because the Supremacy Clause of the United States
Constitution compels adherence to United States Supreme
Court precedent on matters of federal law, although it means
deviating from a conflicting decision of our state supreme
court. See State v. Jennings, 2002 WI 44, ¶ 3, 252 Wis.2d 228,
647 N.W.2d 142. Thus, Jensen's reliance on Manuel, for his
assertion that the nontestimonial statements should have been
excluded, fails. The *459 nontestimonial statements are not
excluded by the Confrontation Clause and, for purposes of a
hearsay objection, may be analyzed under a broader version of
the forfeiture by wrongdoing doctrine, such as that proffered

by the dissent in Giles and by our supreme court in Jensen.
See Giles, 128 S.Ct. at 2692–93.

Testimonial/Nontestimonial Statements
¶ 27 In order to determine which statements may be analyzed
under the broader version of the forfeiture by wrongdoing
analysis, we must first determine which statements are
testimonial and which are not. Fortunately, our supreme
court has done so for us in Jensen, 299 Wis.2d 267, ¶ 2,
727 N.W.2d 518. See Livesey v. Copps Corp., 90 Wis.2d
577, 581, 280 N.W.2d 339 (Ct.App.1979) (recognizing that
“[t]he court of appeals is bound by the prior decisions of the
Wisconsin Supreme Court”). After explaining that a statement
is “testimonial” if a reasonable person in the position of the
declarant would objectively foresee that his or her statement
might be used in the investigation or **492 prosecution of
a crime, the supreme court determined that the statements
Julie made to Kosman, including the letter addressed to the
police, are “testimonial,” while the statements Julie made
to her neighbor, Wojt, and her son's teacher, DeFazio, are
“nontestimonial.” Jensen, 299 Wis.2d 267, ¶¶ 2, 25, 727
N.W.2d 518.
¶ 28 With regard to the nontestimonial evidence, per the
Supreme Court's rationale in Giles, we may adhere to the
broad version of the forfeiture by wrongdoing exception to the
general prohibition against hearsay, such as that espoused by
our supreme court in Jensen. Thus, because the circuit court's
finding by a *460 preponderance of the evidence that Jensen
caused Julie's absence is not clearly erroneous, we hold that
any hearsay objection is overcome.5
¶ 29 With regard to the testimonial statements, i.e., hearsay
evidence, the Sixth Amendment demands what the common
law required: (1) unavailability and (2) a prior opportunity
for cross-examination. See Crawford, 541 U.S. at 68, 124
S.Ct. 1354. The threshold question in examining whether a
defendant's right to confrontation is violated by the admission
of hearsay evidence is whether that evidence is admissible
under the rules of evidence. State v. Williams, 2002 WI 118, ¶
2, 256 Wis.2d 56, 652 N.W.2d 391. If the evidence does not fit
within a recognized hearsay exception, it must be excluded.
Id.
¶ 30 However, only after it is established that the
evidence fits within a recognized hearsay exception or was
admitted erroneously does it become necessary to consider

Pet-App. 60

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

confrontation. Id. In so doing, it is necessary to bear in
mind that a determination of a Confrontation Clause violation
does not result in automatic reversal, but rather is subject to
harmless error analysis. Id. The test for this type of harmless
error was set forth in Chapman v. California, 386 U.S. 18, 87
S.Ct. 824, 17 L.Ed.2d 705 (1967). There, the Supreme Court
explained that “before a federal constitutional error can be
held harmless, the court must be able to declare a belief that it
was harmless beyond a *461 reasonable doubt.” Id. at 24, 87
S.Ct. 824; see also State v. Harvey, 2002 WI 93, ¶ 48 n. 14, 254
Wis.2d 442, 647 N.W.2d 189 (citing Neder v. United States,
527 U.S. 1, 18, 119 S.Ct. 1827, 144 L.Ed.2d 35 (1999)).
¶ 31 Our Wisconsin Supreme Court has articulated several
factors to aid in the harmless error analysis; these include
the frequency of the error, the importance of the erroneously
admitted evidence, the presence or absence of evidence
corroborating or contradicting the erroneously admitted
evidence, whether the erroneously admitted evidence
duplicates untainted evidence, the nature of the defense, the
nature of the state's case, and the overall strength of the state's
case. State v. Stuart, 2005 WI 47, ¶ 41, 279 Wis.2d 659, 695
N.W.2d 259.
¶ 32 An error is harmless if the beneficiary of the error
proves “beyond a reasonable doubt that the error complained
of did not contribute to the verdict obtained.” Id., ¶ 40 (citing
Chapman, 386 U.S. at 24, 87 S.Ct. 824). In this appeal, the
State carries the burden of proof in this regard. See, e.g.,
Stuart, 279 Wis.2d 659, ¶ 40, 695 N.W.2d 259.
**493 ¶ 33 The State claims that post-Giles, “logic” and
case law “compel the conclusion that if [the State can prove]
one reason Jensen killed Julie was to prevent her testimony in
a family court action, then he forfeited the right to confront
her at his murder trial.” The State argues that if we reject
its invitation to adopt a broad interpretation of the post-Giles
forfeiture by wrongdoing exception, any error in admitting
the challenged evidence was harmless beyond a reasonable
doubt.
¶ 34 We decline the State's invitation to adopt a broad
interpretation of the post-Giles forfeiture by wrongdoing
exception and leave for another day whether Giles should
be read to permit testimonial *462 evidence when the state
can establish by a preponderance of the evidence that the
defendant sought to prevent the victim from testifying in any
court proceeding.

¶ 35 Instead, we assume that the disputed testimonial
evidence was erroneously admitted; however, we deem its
admission harmless beyond a reasonable doubt given the
voluminous corroborating evidence, the duplicative untainted
evidence, the nature of the defense, the nature of the State's
case, and the overall strength of the State's case. See Stuart,
279 Wis.2d 659, ¶ 41, 695 N.W.2d 259.
¶ 36 Here, we will not attempt to catalog all the untainted
evidence the State presented; however, we will summarize
some of the compelling pieces in order to illustrate that the
record is replete with reason to uphold the jury's verdict, even
if the assumedly tainted evidence is disregarded.
¶ 37 This case was not a classic whodunit. Jensen's counsel
told the jury in opening statements that the facts will prove
Julie killed herself and tried to frame Jensen for her murder.
Thus, any evidence favoring the State's homicide charge or
disfavoring Jensen's suicide/framing theory strengthened the
State's case. Again, we underscore that the below summary is
meant only to be illustrative and does not convey the entirety
of the compelling case the State presented to the jury:
1. The computer evidence. This was probably the most
incriminating other evidence. In October 1998, the Jensens'
home computer revealed that searches for various means
of death coincided with e-mails between Jensen and his
then-paramour, Kelly, discussing how they planned to deal
with their respective spouses and begin “cleaning up [their]
lives” so they could be together *463 and take a cruise the
next year. Jensen was evasive when Kelly asked him how
he planned to take care of his “details” and, significantly,
Jensen's e-mails did not mention divorce at all. On the
same date Jensen was planning a future with Kelly, his
home computer revealed Internet searches for botulism,
poisoning, pipe bombs and mercury fulminate. A website
was visited that explained how to reverse the polarity of
a swimming pool—the Jensens had a pool—by switching
the wires around, likening the result to the 4th of July. The
State pointed out the absence of Internet searches on topics
like separation, divorce, child custody or marital property.
Significantly strong was the evidence of the Internet sites
visited on the morning of Julie's death. Exhibit 89 reveals
a 7:40 a.m. search for “ethylene glycol poisoning.” Jensen
told Ratzburg that the morning of Julie's death she “could
hardly sit up,” she “was not able to get out of bed,” and she
“was not able to move around and function.” Jensen said
he was propping Julie up in bed at 7:30 a.m., which was ten
minutes before the search for ethylene glycol poisoning,

Pet-App. 61

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

and that he did not leave home to take their son to preschool
until 8:00 or 9:00 a.m.
**494 Finally, the State presented abundant evidence that
Julie rarely used computers and that, in contrast, Jensen
was a skilled computer user and avid Internet surfer.
2. The motive evidence. Elsewhere in this opinion we
elaborate on the motive evidence, but suffice it to say
that the State provided evidence that, not only was Jensen
having an affair and planning a future with another woman
in the months before Julie died, he remained bitter about
Julie's affair and engaged in a campaign of emotional
torture against Julie.
3. Jensen's incriminating statements. The jury also heard
from Jensen's coworker and friend, David *464 Nehring,
who testified that around November 1998 Jensen was
researching possible drug interactions on the Internet
several times a day and told Nehring that he was doing it in
order to find an explanation for Julie's (allegedly) unusual
behavior.
In addition, the jury heard from Edward Klug, a fellow
stockbroker, who attended a national sales convention with
Jensen November 5–7, 1998. Klug testified that during a
late-night gripe session about their spouses, Jensen told him
that if one wanted to get rid of his wife, there were websites
instructing how to kill her, how to poison her with things
that would be undetectable. Klug said that Jensen told him
that giving doses of Benadryl and antifreeze “over a long
period of time” is “relatively undetectable” and will start
“crystallizing you from the inside out.” Klug said that this
was not a discussion of how to get rid of one's wife in the
abstract but rather that Jensen “was telling me that he was
going to be doing that.”
4. The medical evidence. The jury heard medical testimony
that Julie suffered from ethylene glycol poisoning and died
of asphyxia. Dr. Michael Chambliss, who conducted the
autopsy, testified that he believed the cause of death to be
“asphyxia by smothering.” Dr. Mary Mainland, a medical
examiner for Kenosha county, concluded that Julie had
received multiple doses of ethylene glycol—an indicator
for homicide rather than suicide—and testified that Julie's
“cause of death is ethylene glycol poisoning with probable
terminal asphyxia.”
5. Miscellaneous evidence. The jury heard evidence from
Jensen's coworker Nehring that Jensen reported his work
computer—the computer on which Nehring had seen

Jensen look up drug interactions—“had been fried and he'd
have to get a new one.” And the jury heard that Jensen
said this on the Monday following a Friday conversation
during which Nehring remarked to *465 Jensen that he
was surprised that the police had not seized Jensen's work
computer.
The jury learned that on the day Julie died, Jensen did
not call an ambulance despite Jensen's description of her
as “almost incoherent,” having very labored breathing and
needing help to sit up in bed. Instead, Jensen drove one son
to daycare, came home for a while and then ran a workrelated errand.
Nehring testified that Jensen told him that, after picking up
the boys from school, “something didn't feel right” when
they arrived home, so Jensen told the boys to wait in the car.
¶ 38 With the above illustrative summary of the other,
untainted and undisputed gripping evidence against Jensen—
from which a rational jury could alone conclude beyond a
reasonable doubt that Jensen cruelly planned and plotted and,
in fact, carried out the murder of his wife **495 Julie—we
move on to examine the admitted testimonial evidence for a
determination as to whether the assumed error in admitting
it was harmless or reversible. As already noted, we conclude
that the State has met its burden of proving admission of
the testimonial evidence was harmless beyond a reasonable
doubt. The State deftly dissects the challenged testimonial
evidence and is able to point to admissible duplicative and
corroborative evidence in the record.
¶ 39 We begin with Julie's letter.6
*466 ¶ 40 Assumed inadmissible evidence. The first two
sentences of Julie's letter state: “I took this picture and am
writing this on Saturday 11–21–98 at 7AM. This ‘list’ was
in my husband's business daily planner—not meant for me to
see.” Jensen, 299 Wis.2d 267, ¶ 7, 727 N.W.2d 518.
¶ 41 Admissible duplicative/corroborative evidence in the
record. Julie's neighbor, Wojt, testified that Julie told him
that she saw sticky notes with “different poisoning sites for
different poison” on Jensen's desk and Wojt further testified
that Julie was “very confused and scared, because there was
some times that Mark [Jensen] left to work and he left his
computer on and on the screen of the computer there was the
website about the poisoning.” Wojt testified that he advised
Julie to “take the pictures” of “the screen, the notes and give
it to the police.” Finally, Wojt testified that he knew that Julie

Pet-App. 62

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

took a picture because she told him, “I took the picture ... and
I tried to contact the police to give it to them.”
¶ 42 Jensen's sister, Laura Koster, testified that in fall 1998,
Julie had shown her a picture that Julie had photographed of
a page from Jensen's planner and the photograph showed that
in Jensen's planner, in his handwriting, he had made a “list of
things.” Koster said the same photograph also showed that,
lying next to the planner, there was a plastic cylinder that “[a]t
first glance ... looked like a syringe.”
¶ 43 Therese DeFazio, son David's teacher, testified that
on November 25, 1998, while at David's school, Julie “was
acting extremely nervous” and “didn't want *467 to tell”
DeFazio what was on her mind and said, “I don't know if I
should be telling you this.” DeFazio said she told Julie that
“when you're ready ... you can tell me whatever it is that's
bothering you.” Julie then “started to wring her hands again
and she said I think my husband is going to kill me.” DeFazio
said Julie then told her that she saw a list of items by Jensen's
computer “such as syringes ... and drugs and items like that.”
Julie told her she feared that Jensen was going to try to give
her an overdose of drugs or something by putting it in her food
and that Jensen was trying to get her to eat and drink things
and she refused.
¶ 44 Assumed inadmissible evidence. The third sentence
of Julie's letter states: “I don't know what it means, but
if anything happens to me, he [Jensen] would be my first
suspect.”
¶ 45 Admissible duplicative/corroborative evidence in the
record. Wojt, the Jensens' neighbor, testified that about one
month before Julie died Julie was very **496 confused
and scared and told him that Jensen would go to work and
leave his computer on with the screen displaying a website
about poisoning. Wojt said Julie told him, “I don't know what
[Jensen's] trying to do to me, if he's like trying to scare me,
he's playing with my mind or he just forgot to turn it off.” Wojt
said that Julie expressed suspicions that Jensen was trying to
poison her or trying to drive her nuts in order to take the kids
from her. Wojt said that Julie told him that during an argument
she had with Jensen, Jensen said she was an unfit mother and
that he “will take the kids away from her.”
¶ 46 Wojt testified that about two weeks before Julie died, she
told him that Jensen was “chasing her” with a glass of wine
trying to get her to drink it, that Jensen kept following her
with the wine, would put it *468 next to her and this went

on until three in the morning. Julie told Wojt that the same
night she also saw their nightstand drawer left cracked open
and inside the drawer she could see syringes. Julie told Wojt
that she and Jensen had a huge fight that night and she refused
to drink the wine and “was afraid that [Jensen] put something
in the wine” and was going to “inject her with something else.
That's why the syringes were there.”
¶ 47 Wojt further testified that Julie told him she was “scared
she was go[ing to] die; [that Jensen's] go[ing to] poison her.”
As mentioned earlier, son David's teacher, DeFazio, testified
that Julie said, “I think my husband is going to kill me.”
DeFazio also testified that Julie told her that she feared that
Jensen was going to try to give her an overdose of drugs or
something by putting it in her food. Jensen's sister, Koster,
testified that Julie told her in the fall of 1998 that she thought
Jensen might be planning to kill her.
¶ 48 Assumed inadmissible evidence. Sentence four and five
of Julie's letter states: “Our relationship has deteriorated to
the polite superficial. I know [Jensen's] never forgiven me for
that brief affair I had with that creep seven years ago.”
¶ 49 Admissible duplicative/corroborative evidence in the
record. Jensen admitted to Detective Ratzburg that their
marriage was never the same after Julie's affair. Wojt testified
that Julie repeatedly told him about marital problems she and
Jensen were having. Dr. Richard Borman, the family's doctor,
testified that two days before Julie's death she was in to see
him and alluded to an affair that she had in the past and said
she believed that Jensen had “never really forgiven” her for it.
¶ 50 Nehring testified that he first met Jensen in 1990 or
1991 and became friends with him and continued *469
that friendship thereafter. He said they talked on the phone
regularly both about business and personal things, and they
did family outings together. Nehring testified that soon after
he met Jensen, sometime around 1990–91, Jensen told him
about Julie's affair. Nehring acknowledged that eight years
after telling him about the affair, neither Jensen's anger nor his
hurt diminished. He said that “[Jensen] remained upset about
[the affair] and distressed over it for as long as I knew him.”
¶ 51 Additionally, DeFazio testified that Julie told her that
Jensen “never forgave her for [the affair].”
¶ 52 Finally, the State presented uncontroverted evidence
that Jensen repeatedly placed pornographic photos around the
house for Julie to find and that Jensen knew Julie believed

Pet-App. 63

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

her former paramour was planting them. This evidence is
discussed in further detail later in this opinion when we
address and reject Jensen's argument that impermissible other
acts evidence was admitted. It is sufficient to **497 say for
now that this evidence duplicates the contested evidence put
on to show that Jensen had never forgiven Julie for her affair.
¶ 53 Assumed inadmissible evidence. Sentence six of Julie's
letter stated: “Mark lives for work and the kids; he's an avid
surfer of the Internet.”
¶ 54 Admissible duplicative/corroborative evidence in the
record. Again, other undisputed evidence at trial pointed to
Jensen, not Julie, being the user of their home computer.
Jensen's friend and coworker, Nehring, testified that Jensen's
computer skills were “above average,” noting that Jensen was
always buying and replacing computers and usually owned
two personal computers at any time. Nehring testified that
before Julie's death, Jensen conducted Internet searches on
*470 drug interactions “on a very frequent basis.” DeFazio
testified that during a school open house in August 1998,
she asked Julie if she could use a computer because she
wanted Julie to help in the computer lab with the children,
and Julie said, “[O]h, I can't do that, I don't even know how
to turn one on.” DeFazio also testified that David told her
that he was teaching his mom how to use a computer because
“she didn't know how.” Finally, the time of day that Internet
activity occurred was consistent with Jensen being the user.
Computer evidence showed that Internet activity occurred
late at night and into the early morning when Jensen would
be home. The computer evidence showed that when Jensen
attended a conference in St. Louis, there was no Internet
activity. Additionally, during November 1998, no Internet use
occurred from Monday through Friday between 9 a.m. and 6
p.m.
¶ 55 On the morning Julie died, the evidence reveals a 7:40
a.m. search on the Jensen home computer for “ethylene glycol
poisoning.” The computer evidence also reveals that the user
of the home computer that same morning double-deleted that
morning's Internet history. Jensen told Ratzburg that on the
morning of Julie's death, Julie “could hardly sit up,” “was not
able to get out of bed,” and “was not able to move around and
function.”
¶ 56 Assumed inadmissible evidence. Sentences seven and
eight of Julie's letter state: “Anyway—I do not smoke or
drink. My mother was an alcoholic, so I limit my drinking to
one or two a week.”

¶ 57 Admissible duplicative/corroborative evidence in the
record. Dr. Borman testified that Julie denied smoking, stated
that she drank alcohol occasionally and told him that her
mom had alcohol problems so she was careful about alcohol
consumption. Julie's *471 brother, Paul Griffin, testified that
their mother was an alcoholic and that Julie “rarely” drank.
¶ 58 Assumed inadmissible evidence. Sentences nine and ten
of Julie's letter state: “Mark wants me to drink more with him
in the evenings. I don't.”
¶ 59 Admissible duplicative/corroborative evidence in the
record. As noted earlier in this opinion, the Jensens' neighbor,
Wojt, provided testimony with this same information. Jensen's
friend Nehring testified that Jensen told him he was trying
to get Julie to relax by offering her a glass of wine at night,
but she always said no. Nehring stated that Jensen told him
that on only one occasion did Julie accept a drink of wine
and immediately following taking a sip of wine, she fell over
sideways.
¶ 60 Assumed inadmissible evidence. Sentence eleven of
Julie's letter states: “I would never take my life because of my
kids. They are everything to me!”
¶ 61 Admissible duplicative/corroborative evidence in the
record. Julie told Borman that she loved her children “more
than anything and they were the most **498 important thing
in the world to her.” DeFazio testified that Julie told her she
gave her neighbor a note, “saying that if my husband ever kills
me please believe that I did not commit suicide, I would never
do that because I love my children and I wouldn't do that to
my children.”
¶ 62 Assumed inadmissible evidence. Sentence twelve of
Julie's letter states: I regularly take Tylenol and multivitamins; occasionally take OTC stuff for colds, Zantac, or
Imodium.” Borman's notes of Julie's September 1998 doctor's
visit indicate she was taking a multivitamin and calcium.
Whether Julie took Tylenol and occasionally took over-thecounter medications is not relevant or prejudicial.
*472 ¶ 63 Assumed inadmissible evidence. Sentence thirteen
of Julie's letter states: “[I] have one prescription for migraine
tablets, which Mark uses more than I.” This information is not
in evidence outside the letter, but is not material or prejudicial.

Pet-App. 64

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

¶ 64 Assumed inadmissible evidence. Sentence fourteen of
Julie's letter states: “I pray I'm wrong & nothing happens ...
but I am suspicious of Mark's suspicious behaviors & fear for
my early demise.”
¶ 65 Admissible duplicative/corroborative evidence in the
record. As noted earlier in this opinion, Jensen's sister, Koster,
Julie's neighbor, Wojt, and Julie's son's teacher, DeFazio,
testified that Julie was suspicious of Jensen and thought he
might try to kill her.
¶ 66 Assumed inadmissible evidence. Sentence fifteen of
Julie's letter states: “However, I will not leave David &
Douglas.”
¶ 67 Admissible duplicative/corroborative evidence in the
record. As noted earlier, DeFazio testified that Julie told her
she wrote a letter in which she stated that she would never
commit suicide. Also, Borman testified that two days before
her death, Julie denied being suicidal and said her boys meant
“everything” to her and she did not want to lose them.
¶ 68 Assumed inadmissible evidence. The last sentence of
Julie's letter states: “My life's greatest love, accomplishment
and wish: ‘My 3 D's—Daddy (Mark), David & Douglas.”
¶ 69 Admissible duplicative/corroborative evidence in the
record. Other evidence revealed that Julie's license plate read
“MY 3 DS.”
¶ 70 The State's additional evidence, compared to Julie's letter,
illustrates that virtually all relevant information in Julie's
letter was duplicated by admissible *473 nontestimonial
evidence from other sources. The rest of the record reflects
that the jury heard overwhelming evidence of murder, and
upon this record, it could rationally have concluded beyond a
reasonable doubt that Jensen murdered Julie.
¶ 71 The same is true regarding Julie's testimonial statements
to Kosman; that is, virtually everything related in Julie's
statements to Kosman was duplicated by admissible evidence
from other sources. Kosman testified that he received a
voicemail message from Julie that said “to call [her] as soon
as possible, and if she were to end up dead, Mark [Jensen]
would be her suspect.” Likewise, Wojt and DeFazio testified
that Julie told them she thought Jensen was going to kill
her. Kosman testified that Julie had told him she had taken
photographs of notes from Jensen's planner and that she had
written a note and given it to a neighbor with instructions to

give it to the police if anything happened to her. Likewise,
Wojt testified to the fact that Julie told him she had taken
pictures of Jensen's day planner and that she was worried
Jensen was planning to poison her. Wojt testified that one of
the **499 times when he and Julie were talking, she put
an envelope in his coat pocket and told him that if anything
happened, he should give it to the police.
¶ 72 Kosman testified that Julie told him she thought that
Jensen was going to kill her and make it look like suicide.
Likewise, DeFazio testified that Julie told her that she feared
Jensen “was going to make it look like a suicide.”
¶ 73 Thus, even assuming the testimonial evidence of Julie's
letter and Julie's statements to Kosman were inadmissible
under the rules of evidence and the Sixth Amendment
Confrontation Clause, we deem any error in admission
harmless. The sine qua non is that *474 the testimonial
statements provided nothing significant beyond the properly
admitted nontestimonial statements.

Other Acts
¶ 74 That determined, we now address the alleged improperly
admitted “other acts”7 evidence. Jensen acknowledges that
the evidence that Julie had an affair and that he had an affair
was properly admitted other acts evidence to show motive.
However, Jensen argues that certain categories of evidence
were improperly admitted “other acts” evidence. Specifically,
he takes issue with the admission of (1) the evidence that he
left pornographic photos—depicting erect penises and fellatio
—around the Jensen home; (2) the evidence that pornography
—depicting penis pictures—was found on Jensen's home
computer in 1998 and 2002; and (3) the evidence that he
had quizzed Kelly Jensen8 about her sexual history, including
fellatio and details of her past partners' penis sizes. We
conclude that all three categories of evidence were properly
admitted.
*475 ¶ 75 A circuit court's decision to admit evidence,
including “other acts,” is discretionary. See State v. Webster,
156 Wis.2d 510, 514–15, 458 N.W.2d 373 (Ct.App.1990),
and State v. C.V.C., 153 Wis.2d 145, 161, 450 N.W.2d 463
(Ct.App.1989). We will not disturb a circuit court's exercise
of discretion if the circuit court correctly applied accepted
legal standards to the facts of record and, using a rational
process, reached a conclusion that a reasonable judge could
reach. See Webster, 156 Wis.2d 510, 514–15, 458 N.W.2d

Pet-App. 65

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

373. The basis for the court's decision should be set forth;
however, if the circuit court fails to provide reasoning for its
evidentiary decision, we will independently review the record
to determine whether the circuit court properly exercised
its discretion. Martindale v. Ripp, 2001 WI 113, ¶ 29, 246
Wis.2d 67, 629 N.W.2d 698. In admissibility determinations,
an appellate court is concerned with whether a circuit court's
decision is correct, rather than with the reasoning employed
by circuit court. See State v. Baudhuin, 141 Wis.2d 642, 648,
416 N.W.2d 60 (1987). If the decision is correct, it should be
sustained, and we may do so on a theory or on reasoning not
presented to the circuit court. See id.
**500 ¶ 76 Our supreme court has set forth a threepart analytical test for determining when other acts evidence
can be admitted. State v. Sullivan, 216 Wis.2d 768, 772,
576 N.W.2d 30 (1998). The three-part test asks the court to
consider: (1) whether the evidence is offered for a permissible
purpose under Wis. Stat. 904.04(2); (2) whether the evidence
is relevant; and (3) whether the probative value of the
evidence is substantially outweighed by the danger of unfair
prejudice, *476 confusion of the jury or needless delay.9
Sullivan, 216 Wis.2d at 772, 576 N.W.2d 30.
¶ 77 Wisconsin does not prohibit the admission of other
acts evidence if “offered for other purposes, such as proof
of motive, opportunity, intent, preparation, plan, knowledge,
identity, or absence of mistake or accident.” Wis. Stat. §
904.04(2). The listing of circumstances under § 904.04(2)
for which the evidence is relevant and admissible is not
exclusionary but, rather, illustrative. State v. Shillcutt, 116
Wis.2d 227, 236, 341 N.W.2d 716 (Ct.App.1983). Accepted
bases for the admissibility of evidence of other acts not listed
in the statute arise when such evidence provides background
or furnishes part of the context of the crime or case or is
necessary to a full presentation of the case. See id.; see also
State v. Hereford, 195 Wis.2d 1054, 1069, 537 N.W.2d 62
(Ct.App.1995).
¶ 78 Furthermore, often times evidence treated by the
parties and the circuit court as “other acts” evidence is not
necessarily even “other acts.” In State v. Johnson, 184 Wis.2d
324, 516 N.W.2d 463 (Ct.App.1994), the majority analyzed
the disputed evidence as *477 “other acts” because the
parties treated it as such. Id. at 339 n. 2, 516 N.W.2d 463.
There, Johnson's former live-in girlfriend, Karen Petersen,
contended that during an argument, Johnson assaulted her. Id.
at 334, 516 N.W.2d 463. Based on her allegations, the State

charged Johnson with battery and second-degree reckless
endangerment while using a dangerous weapon. Id.
¶ 79 Johnson's theory of defense was that Petersen falsely
accused him of assault so that after he was incarcerated, she
could misappropriate certain items of his personal property.
Id. at 338, 516 N.W.2d 463. To bolster this theory, he sought to
introduce evidence that within days after his arrest, Petersen
approached several of the people who were storing property
for Johnson and attempted to claim the property as her own.
Id. Johnson offered it as probative of Petersen's motive for
falsely accusing him of the assault. Id. The circuit court did
not let in the evidence and Johnson was found guilty of battery
and second-degree reckless endangerment. Id. at 333, 516
N.W.2d 463. Johnson appealed.
¶ 80 We reversed the circuit court's ruling to suppress this
evidence and remanded for a new trial. Id. In discussing our
decision, we explained that this evidence, viewed from the
theory of defense, is directly linked to the criminal events
charged against Johnson. Id. at 339, 516 N.W.2d 463. The
probative value of other acts evidence is partially dependent
on its **501 nearness in time, place and circumstance to the
alleged act sought to be proved. Id. The evidence involved
the relationship between the principal actors (Johnson and
Petersen), followed on the heels of Petersen's accusations
against Johnson and, most importantly, traveled directly to
Johnson's theory as to why Petersen was falsely accusing him.
Id.
¶ 81 Notably, given this linkage with the offenses charged
against Johnson, we questioned whether this *478 evidence
“even required” an “other acts” analysis, and pointed the
reader to the concurring opinion which further pursued this
matter. Id. at 339 n. 2, 516 N.W.2d 463. In his concurrence,
Judge Anderson explained that if evidence is part of the
“panorama” of evidence surrounding the offense, it is not
other acts evidence and need not be analyzed as such. See
id. at 348–49, 516 N.W.2d 463 (Anderson, P.J., concurring).
Judge Anderson then explained why he did not consider this
evidence to be other acts evidence:
For Johnson's theory of defense to have any viability,
Petersen's conduct cannot be viewed frame-by-frame as the
State argues. The fact that Petersen's bid to secure Johnson's
personal property came after the alleged assault does not
make it an “other act” subject to analysis under [Wis. Stat.]
§ 904.04(2). A criminal act cannot be viewed frame-byframe if the finder of fact is to arrive at the truth.

Pet-App. 66

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

See Johnson, 184 Wis.2d at 350, 516 N.W.2d 463 (Anderson,
P.J., concurring).
¶ 82 Like the complained-about evidence in Johnson, the
evidence that Jensen may have left pornographic photos—
depicting such things as erect penises and fellatio—around
the house was admissible, whether subjected to an other
acts analysis under Wis. Stat. § 904.04(2) and Sullivan, or
examined as “panorama” evidence under Johnson.
¶ 83 The State argues this was properly admitted “other acts”
evidence showing that Jensen's bitterness over Julie's 1991
affair was “deep-seated and obsessive and gave him a motive
to kill Julie, although it was not his sole motive.” The State
establishes a contextual reason for admitting the evidence in
its further assertion that Jensen “orchestrated [a] campaign
of harassment.” While Jensen denied knowing the origin of
the pornographic photos, he told Ratzburg, the investigating
*479 officer, that he believed Julie's former paramour was
sending the photos to him at work. Jensen admitted to
Ratzburg that he began saving the photos and using them to
upset Julie when “something would happen” that caused him
to “get pissed off.” He explained that sometimes he would just
leave the photos out for Julie to find and other times he would
bring them out, show them to Julie and tell her that he “found
these in the shed.”
¶ 84 We agree with the State that if analyzed as other acts
evidence, it is properly admitted motive10 and/or context
evidence under Sullivan. See Sullivan, 216 Wis.2d at 772,
576 N.W.2d 30. The evidence that Jensen left pornographic
pictures around the home is relevant: long ago, our supreme
court recognized that in cases of uxoricide,11 evidence of the
defendant's ill feeling toward his wife is relevant to prove
motive. Runge v. State, 160 Wis. 8, 12–13, 150 N.W. 977
(1915). This evidence **502 is offered for a permissible
purpose: that of establishing context and providing a full
presentation of the case, i.e., Jensen's hostility and desire
to seek revenge against Julie for her affair. See Shillcutt,
116 Wis.2d at 236, 341 N.W.2d 716; see also Hereford, 195
Wis.2d at 1069, 537 N.W.2d 62. Finally, the probative value
of the evidence is not substantially outweighed by the danger
of unfair prejudice.
¶ 85 Also, even if this was not admissible other acts evidence,
it is admissible when analyzed as “part of the panorama
of evidence” surrounding the offense. See *480 Johnson,
184 Wis.2d at 348–49, 516 N.W.2d 463 (Anderson, P.J.,
concurring). It is admissible as part of the State's theory

that before Jensen murdered his wife, Jensen engaged in
a campaign of emotional torture by repeatedly confronting
Julie with pornographic photos. The evidence involved the
relationship between the principal actors (Jensen and Julie)
and traveled directly to the State's theory as to why Jensen
murdered Julie. See id. at 339, 516 N.W.2d 463.
¶ 86 The second category of evidence that Jensen claims
is inadmissible other acts—evidence that pornography was
found both on Jensen's home computer in 1998 and office
computer in 2002—was properly admitted “panorama”
evidence. For the finder of fact to arrive at the truth, it
was proper not to limit the evidence to a frame-by-frame
presentation. See id. at 350, 516 N.W.2d 463 (Anderson,
P.J., concurring). The evidence that Jensen secretly planted
pornography around the home gave viability to the State's
theory of the case that Jensen had been engaging in a
campaign of emotional torture toward Julie up to the time he
poisoned her. See, e.g., id. We agree with the circuit court that
because Jensen persistently denied leaving the pornographic
photos, evidence of the pornography found on his work
computer in 2002—long after Julie's death—was relevant to
prove him the source of the pornography found on the Jensen
home computer in 1998, which, in turn, was relevant to show
Jensen left the pornographic photos around the Jensen home.
¶ 87 What is more, the similarity of what was specifically
depicted in most of the pictures, i.e., penis-focused
pornography, made it even more relevant to proving the
State's case because the evidence, showing that Jensen was
storing penis photos on his computer in 2002, bolstered the
State's theory that Jensen had *481 accessed similar penis
pornography on the home computer in 1998, which, in turn,
linked him to being the one who left similar penis-focused
pornographic photos around the home.
¶ 88 Moreover, this evidence is highly probative to another
key issue in the trial that the State was seeking to establish:
that Julie knew very little about computers and rarely used
the home computer while, in contrast, Jensen was computer
savvy and surfed the Internet regularly at home. The circuit
court observed that the defense had impeached Detective
Ratzburg's testimony—i.e., that Jensen told him right after
Julie's death that he was the principal computer user and
that Julie rarely used their computer—by pointing out that
Ratzburg never included this information in any report.
Plainly, given the critical issue as to who had searched for
ethylene glycol and other poisons on the home computer,
evidence tending to show Jensen was by far the primary user

Pet-App. 67

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

of the computer had great probative value outweighing any
unfair prejudice.
¶ 89 The third category of evidence Jensen claims
was inadmissible other acts evidence is the evidence that
Jensen had quizzed Kelly Jensen about her sexual history,
including fellatio and details of her past partners' penis sizes.
This **503 evidence also qualifies as properly admitted
“panorama” evidence because it, too, tended to show that
Jensen (a) had a longstanding fascination or obsession with
penises and (b) given this, was likely the one responsible
for the penis-focused photos stored on the home and office
computer and left around the Jensen home to emotionally
torture Julie.
¶ 90 Each category of evidence Jensen complains about was
properly admitted, even if the circuit court's reasoning for
admitting the evidence differs from ours, *482 its decision to
admit was correct and we, therefore, sustain the circuit court's
determination under our deferential standard of review. See
Baudhuin, 141 Wis.2d at 648, 416 N.W.2d 60.

Search Warrant
¶ 91 Like Jensen's preceding arguments, Jensen's additional
arguments do not sway this court from affirming. Jensen
claims that “[t]he search of [his] home and seizure of his
computer without a warrant exceeded the scope of the consent
to search.” Warrantless searches are per se unreasonable
under the Fourth Amendment, subject to a few carefully
delineated exceptions. State v. Sanders, 2008 WI 85, ¶ 27,
311 Wis.2d 257, 752 N.W.2d 713. The consent search is
one exception. Wis. Stat. § 968.10(2). A consent search
is constitutionally reasonable to the extent that the search
remains within the bounds of the actual consent. State v.
Douglas, 123 Wis.2d 13, 22, 365 N.W.2d 580 (1985). “The
standard for measuring the scope of a suspect's consent under
the Fourth Amendment is that of ‘objective’ reasonableness
—what would the typical reasonable person have understood
by the exchange between the officer and the suspect?” Florida
v. Jimeno, 500 U.S. 248, 251, 111 S.Ct. 1801, 114 L.Ed.2d
297 (1991).
¶ 92 Jensen argues that the consent form language, “any
letters, writings, paper, materials, or other property,” limited
the consent to the seizure of documents and similar items.
He also argues that “[n]o reasonable person would have
anticipated that a search for evidence relating to a death

would have extended to seizing and searching Mr. Jensen's
home computer.” We cannot agree. As already noted, the form
Jensen signed *483 specifically stated: “I, Mark Jensen,
fully realize my right to refuse to consent to this said search
and seizure. I do hereby authorize the said police officers to
take from my premise, automobile and/or person any letters,
writings, paper, materials or other property which they may
desire.”
¶ 93 A reasonable person who consents to a police search
and seizure of “other property which they may desire” would
not believe that “other property” was limited to papers and
written material. There is no meaningful difference between
records maintained electronically and those kept in hard
copies and, in this age of modern technology, persons have
increasingly become more reliant on computers not only to
store information, but also to communicate with others. See
Commonwealth v. McDermott, 448 Mass. 750, 864 N.E.2d
471, 488–89 (2007). “[C]lairvoyance cannot be expected
of police officers to know in what form a defendant may
maintain his records.” Id. at 488. We conclude that the
consent form signed by Jensen authorized police to seize the
electronic storage media (computers and disks) within which
the documents listed in the warrant may have been stored.

Judicial Bias
¶ 94 Jensen's next argument is that Judge Schroeder's pretrial
forfeiture by wrongdoing finding of guilt by a preponderance
of the evidence rendered the **504 judge biased and
violated Jensen's due process right to a fair trial. Jensen has
waived this argument because he failed to present it in the
circuit court. See Apex Elecs. Corp. v. Gee, 217 Wis.2d 378,
384, 577 N.W.2d 23 (1998) *484 “[t]he oft-repeated rule
of Wisconsin appellate practice is that issues not raised in
the circuit court will not be considered for the first time on
appeal”).
¶ 95 Further, even if this argument had not been waived, it
lacks merit. The right to a fair trial includes the right to be
tried by an impartial and unbiased judge. State v. Walberg,
109 Wis.2d 96, 105, 325 N.W.2d 687 (1982). Whether
Judge Schroeder was a neutral and detached magistrate as
mandated by the United States and Wisconsin Constitutions
is a question of constitutional fact that we review de novo
without deference to the circuit court. See State v. McBride,
187 Wis.2d 409, 414, 523 N.W.2d 106 (Ct.App.1994). There
is a presumption that a judge is free of bias and prejudice.

Pet-App. 68

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

Id. In order to overcome this presumption, the party asserting
judicial bias must show by a preponderance of the evidence
that the judge is biased or prejudiced. Id. at 415, 523 N.W.2d
106.
¶ 96 Jensen makes no such showing. Under Wis. Stat. §
901.04, a judge must make preliminary evidentiary findings
such as the finding Judge Schroeder made that Jensen
was guilty of forfeiture by wrongdoing.12 Moreover, Judge
Schroeder was ordered by our supreme court to make a
forfeiture by wrongdoing finding. Additionally, Jensen points
to nothing to support his implied contention that a judge
who makes the *485 preliminary finding of forfeiture by
wrongdoing must recuse himself or herself from the trial.
Finally, Jensen proffers no objective evidence of bias. We
address this argument no further.

caution. State v. Williams, 2006 WI App 212, ¶ 36, 296 Wis.2d
834, 723 N.W.2d 719. We are reluctant to grant new trials
in the interest of justice and exercise our discretion to do
so “only in exceptional cases.” See State v. Armstrong, 2005
WI 119, ¶ 114, 283 Wis.2d 639, 700 N.W.2d 98. While this
case is “exceptional,” it is so only because of the staggering
weight of the untainted evidence and cumulatively sound
evidence presented by the State to a jury of Mark Jensen's
peers leading it to convict Jensen beyond a reasonable doubt
of murder in the first degree. Because the State has proven
beyond a reasonable doubt that any error complained of did
not contribute to the verdict obtained, Jensen is not entitled to
a new trial and his conviction stands. See Stuart, 279 Wis.2d
659, ¶ 40, 695 N.W.2d 259 (citing Chapman, 386 U.S. at 24,
87 S.Ct. 824); see also Harvey, 254 Wis.2d 442, ¶ 46, 647
N.W.2d 189. Upon review of the extensive record and briefing
on appeal, we affirm.
Judgment affirmed.

Interest of Justice
¶ 97 Jensen's final argument is that we should reverse
his conviction in the interest of justice. We disagree. Our
discretionary reversal power under Wis. Stat. § 752.35 is
formidable and should be exercised sparingly and with great

All Citations
331 Wis.2d 440, 794 N.W.2d 482, 2011 WI App 3

Footnotes

†
1

2
3

4
5

Petition For Review Filed
“After Julie's death, police seized the computer in the Jensen [s'] home and found that on various dates between October
15 and December 2, 2002, several websites related to poisoning were visited; including one entitled ‘Ethylene Glycol.’
” State v. Jensen, 2007 WI 26, ¶ 6 n. 1, 299 Wis.2d 267, 727 N.W.2d 518. (Because Julie died on December 3, 1998,
we believe the court meant to refer to the three-month time period leading up to Julie's death, October 15 to December
2, 1998, not 2002.)
After comparing the letter to known writing samples from Julie, a document examiner with the state crime lab concluded
that the letter was written by Julie. Jensen, 299 Wis.2d 267, ¶ 7, 727 N.W.2d 518.
The forfeiture by wrongdoing doctrine was codified in 1997 in the Federal Rules of Evidence as a hearsay exception.
See Fed.R.Evid. 804(b)(6); see also Jensen, 299 Wis.2d 267, ¶ 43, 727 N.W.2d 518. This rule reads as follows:
Rule 804. Hearsay Exceptions; Declarant Unavailable
....
(b) Hearsay exceptions. The following are not excluded by the hearsay rule if the declarant is unavailable as a witness:
....
(6) Forfeiture by wrongdoing. A statement offered against a party that has engaged or acquiesced in wrongdoing
that was intended to, and did, procure the unavailability of the decedent as a witness.
Fed.R.Evid. 804(b)(6).
The district attorney conceded that the statements Julie made to Kosman during a conversation on November 24, 1998,
were testimonial. Jensen, 299 Wis.2d 267, ¶ 11 n. 4, 727 N.W.2d 518. With respect to these statements, the State argued
only that they are admissible under the forfeiture by wrongdoing doctrine. Id.
We note that Jensen did not substantively challenge the circuit court's finding that the preponderance of the evidence
showed that Jensen caused Julie's absence. We deem that challenge abandoned. See State v. Ledger, 175 Wis.2d 116,
135, 499 N.W.2d 198 (Ct.App.1993) (issues not briefed or argued are deemed abandoned).

Pet-App. 69

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

State v. Jensen, 331 Wis.2d 440 (2010)
794 N.W.2d 482, 2011 WI App 3

6

7

8
9

10
11
12

On appeal, Jensen argues that the circuit court erred in admitting Julie's letter as a “dying declaration.” The State explicitly
does not argue that Julie's letter was a dying declaration “because it believes the theory for admissibility” it advances “is
stronger and, unlike the dying-declaration theory, not subject to a potential waiver bar.” The State does, however, note
that this court “could still adopt” the circuit court's rationale for admitting the letter as a dying declaration. We decline to
reach the dying declaration issue given our harmless error analysis. See Gross v. Hoffman, 227 Wis. 296, 300, 277 N.W.
663 (1938) (only dispositive issues need be addressed).
Wisconsin Stat. § 904.04(2) (2007–08) provides in pertinent part:
[E]vidence of other crimes, wrongs, or acts is not admissible to prove the character of a person in order to show
that the person acted in conformity therewith. This subsection does not exclude the evidence when offered for other
purposes, such as proof of motive, opportunity, intent, preparation, plan, knowledge, identity, or absence of mistake
or accident.
All references to the Wisconsin Statutes are to the 2007–08 version unless otherwise noted.
Kelly Jensen is the woman Jensen was having an affair with; he married Kelly after Julie's death.
This three-part test has sometimes been worded differently, apparently combining the second and third step into one step.
State v. Hunt, 2003 WI 81, ¶ 32 n. 11, 263 Wis.2d 1, 666 N.W.2d 771 (citing State v. Pharr, 115 Wis.2d 334, 340 N.W.2d
498 (1983), which held that circuit courts must apply a two-prong test in determining whether evidence of other crimes is
admissible. The first prong requires the circuit court to determine whether evidence fits within one of the exceptions set
forth in Wis. Stat. § 904.04, and the second prong requires the circuit court to determine whether the probative value of
the evidence is substantially outweighed by the danger of unfair prejudice to the defendant).
We note that “[m]otive has been defined as the reason which leads the mind to desire the result of an act.” State v.
Johnson, 184 Wis.2d 324, 338, 516 N.W.2d 463 (Ct.App.1994).
Uxoricide is defined as “the murder of one's wife.” Black's Law Dictionary 1583 (8th ed.2004).
Wisconsin Stat. § 901.04 provides in pertinent part:
(1) Questions of admissibility generally. Preliminary questions concerning the qualification of a person to be a witness,
the existence of a privilege, or the admissibility of evidence shall be determined by the judge, subject to sub. (2)
and ss. 971.31(11) and 972.11(2). In making the determination the judge is bound by the rules of evidence only with
respect to privileges and as provided in s. 901.05.

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

Pet-App. 70

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

KeyCite Yellow Flag - Negative Treatment
Superseded by Statute as Stated in State v. Johnson, Wis.App., May 8, 2018

299 Wis.2d 267
Supreme Court of Wisconsin.

Affirmed in part; reversed in part; remanded.
Louis B. Butler, Jr., J., filed opinion concurring in part and
dissenting in part.

STATE of Wisconsin, Plaintiff–
Appellant–Cross–Respondent,
v.
Mark D. JENSEN, Defendant–
Respondent–Cross–Appellant.

Attorneys and Law Firms
**520 For the plaintiff-appellant-cross-respondent the
cause was argued by Marguerite M. Moeller, assistant
attorney general, with whom on the briefs was Peggy A.
Lautenschlager, attorney general.
For the defendant-respondent-cross-appellant there were
briefs by Craig W. Albee and Glynn, Fitzgerald, Albee &
Strang, S.C., Milwaukee, and oral argument by Craig W.
Albee.

No. 2004AP2481–CR.
|
Argued Jan. 11, 2006.
|
Decided Feb. 23, 2007.
Synopsis
Background: Defendant was charged with first-degree
intentional homicide. The Circuit Court, Kenosha County,
Bruce E. Schroeder, J., entered order excluding victim's letter
and voicemail messages to police, and denied defendant's
motion to exclude victim's statements to neighbor and son's
teacher.

Holdings: On petition to bypass the Court of Appeals in
which State appealed and defendant cross-appealed, the
Supreme Court, Jon P. Wilcox, J., held that:
statements in victim's letter she told neighbor to give to
police if anything happened to her were testimonial in nature,
overruling State v. Hemphill, 287 Wis.2d 600, 707 N.W.2d
313;
voicemail messages to police officer left by victim indicating
that defendant was trying to kill her were testimonial in
nature;
admission of victim's statements to neighbor and son's teacher
indicating that she thought defendant was trying to kill her
would not violate defendant's right of confrontation; and
defendant forfeited right of confrontation with respect to
testimonial statements by victim if defendant's wrongdoing
caused victim to be unavailable to testify.

Opinion
¶ 1 JON P. WILCOX, J.
*271 This case comes before us on a petition to bypass the
court of appeals pursuant to Wis. Stat. § (Rule) 809.60 (2005–
06). The State of Wisconsin appealed an order of the Kenosha
County Circuit Court, Bruce E. Schroeder, Judge, denying
the *272 admissibility of Julie Jensen's (Julie) letter to the
police and her voicemail message and other oral statements
to Officer Ron Kosman **521 (Kosman). The defendant,
Mark D. Jensen (Jensen), cross-appealed the same order of
the circuit court denying his motion to exclude statements
Julie made to her neighbor, Tadeusz Wojt (Wojt), and her son's
teacher, Theresa DeFazio (DeFazio).
¶ 2 We affirm the order of the circuit court as to its
initial rulings on the admissibility of the various statements
under Crawford v. Washington, 541 U.S. 36, 124 S.Ct.
1354, 158 L.Ed.2d 177 (2004). That is, the statements Julie
made to Kosman, including the letter, are “testimonial,”
while the statements Julie made to Wojt and DeFazio
are “nontestimonial.” However, we reverse the circuit
court's decision as to the applicability of the forfeiture by
wrongdoing doctrine. Today, we explicitly adopt this doctrine
whereby a defendant is deemed to have lost the right to object
on confrontation grounds to the admissibility of out-of-court
statements of a declarant whose unavailability the defendant
has caused. As such, the case must be remanded to the circuit
court for a determination of whether, by a preponderance

Pet-App. 71

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

of the evidence, Jensen caused Julie's unavailability, thereby
forfeiting his right to confrontation.

I
¶ 3 A criminal complaint charging Jensen with first-degree
intentional homicide in the December 3, 1998, poisoning
death of his wife was filed in Kenosha County on March 19,
2002.
¶ 4 At Jensen's preliminary hearing conducted on April
23, 2002, and May 8, 2002, before the Honorable Carl
M. Greco, Court Commissioner, the State *273 presented
testimony from several witnesses including Wojt, Kosman,
and Detective Paul Ratzburg (Ratzburg).
¶ 5 Wojt testified that just prior to Julie's death, she gave
him an envelope and told him that if anything happened to
her, Wojt should give the envelope to the police. Wojt also
stated that during the three weeks prior to Julie's death, she
was upset and scared, and she feared that Jensen was trying to
poison her or inject her with something because Jensen was
trying to get her to drink wine and she found syringes in a
drawer. Julie also allegedly told him that she did not think
she would make it through one particular weekend because
she had found suspicious notes written by her husband and
computer pages about poisoning.
¶ 6 Kosman testified that he received two voicemails
approximately two weeks prior to Julie's death. Julie told
Kosman in the second voicemail that she thought Jensen was
trying to kill her, and she asked him to call her back. Kosman
returned Julie's call and subsequently went to her home to
talk with her. Julie told Kosman that she saw strange writings
on Jensen's day planner, and she said Jensen was looking at
strange material on the Internet.1 Julie also informed Kosman
that she had photographed part of his day planner and gave
the pictures, along with a letter, to a neighbor (Wojt). Julie
then retrieved the picture, but not the letter from the neighbor,
and gave it to Kosman telling him if she were found dead,
that she did not commit suicide, and Jensen was her first
suspect. Kosman also testified that in August or September of
1998, Julie told *274 him it had become very “cold” in the
residence and that Jensen was not as affectionate as he used
to be. She claimed that when Jensen came home from work,
he would immediately go to the computer.

**522 ¶ 7 Finally, Ratzburg testified at the preliminary
hearing that on the day after Julie's death, he received a sealed
envelope from Wojt. The envelope contained a handwritten
letter,2 addressed to “Pleasant Prairie Police Department,
Ron Kosman or Detective Ratzenburg” and bearing Julie's
signature that read as follows:
I took this picture [and] am writing this on Saturday 11–
21–98 at 7AM. This “list” was in my husband's business
daily planner—not meant for me to see, I don't know what
it means, but if anything happens to me, he would be my
first suspect. Our relationship has deteriorated to the polite
superficial. I know he's never forgiven me for the brief
affair I had with that creep seven years ago. Mark lives for
work [and] the kids; he's an avid surfer of the Internet....
Anyway—I do not smoke or drink. My mother was an
alcoholic, so I limit my drinking to one or two a week.
Mark wants me to drink more—with him in the evenings.
I don't. I would never take my life because of my kids
—they are everything to me! I regularly take Tylenol
[and] multi-vitamins; occasionally take OTC stuff for
colds, Zantac, or Immodium; have one prescription for
migraine tablets, which Mark use[s] more than I.
I pray I'm wrong [and] nothing happens ... but I am
suspicious of Mark's suspicious behaviors [and] fear for
my early demise. However, I will not leave David [and]
Douglas. My life's greatest love, accomplishment and
wish: “My 3 D's”—Daddy (Mark), David [and] Douglas.
*275 ¶ 8 Following the preliminary hearing, Jensen was
bound over for trial, and an information charging Jensen
with first-degree intentional homicide was filed. Jensen
subsequently entered a plea of not guilty at his arraignment
on June 19, 2002.
¶ 9 Among the pretrial motions Jensen filed were motions
challenging the admissibility of the letter received by
Ratzburg and the oral statements Julie allegedly made to
Wojt and Kosman. Jensen also challenged the admissibility of
oral statements Julie purportedly made to her physician, Dr.
Richard Borman (Borman), and her son's teacher, DeFazio.3
These motions were extensively briefed and argued before
the court. The circuit court evaluated each of Julie's disputed
statements independently to determine its admissibility under
the hearsay rules and the then-governing test of Ohio v.
Roberts, 448 U.S. 56, 100 S.Ct. 2531, 65 L.Ed.2d 597 (1980).
The court ruled that most, but not all, of the statements were
admissible. Julie's entire in-person statements to Kosman

Pet-App. 72

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

**523 and the letter sent to Ratzburg were admitted in
their entirety. *276 The State conceded the voicemails were
inadmissible hearsay.
¶ 10 On May 24, 2004, Jensen moved for reconsideration
on the admissibility of Julie's statements in light of the
United States Supreme Court's ruling in Crawford, 541
U.S. 36, 124 S.Ct. 1354. After a hearing on the motion,
the circuit court orally announced its decision on June 7,
2004, and concluded that Julie's letter and voicemails were
testimonial and therefore inadmissible under Crawford. The
court rejected the State's argument that the statements were
admissible under the doctrine of forfeiture by wrongdoing.
The court also determined that Julie's statements to Wojt and
DeFazio were nontestimonial, and therefore, the statements
were not excluded. On August 4, 2004, the circuit court issued
a written order memorializing its oral rulings.
¶ 11 The State appealed the court's ruling with respect to
Julie's letter and her voicemail message to Kosman.4 Jensen
subsequently cross-appealed the ruling that the statements of
Wojt and DeFazio were not excluded. After the State and
Jensen had filed opening briefs in the court of appeals, the
State filed a petition to bypass, which Jensen did not oppose.
We granted the petition.

II
¶ 12 Reduced to their essence, the appeal and cross-appeal
concern the circuit court's determinations on the testimonial
or nontestimonial nature of various *277 statements of
Julie's that the State seeks to introduce.5 “ALTHOUGH A
CIRCUIT court's decision to admit evidence is ordinarily
a matter for the court's discretion, whether the admission
of evidence violates a defendant's right to confrontation is
a question of law subject to independent appellate review.”
State v. Williams, 2002 WI 58, 253 Wis.2d 99, ¶ 7, 644 N.W.2d
919 (citing State v. Ballos, 230 Wis.2d 495, 504, 602 N.W.2d
117 (Ct.App.1999)). For purposes of that review, the appellate
court must accept the circuit court's findings of fact unless
they are clearly erroneous. State v. Jackson, 216 Wis.2d 646,
575 N.W.2d 475 (1998).

III

¶ 13 “ ‘The Confrontation Clause of the United States and
Wisconsin Constitutions guarantee criminal defendants the
right to confront witnesses against them.’ ” State v. Manuel,
2005 WI 75, ¶ 36, 281 Wis.2d 554, 697 N.W.2d 811 (quoting
State v. Hale, 2005 WI 7, ¶ 43, 277 Wis.2d 593, 691 N.W.2d
637); U.S. Const. amend. VI;6 *278 Wis. Const. art. I, §
7.7 We generally apply **524 United States Supreme Court
precedents when interpreting these clauses. Hale, 277 Wis.2d
593, ¶ 43, 691 N.W.2d 637.
¶ 14 In 2004 the U.S. Supreme Court fundamentally changed
the Confrontation Clause analysis in Crawford, 541 U.S.
36, 124 S.Ct. 1354. Michael Crawford was charged and
convicted of assault and attempted murder for stabbing a man,
who allegedly tried to rape Crawford's wife, Sylvia. Id. at
38, 124 S.Ct. 1354. At trial, the State played for the jury
Sylvia's tape-recorded statement to the police describing the
stabbing. Id. Sylvia did not testify at trial due to Washington's
marital privilege; the privilege, however, did not extend
to a spouse's out-of-court statements admissible under a
hearsay exception. Id. at 40, 124 S.Ct. 1354. Crawford
contended that this procedure violated his rights under the
Confrontation Clause. Id. Relying on Roberts, the trial court
concluded that the admission of Sylvia's statement was
constitutionally permissible. Id. Under Roberts, when an
out-of-court declarant is unavailable, his or her statement
is admissible if it bears an adequate indicia of reliability,
which could be satisfied if the statement fell within a firmly
rooted hearsay exception or bore particularized guarantees of
trustworthiness. Roberts, 448 U.S. at 66, 100 S.Ct. 2531. The
circuit court admitted the statement on the latter ground, and
Crawford was convicted. Crawford, 541 U.S. at 40–41, 124
S.Ct. 1354. The Washington Court of Appeals reversed, and
the Washington Supreme Court then reinstated the conviction.
Id. at 41–42, 124 S.Ct. 1354.
¶ 15 On certiorari, the U.S. Supreme Court determined that
Crawford's constitutional right to confrontation was violated,
and his conviction was reversed. *279 Id. at 68–69, 124
S.Ct. 1354. Justice Scalia, writing for the majority, announced
a major shift in Confrontation Clause jurisprudence away
from the Roberts reliability standard:
Where testimonial statements are involved, we do not
think the Framers meant to leave the Sixth Amendment's
protection to the vagaries of the rules of evidence, much
less to amorphous notions of “reliability.” ... To be sure, the
Clause's ultimate goal is to ensure reliability of evidence,
but it is a procedural rather than a substantive guarantee. It

Pet-App. 73

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

commands, not that evidence be reliable, but that reliability
be assessed in a particular manner: by testing in the crucible
of cross-examination.
Id. at 61, 124 S.Ct. 1354. The Court determined that the
Confrontation Clause bars admission of an out-of-courttestimonial statement unless the declarant is unavailable and
the defendant has had a prior opportunity to examine the
declarant with respect to the statement. Id. at 68–69, 124
S.Ct. 1354. The Roberts test remains when nontestimonial
statements are at issue. See Manuel, 281 Wis.2d 554, ¶¶ 54–
55, 697 N.W.2d 811; Crawford, 541 U.S. at 68, 124 S.Ct.
1354.
¶ 16 The Court, unfortunately, did not spell out a
comprehensive definition of what “testimonial” means. What
we do know is that “[w]hatever else the term covers, it
applies at a minimum to prior testimony at a preliminary
hearing, before a grand jury, or at a former trial; and to
police interrogations.” Crawford, 541 U.S. at 68, 124 S.Ct.
1354. The Court also noted that “testimony” is typically a “
‘solemn declaration or affirmation made for the purpose of
establishing or proving some fact.’ ” Id. at 51, 124 S.Ct. 1354
(quoting An American Dictionary of the English Language
(1828)). “An accuser who makes a formal statement to
government officers bears testimony in a sense *280 **525
that a person who makes a casual remark to an acquaintance
does not.” Id.
¶ 17 The Court mentioned various formulations that had been
proposed to define the “core class of ‘testimonial’ statements”
but did not choose among these formulations. Id. at 51–
52, 124 S.Ct. 1354. In the Court's words, these formulations
“all share a common nucleus and then define the Clause's
coverage at various levels of abstraction around it.” Id. at 52,
124 S.Ct. 1354:
[E]x parte in-court testimony or its functional equivalent—
that is, material such as affidavits, custodial examinations,
prior testimony that the defendant was unable to crossexamine, or similar pretrial statements that declarants
would reasonably expect to be used prosecutorially.
....
[E]xtrajudicial statements ... contained in formalized
testimonial materials, such as affidavits, depositions, prior
testimony, or confessions.
....

[S]tatements that were made under circumstances which
would lead an objective witness reasonably to believe that
the statement would be available for use at a later trial.
Id. at 51–52, 124 S.Ct. 1354.
¶ 18 This court subsequently adopted all three of the
Crawford formulations, and reserved for another day whether
these formulations or perhaps a different formulation would
become the rule. Manuel, 281 Wis.2d 554, ¶ 39, 697
N.W.2d 811. Applying this third formulation in Manuel,
we concluded that a witness's statements to his girlfriend,
Anna Rhodes (Rhodes), were nontestimonial. *281 Derrick
Stamps (Stamps), the witness, told Rhodes that Manuel had
shot the victim. Id., ¶ 9. When Stamps was subsequently
taken into custody, Rhodes informed police that Manuel had
shot the victim. Id. At trial, the State sought to introduce the
statements Stamps made to Rhodes that incriminated Manuel.
However, Stamps refused to testify, so the State was forced
to admit the statements through the arresting officer. Id., ¶
13. Manuel argued this violated his right to confrontation. Id.,
¶ 35. We reasoned that statements “ ‘made to loved ones or
acquaintances ... are not the kind of memorialized, judicialprocess-created evidence of which Crawford speaks.’ ” Id.,
¶ 53 (quoting United States v. Manfre, 368 F.3d 832, 838
n. 1 (8th Cir.2004)). Moreover, we reasoned that Stamps'
girlfriend was not a government agent, and there was no
reason to believe that Stamps expected his girlfriend to report
to the police what he told her. Id. (citing People v. Cervantes,
118 Cal.App.4th 162, 12 Cal.Rptr.3d 774, 783 (2004)).
Because the conversation was private with no eye towards
litigation, we determined the statements were nontestimonial
and thus subject to Roberts to determine whether there was a
Confrontation Clause violation. Id., ¶¶ 53, 60.
¶ 19 In deciding subsequent cases involving the Confrontation
Clause, the U.S. Supreme Court retained its position from
Crawford that it would not define the term “nontestimonial”
beyond the three formulations of the classes of testimonial
statements. Davis v. Washington, 547 U.S. 813, ––––, 126
S.Ct. 2266, 2273, 165 L.Ed.2d 224 (2006)(also deciding
Hammon v. Indiana ). The Court did find it necessary to
slightly expand its previous discussion of what constitutes
testimonial statements to resolve the cases presented,
which involved police interrogations. It held as follows:
“Statements are nontestimonial when made in the course of
police interrogation under circumstances *282 objectively
indicating that the primary purpose of the interrogation is
to enable police **526 assistance to meet an ongoing
emergency.” Id. at 2273.

Pet-App. 74

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

¶ 20 In deciding this case, we are again left with the three
formations of testimonial statements from Crawford. Like
Manuel, only the third formulation listed above is applicable
to the statements at issue in this case, as there was no ex
parte in-court statements or extrajudicial statements made in
formalized testimonial materials. For the reasons that follow,
we hold that under the third Crawford formulation and the
facts and circumstances of this case, the circuit court properly
concluded, as a matter of law, that Julie's statements to the
police and the letter are testimonial and Julie's statements
to her neighbor, Wojt, and her son's teacher, DeFazio, are
nontestimonial.
¶ 21 Generally stated, the State argues that in determining
whether a statement was “made under circumstances which
would lead an objective witness reasonably to believe
that the statement would be available for use at a later
trial” what matters is the expectation of a reasonable
person in the declarant's position rather than the subjective
purpose of the particular declarant. The State further
contends that government involvement in creating a statement
is an indispensable feature of a testimonial statement.
Alternatively, Jensen's basic thrust is that testimonial
statements need not be elicited by the police, and accusatory
statements directed to the police are testimonial.
¶ 22 The parties' opposing positions represent the standard
schools of thought of Crawford's intended breadth and scope
of testimonial statements. See State v. Davis, 364 S.C. 364,
613 S.E.2d 760, 767–68 (App.2005). The narrow definition
championed by Professor Akhil Reed Amar suggests that
the Confrontation Clause *283 “ ‘encompasses only those
“witnesses” who testify either by taking the stand in person or
via government-prepared affidavits, deposition, videotapes,
and the like.’ ” Id. at 767 (quoting A. Amar, Confrontation
Clause First Principles: A Reply to Professor Friedman,
86 Geo. L.J. 1045 (1998)). Amar's focus is “what was the
common understanding of being a witness against someone
during the Founding Era[,]” and he contends that Crawford
is implicated only when the circumstances surrounding the
statement are formal. Id.
¶ 23 The broader definition is championed by Professor
Richard Friedman. Under this school of thought, “ ‘a
declarant should be deemed to be acting as a witness when
she makes a statement if she anticipates that the statement will
be used in the prosecution or investigation of a crime.’ ” Id.

(quoting Richard D. Friedman, Confrontation: The Search for
Basic Principles, 86 Geo. L.J. 1011, 1040–43 (1998)).
¶ 24 We note that there is support for the proposition that
the hallmark of testimonial statements is whether they are
made at the request or suggestion of the police. See State v.
Barnes, 854 A.2d 208, 211 (Me.2004). In our view, however,
the Sixth Circuit's decision in United States v. Cromer, 389
F.3d 662 (6th Cir.2004), aptly describes why such an inquiry
is insufficient under Crawford:
Indeed, the danger to a defendant might well be greater
if the statement introduced at trial, without a right
of confrontation, is a statement volunteered to police
rather than a statement elicited through formalized
police interrogation. One can imagine the temptation that
someone who bears a grudge might have to volunteer to
police, truthfully or not, information of the commission of
a crime, especially when that person is assured he will not
be subject to confrontation.... If *284 the judicial system
**527 only requires cross-examination when someone
has formally served as a witness against a defendant, then
witnesses and those who deal with them will have every
incentive to ensure that testimony is given informally. The
proper inquiry, then, is whether the declarant intends to bear
testimony against the accused. That intent, in turn, may be
determined by querying whether a reasonable person in the
declarant's position would anticipate his statement being
used against the accused in investigating and prosecuting
the crime.
Id. at 675. Thus, we believe a broad definition of testimonial
is required to guarantee that the right to confrontation is
preserved. That is, we do not agree with the State's position
that the government needs to be involved in the creation of the
statement.8 We believe such a narrow definition of testimonial
could create situations where a declarant could nefariously
incriminate a defendant.
*285 ¶ 25 The State cites to United States v. Summers,
414 F.3d 1287 (10th Cir.2005), for its contention that the
subjective purpose of the declarant is not important to the
analysis. However, this is not a correct interpretation of
the Summers decision. The Tenth Circuit concluded that
“the ‘common nucleus' present in the formulations which
the Court considered centers on the reasonable expectations
of the declarant.” Id. at 1302 (emphasis added) (citation
omitted). The Tenth Circuit rejected the narrow approach
argued in this case by the State, and held that “an objective test
focusing on the reasonable expectations of the declarant under

Pet-App. 75

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

the circumstances of the case more adequately safeguards
the accused's confrontation right and more closely reflects
the concerns underpinning the Sixth Amendment.” Id. (citing
Confrontation: The Search for Basic Principles, supra, at
1040–43). In other words, “a statement is testimonial if a
reasonable person in the position of the declarant would
objectively foresee that his statement might be used in the
investigation or prosecution of a crime.” Id.9
¶ 26 With these considerations in mind, we turn to the
facts and circumstances of this case. We begin first with
the statements Julie made in her letter. The circuit court
concluded that the letter was testimonial as it had no apparent
purpose other than to “bear testimony” and Julie intended
it exclusively for accusatory and prosecutorial purposes.
Furthermore, the circuit court stated, “I can't imagine **528
any other purpose in *286 sending a letter to the police that
is to be opened only in the event of her death other than
to make an accusatory statement given the contents of this
particular letter.” Indeed, the letter even referred to Jensen as
a “ suspect.”
¶ 27 In light of the standard set out above, we conclude
that under the circumstances, a reasonable person in Julie's
position would anticipate a letter addressed to the police and
accusing another of murder would be available for use at
a later trial. The content and the circumstances surrounding
the letter make it very clear that Julie intended the letter to
be used to further investigate or aid in prosecution in the
event of her death. Rather than being addressed to a casual
acquaintance or friend, the letter was purposely directed
toward law enforcement agents. The letter also describes
Jensen's alleged activities and conduct in a way that clearly
implicates Jensen if “anything happens” to her.
¶ 28 Furthermore, the State insists that the letter is
nontestimonial because it was created before any crime had
been committed so there was no expectation that the letter
would potentially be available for use at a later trial. However,
under the standard we adopt here it does not matter if a crime
has already been committed or not. The focus of the inquiry is
whether a “reasonable person in the position of the declarant
would objectively foresee that his statement might be used in
the investigation or prosecution of a crime.” Id. We conclude
that the letter clearly fits within this rubric.
¶ 29 Perhaps most tellingly, Julie's letter also resembles Lord
Cobham's letter implicating Sir Walter Raleigh of treason
as discussed in Crawford, 541 U.S. at 44, 124 S.Ct. 1354.

At Raleigh's trial, a prior examination and letter of Cobham
implicating Raleigh in treason were read to the *287 jury.
Id. Raleigh demanded that Cobham be called to appear, but
he was refused. Id. The jury ultimately convicted Raleigh and
sentenced him to death. Id. In the Supreme Court's view, it
was these types of practices that the Confrontation Clause
sought to eliminate. Id. at 50, 124 S.Ct. 1354. While Julie's
letter is not of a formal nature as Cobham's letter was, it
still is testimonial in nature as it clearly implicates Jensen
in her murder. If we were to conclude that her letter was
nontestimonial, we would be allowing accusers the right to
make statements clearly intended for prosecutorial purposes
without ever having to worry about being cross-examined or
confronted by the accused. We firmly believe Crawford and
the Confrontation Clause do not support such a result.
¶ 30 For many of the same reasons, we also determine
that the voicemails to Kosman are testimonial.10 The crux
of Julie's message was that Jensen had been acting strangely
and leaving himself notes Julie had photographed and that
she wanted to speak with Kosman in person because she was
afraid Jensen was recording her phone conversations. Again,
the circuit court determined that these statements served no
other purpose than to bear testimony and were entirely for
accusatory and prosecutorial purposes. Furthermore, Julie's
voicemail was not made for emergency purposes or to
escape from a perceived danger. She instead sought to relay
information in order to further the investigation of Jensen's
activities. This distinction *288 convinces us that the
voicemails **529 are testimonial. See Pitts v. State, 280 Ga.
288, 627 S.E.2d 17, 19 (2006) (“Where the primary purpose
of the telephone call is to establish evidentiary facts, so that
an objective person would recognize that the statement would
be used in a future prosecution, then that phone call ‘bears
testimony’ against the accused and implicates the concerns of
the Confrontation Clause.”).
¶ 31 Finally, we consider the statements Julie made to Wojt
and DeFazio. Jensen argues that if the circumstances reveal
that the declarant believed her statements to nongovernmental
actors would be passed on to law enforcement officials,
those statements are testimonial. While we reiterate that
governmental involvement is not a necessary condition
for testimonial statements, we conclude that under the
circumstances of this case, Julie's statements to Wojt
and DeFazio were nontestimonial. Essentially, we are not
convinced that statements to a neighbor and a child's
teacher, unlike the letter and voicemails—which were directly
intended for the police—were made under circumstances

Pet-App. 76

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

which would lead a reasonable person in the declarant's
position to conclude these statements would be available for
later use at a trial.
¶ 32 Our decision in Manuel, 281 Wis.2d 554, 697 N.W.2d
811, guides us to this conclusion. In Manuel, we determined
that statements made to loved ones or acquaintances are
not the memorialized type of statements that Crawford
addressed. Id., ¶ 53. Moreover, we determined that the
witness's girlfriend was not a governmental agent, and there
was no reason to believe the declarant expected his girlfriend
to report to the police what he told her. Id. Here, Julie
confided in Wojt and DeFazio about the declining situation
in the Jensen household *289 and her statements are wholly
consistent with the statements of a person in fear for her
life. As one court put it, “when a declarant speaks with her
neighbor across the backyard fence, she has much less of an
expectation that the government will make prosecutorial use
of those statements.” State v. Mizenko, 330 Mont. 299, 127
P.3d 458 (2006); see also Compan v. People, 121 P.3d 876,
880–81 (Colo. 2005) (holding that victim's statement to an
acquaintance made after an assault were nontestimonial).
¶ 33 In essence, we conclude that Julie's statements were
informally made to her neighbor and her son's teacher and not
under circumstances which would lead an objective witness
to reasonably conclude they would be available at a later trial,
and as such are nontestimonial. See Crawford, 541 U.S. at 51,
124 S.Ct. 1354 (“An accuser who makes a formal statement to
government officers bears testimony in a sense that a person

wife. For support of this argument, the State contends we look
no further than Crawford.
¶ 36 As discussed in Crawford, the right of confrontation
is “most naturally read as a reference to the right
of confrontation at common law, admitting only those
exceptions established at the time of the founding. As the
English authorities [ ] reveal, the common law in 1791
conditioned admissibility of an absent witness's examination
on unavailability and a prior opportunity to cross-examine.”
Crawford, 541 U.S. at 54, 124 S.Ct. 1354. The Court
recognized that there may have been some exceptions to the
general rule of exclusion of hearsay evidence, but “there
is scant evidence that exceptions were invoked to admit
testimonial statements against the accused in a criminal case.”
Id. at 56, 124 S.Ct. 1354. Here, the Court noted that one such
deviation was for dying declarations; however, Crawford did
not decide whether the Sixth Amendment incorporated such
an exception for testimonial dying declarations. Instead, the
Court stated that “[i]f this exception must be accepted on
historical grounds, it is sui generis.” Id. at 56 n. 6, 124 S.Ct.
1354.
¶ 37 After this discussion of historical exceptions to the
Confrontation Clause, the Court turned its focus to the
abrogation of the Roberts analysis to testimonial statements.
In this discussion, the Court made the following statement:

IV

The Roberts test allows a jury to hear evidence, untested
by the adversary process, based on a mere *291
judicial determination of reliability. It thus replaces the
constitutionally prescribed method of assessing reliability
with a wholly foreign one. In this respect, it is very different
from exceptions to the Confrontation Clause that make no
claim to be a surrogate means of assessing reliability. For
example, the rule of forfeiture by wrongdoing (which we
accept) extinguishes confrontation claims on essentially
equitable grounds; it does not purport to be an alternative
means of determining reliability. See Reynolds v. United
States, 98 U.S. 145, 158–59 [25 L.Ed. 244] (187[8] ).
Id. at 62, 124 S.Ct. 1354.

¶ 35 Essentially, the forfeiture by wrongdoing doctrine states
that an accused can have no complaint based on the right
to confrontation about the use *290 against him or her
of a declarant's statement if it was the accused's wrongful
conduct **530 that prevented any cross-examination of the
declarant. In this case, the State argues that Julie's statements,
even if testimonial, should be admitted if the State can prove,
by a preponderance of the evidence, that Jensen murdered his

¶ 38 Reynolds was one of the first federal decisions to
elaborate on the forfeiture by wrongdoing doctrine. In
Reynolds, the defendant, George Reynolds, claimed that his
right to confront a witness was violated when the lower court
admitted into evidence testimony that was given at a former
trial for the same offense with the same parties but under
another indictment. Reynolds, 98 U.S. at 153. The witness,
who was the alleged second wife of the accused, testified

who makes a casual remark to an acquaintance does not.”).11
¶ 34 In sum, under Crawford, we conclude that Julie's letter
and voicemail messages are testimonial, while her statements
to Wojt and DeFazio are nontestimonial. We now turn to a
discussion of the State's argument regarding the forfeiture by
wrongdoing doctrine.

Pet-App. 77

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

at a former trial against Reynolds. Id. at 160. At the former
trial, the accused was present during her testimony and given
the full opportunity to cross-examine the witness. Id. at 161.
Prior to and after the commencement of the second trial, an
officer attempted to deliver a subpoena to the witness but
was unsuccessful on three separate occasions. Id. at 159–60.
The trial court subsequently ruled that the witness's previous
testimony could be admitted at trial because Reynolds did not
refute that he had been instrumental in concealing or keeping
the witness away. Id. at 160.
¶ 39 The Reynolds Court began its analysis with the
following:
*292 The Constitution gives the accused the right to a
trial at which he should be confronted with the witnesses
against **531 him; but if a witness is absent by his own
wrongful procurement, he cannot complain if competent
evidence is admitted to supply the place of that which
he has kept away. The Constitution does not guarantee
an accused person against the legitimate consequences
of his own wrongful acts. It grants him the privilege of
being confronted with the witnesses against him; but if he
voluntarily keeps the witnesses away, he cannot insist on
his privilege. If, therefore, when absent by his procurement,
their evidence is supplied in some lawful way, he is in no
condition to assert that his constitutional rights have been
violated.
Id. at 158. In other words, while the Constitution does grant
a privilege of confronting ones accusers, that privilege is lost
if the accused causes the witness's unavailability at trial.
¶ 40 Since the Reynolds decision, the Court has continued to
acknowledge the concept that a defendant can forfeit through
misconduct his or her confrontation rights.12 See, e.g., Diaz v.
United States, 223 U.S. 442, 451–53, 32 S.Ct. 250, 56 L.Ed.
500 (1912) (holding that a defendant waives13 right *293 to
object to a hearsay statement on confrontation grounds when
he or she offers the statement); Snyder v. Massachusetts, 291
U.S. 97, 106, 54 S.Ct. 330, 78 L.Ed. 674 (1934) overruled
by Malloy v. Hogan, 378 U.S. 1, 84 S.Ct. 1489, 12 L.Ed.2d
653 (1964) (holding that defendant was permissibly excluded
from going to view the scene of the crime as part of his trial.
In dicta, Justice Cardozo stated that, “ [n]o doubt the privilege
[afforded by the Sixth Amendment] may be lost by consent or
at times even by misconduct”); and Illinois v. Allen, 397 U.S.
337, 343, 90 S.Ct. 1057, 25 L.Ed.2d 353 (1970) (holding that
a defendant can lose his right to be present at trial, if after a
warning by the judge, he continues his disruptive behavior).

¶ 41 The Eighth Circuit appears to be the first federal court
to apply the forfeiture doctrine to a situation where the
defendant had no prior opportunity to cross-examine the
witness. See United States v. Carlson, 547 F.2d 1346 (8th
Cir.1976), cert. denied, 431 U.S. 914, 97 S.Ct. 2174, 53
L.Ed.2d 224 (1977). Carlson held that the defendant waived
his right to confrontation when he intimidated a witness into
not testifying at trial; therefore the admission of the witness's
prior grand jury testimony was permissible. Id. at 1360.
**532 ¶ 42 The Carlson court first noted that “[t]he Sixth
Amendment does not stand as a shield to protect the accused
from his own misconduct or chicanery.” *294 Id. at 1359
(citing Diaz, 223 U.S. at 458, 32 S.Ct. 250; Reynolds, 98
U.S. at 159). The court acknowledged the distinction between
its case and Reynolds, in that Reynolds was afforded the
opportunity to cross-examine the witness at the time the
former testimony was recorded. Id. at 1359 n. 12. Carlson,
however, was never afforded such an opportunity. Id. In the
Eighth Circuit's view, “[t]o that extent, this case presents a
more difficult question than Reynolds. However, by focusing
on the defendant's conduct ... there is a similarity and we are
guided by the precept articulated in Reynolds that ‘no one
shall be permitted to take advantage of his own wrong.’ ”
Id. (quoting Reynolds, 98 U.S. at 159). Ultimately, the court
believed that permitting the defendant to “ profit from such
conduct would be contrary to public policy, common sense
and the underlying purpose of the confrontation clause.” Id.
at 1359. However, the court did not go so far as to say that
all extrajudicial statements may be admitted. Id. at 1360 n.
14. Earlier in its opinion, the Eighth Circuit concluded that
the witness's grand jury testimony was admissible hearsay
pursuant to the residual exception of the Federal Rules
of Evidence. Id. at 1353–55. In other words, the court
determined that Carlson's right to confrontation was forfeited
by misconduct and the disputed statement was admissible
under the residual hearsay exception.
¶ 43 Subsequent to Carlson and a host of other cases
from various federal and state jurisdictions, the forfeiture by
wrongdoing doctrine was codified in 1997 in the Federal
Rules of Evidence as a hearsay exception. Fed.R.Evid. 804(b)
(6). This rule reads as follows:
Rule 804. Hearsay Exceptions; Declarant Unavailable
....

Pet-App. 78

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

*295 (b) Hearsay exceptions. The following are not
excluded by the hearsay rule if the declarant is unavailable
as a witness:
....
(6) Forfeiture by wrongdoing. A statement offered against
a party that has engaged or acquiesced in wrongdoing that
was intended to, and did, procure the unavailability of the
decedent as a witness.
Fed.R.Evid. 804(b)(6). The Advisory Committee on Rules
enacted such a rule because it believed there was a need
for “a prophylactic rule to deal with abhorrent behavior
‘which strikes at the heart of the system of justice itself.’ ”
Notes of Advisory Committee on Rules—1997 Amendments
to Federal Rules of Evidence (quoting United States v.
Mastrangelo, 693 F.2d 269, 273 (2d Cir.1982), cert. denied,
467 U.S. 1204, 104 S.Ct. 2385, 81 L.Ed.2d 343 (1984)).
Furthermore, the Committee recognized that “[e]very circuit
that has resolved the question has recognized the principle of
forfeiture by misconduct, although the tests for determining
whether there is forfeiture have varied.” Id. (list of cited cases
omitted).
¶ 44 One notable example of a post-Fed. R. Evid. 804(b)
(6) decision is United States v. Emery, 186 F.3d 921 (8th
Cir.1999). In Emery, the court concluded that the defendant
forfeited his right to confrontation under Carlson, 547 F.2d
1346, and further he forfeited his right to object on hearsay
grounds under Fed.R.Evid. 804(b)(6). Emery asserted that the
admission of hearsay statements of a federal informant he was
charged with murdering violated his right to confrontation.
Id. at 926. Emery argued that the principles of the forfeiture
by wrongdoing doctrine as stated in Fed.R.Evid. 804(b)(6)
“should apply **533 only in a trial on the underlying
crimes about which he feared [the informant] would *296
testify, not in a trial for murdering her.” Id. The Emery court
concluded the following:
We believe that both the plain meaning of Fed.R.Evid.
804(b)(6) and the manifest object of the principles just
outlined mandate a different result. The rule contains no
limitation on the subject matter of the statements that it
exempts from the prohibition on hearsay evidence. Instead,
it establishes the general proposition that a defendant may
not benefit from his or her wrongful prevention of future
testimony from a witness or potential witness. Accepting
Mr. Emery's position would allow him to do just that.

Id. Thus, the court held that Emery forfeited his right to object
on both confrontation and hearsay grounds.
¶ 45 Since the release of Crawford, many jurisdictions have
either adopted the forfeiture by wrongdoing doctrine if they
had not done so before, or they have expanded the doctrine
to encompass more testimonial statements. For example,
in State v. Meeks, 277 Kan. 609, 88 P.3d 789 (2004), the
defendant, Meeks, shot Green during a fight in the street.
Id. at 791. The first officer on the scene asked Green who
shot him, and he responded, “Meeks shot me.” Id. at 792.
This statement was later admitted at trial, and after Meeks
was convicted, he argued on appeal his right to confrontation
had been violated when the trial court admitted the statement
because the statement lacked adequate indicia of reliability.
Id. at 792–93.
¶ 46 The Kansas Supreme Court, citing to Reynolds, held
that a defendant forfeits his right to confrontation, and waives
any hearsay objections if the witness's absence was due to
the defendant's wrongdoing. Id. at 794. The Meeks court
fully recognized that the underlying crime and the crime
by which Meeks rendered the witness unavailable were the
same, but *297 the court concluded this was immaterial
to the analysis. For support, Meeks quoted an amicus brief
of Crawford authored by a number of law professors and
ultimately concluded the following:
“If the trial court determines as a threshold matter that the
reason the victim cannot testify at trial is that the accused
murdered her, then the accused should be deemed to have
forfeited the confrontation right, even though the act with
which the accused is charged is the same as the one by
which he allegedly rendered the witness unavailable.”
Id. at 794 (citing Richard D. Friedman, Confrontation and
the Definition of Chutzpa, 31 Israel L.Rev. 506 (1997)
[hereinafter Chutzpa ] ).
¶ 47 Indeed, Professor Friedman, a renowned expert on
Confrontation Clause law, was one of the first to argue
for a broad forfeiture by wrongdoing doctrine. In Chutzpa,
Professor Friedman argued that identity between the victim
and the declarant should not have any bearing on whether to
apply what he phrased as the “reflexive forfeiture principle.”
Chutzpa, supra, at 521.
I do not believe [ ] that this identity presents a reason not
to apply the forfeiture principle. The identity should not
distract us from the importance of deciding the evidentiary
predicate. If the predicate is true, then ... the defendant's

Pet-App. 79

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

inability to confront the declarant is attributable to his own
misconduct. And if that is true, the defendant should not be
able to keep the declarant's statement out of evidence by a
claim of the confrontation right. A court should not decline
to decide the predicate question, for evidentiary purposes,
simply because the same question must also be decided
**534 in making the bottom-line determination of guilt.
Id. at 522.
*298 ¶ 48 After Crawford was released, Friedman again
reiterated his view on the forfeiture by wrongdoing doctrine in
an article exploring the meaning of “testimonial” statements.
See Richard D. Friedman, Grappling with the Meaning of
“Testimonial”, 71 Brook. L.Rev. 241 (2005). In discussing
whether a crime has to already have been committed in order
for a statement to be considered testimonial, Friedman gave
the following example: “ Not necessarily: here I have in mind
the cases in which an eventual murder victim, fearing her
assailant, tells a confidante information to be used in the
event that he does in fact assault her and render her unable
to testify.... Again, forfeiture is probable in this situation.” Id.
at 250 n. 27.
¶ 49 Other post-Crawford decisions also aid our analysis.14
One of the most persuasive for our purposes is United States
v. Garcia–Meza, 403 F.3d 364 (6th Cir.2005). In that case,
Garcia–Meza was on trial for the first-degree murder of his
wife, Kathleen. Id. at 367. Five months prior to her murder,
Garcia–Meza had assaulted Kathleen, and the district court
permitted the government to introduce testimony from the
investigating officers about what Kathleen told them. Id. at
369. After his conviction, Garcia–Meza argued that admission
of this evidence violated his Confrontation Clause rights. Id.
*299 ¶ 50 Without deciding whether Kathleen's statements
were testimonial or not, the Sixth Circuit determined
that Garcia–Meza had forfeited his right to confront
Kathleen because his wrongdoing was responsible for her
unavailability. Id. at 370 (citing Crawford, 541 U.S. 36, 124
S.Ct. 1354; Reynolds, 98 U.S. 145, 25 L.Ed. 244). After
noting that it was undisputed that Garcia–Meza killed his
wife,15 the Sixth Circuit dispelled the notion that in order for
the forfeiture by wrongdoing doctrine to apply, Garcia–Meza
had to commit the murder with the specific intent to prevent
her from testifying:
There is no requirement that a defendant who prevents
a witness from testifying against him through his own

wrongdoing only forfeits his right to confront the witness
where, in procuring the witness's unavailability, he
intended to prevent the witness from testifying. Though the
Federal Rules of Evidence may contain such a requirement,
the right secured by the Sixth Amendment does not
depend on, in the recent words of the Supreme Court,
“the vagaries of the Rules of Evidence.” The Supreme
Court's recent affirmation of the “essentially equitable
grounds” for the rule of forfeiture strongly suggests that
the rule's applicability does not hinge on the wrongdoer's
motive. The Defendant, regardless of whether he intended
to prevent the witness from testifying against him or not,
would benefit through his own wrongdoing if such a
witness's statements could not be used against him, which
the rule of forfeiture, **535 based on principles of equity,
does not permit.
Id. at 370–71 (internal citations omitted).
*300 ¶ 51 The general timeline of events in Garcia–
Meza and this case are substantially similar. Specifically,
in Garcia–Meza the events of the case played out as
follows: (1) the declarant gave a statement; (2) the defendant
commits a crime rendering the declarant unavailable; (3)
the defendant is charged with the declarant's death; and
(4) the government seeks to introduce the declarant's prior
statement. The difference between these cases is that there
was no dispute in Garcia–Meza that the defendant was
responsible for the declarant's unavailability. However, we
do not believe that this distinction means the forfeiture
by wrongdoing doctrine cannot apply. If the circuit court
determines, in a pre-trial decision by the court, that Jensen
caused his wife's unavailability, then the forfeiture by
wrongdoing doctrine applies to Jensen's confrontation rights,
and otherwise testimonial evidence may be admitted.
¶ 52 In essence, we believe that in a post-Crawford
world the broad view of forfeiture by wrongdoing espoused
by Friedman and utilized by various jurisdictions since
Crawford's release is essential. In other words, after “[n]oting
the broad embrace of the doctrine” by courts nationwide and
“recognizing the compelling public policy interests behind its
enactment,” Commonwealth v. Edwards, 444 Mass. 526, 830
N.E.2d 158, 165 (2005), we elect to adopt the forfeiture by
wrongdoing doctrine in Wisconsin.

V
¶ 53 Having concluded the forfeiture by wrongdoing doctrine
is appropriate in Confrontation Clause cases, we now analyze

Pet-App. 80

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

the appropriate standard of review for the circuit court to
apply on remand.
*301 ¶ 54 As Justice Prosser noted in his concurrence
in Hale, most jurisdictions require proof of the defendant's
wrongdoing by a preponderance of the evidence. Hale, 277
Wis.2d 593, ¶ 96, 691 N.W.2d 637 (Prosser, J., concurring)
(citing Emery, 186 F.3d at 927; United States v. White, 116
F.3d 903, 912 (D.C.Cir.1997); United States v. Houlihan,
92 F.3d 1271, 1280 (1st Cir.1996); Steele v. Taylor, 684
F.2d 1193, 1201 (6th Cir.1982); United States v. Rivera,
292 F.Supp.2d 827, 831 (E.D.Va.2003); State v. Hallum, 606
N.W.2d 351, 355–56 (Iowa 2000)). See also Edwards, 830
N.E.2d at 172 nn. 24, 25 (collecting cases). A few courts,
however, use the “clear and convincing evidence” standard of
proof. Hale, 277 Wis.2d 593, ¶ 96, 691 N.W.2d 637 (citing
United States v. Thevis, 665 F.2d 616, 631 (5th Cir.1982);
People v. Giles, 19 Cal.Rptr.3d 843, 848 (Cal.Ct.App.2004)).
¶ 55 Citing to Professor Friedman's view, Jensen argues that
“given the importance of the confrontation right, the court
should not hold that the accused has forfeited it unless the
court is persuaded to a rather high degree of probability
that the accused has rendered the declarant unavailable.”
Chutzpa, supra, at 519. In other words, Jensen argues that
given the seriousness of the charges against him and given the
presumption that he is innocent until proven guilty, a higher
standard of clear and convincing evidence should be used.
¶ 56 As noted by one court, “[r]equiring the court to decide
by a preponderance of the evidence the very question for
which the defendant is on trial may seem, at first glance,
troublesome.” United States v. Mayhew, 380 F.Supp.2d 961,
967 (S.D.Ohio 2005). For the following reasons, however,
the Mayhew court, like the jurisdictions cited in the Hale
concurrence, concluded that equitable considerations **536
demand such a result. The court based its conclusion on the
“equitable principles *302 outlined in Crawford, the jury's
ignorance of the court's threshold evidentiary determination,
and the analogous evidentiary paradigm of conspiracy.” Id. at
968. On this last point, Mayhew aptly describes the similarity
between conspiracy and the application of the forfeiture by
wrongdoing doctrine and why the idea of “bootstrapping”
should not be worrisome to us:
For example, statements offered against a defendant
to prove his participation in a charged conspiracy are
admissible if the court first finds, by a preponderance of
the evidence, that the conspiracy for which defendant is
on trial existed. Bourjaily v. United States, 483 U.S. 171,

175–76 [107 S.Ct. 2775, 97 L.Ed.2d 144] (1987).... The
same principle applies to the forfeiture doctrine when the
court makes a preliminary determination as to whether the
defendant committed the crime for which he is [ ] charged.
See Emery, 186 F.3d at 926 (basing its approach to the
forfeiture doctrine on the co-conspirator cases, noting “the
functional similarity of the questions involved ....”); see
also White, 116 F.3d at 912 (“[T]he forfeiture finding is the
functional equivalent of the predicate factual finding that
a court must make before admitting hearsay under the coconspirator exception.”).
Id. We agree with the reasoning of Mayhew, and the multitude
of other jurisdictions and adopt a preponderance of the
evidence standard.16
¶ 57 In short, we adopt a broad forfeiture by wrongdoing
doctrine, and conclude that if the State can *303 prove by
a preponderance of the evidence that the accused caused the
absence of the witness, the forfeiture by wrongdoing doctrine
will apply to the confrontation rights of the defendant.

VI
¶ 58 To conclude, we affirm the order of the circuit court
as to its initial rulings on the admissibility of the various
statements under Crawford, 541 U.S. 36, 124 S.Ct. 1354. That
is, the statements Julie made to Kosman, including the letter,
are testimonial, while the statements Julie made to Wojt and
DeFazio are nontestimonial. However, we reverse the circuit
court's decision as to the applicability of the forfeiture by
wrongdoing doctrine. Today, we explicitly adopt this doctrine
whereby a defendant is deemed to have lost the right to object
on confrontation grounds to the admissibility of out-of-court
statements of a declarant whose unavailability the defendant
has caused. As such, the cause must be remanded to the circuit
court for a determination of whether, by a preponderance
of the evidence, Jensen caused Julie's unavailability, thereby
forfeiting his right to confrontation.
The order of the circuit court is affirmed in part; reversed in
part; and the cause is remanded.

¶ 59 LOUIS B. BUTLER, JR., J. (concurring in part,
dissenting in part).
The Confrontation Clause of the Sixth Amendment to
the United States Constitution provides: “In all criminal

Pet-App. 81

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

prosecutions, the accused shall enjoy the right ... to be
confronted with the witnesses against him ” (emphasis
added). *304 **537 Article I, section 7 of the Wisconsin
Constitution similarly provides: “In all criminal prosecutions
the accused shall enjoy the right ... to meet the witnesses
face to face” (emphasis added).1 THE OPERATIVE WORD
in each of these constitutional provisions is the word
“all”. Neither provision creates a homicide exception to
the constitutional guarantee of confrontation. Yet, the
majority's misconception of the doctrine of forfeiture by
wrongdoing does precisely that, defeating the confrontation
guarantee contained within the state and federal constitutions.
Moreover, the majority fails to properly apply the recent
decision of Davis v. Washington, 547 U.S. 813, 126 S.Ct.
2266, 165 L.Ed.2d 224 (2006), in ascertaining whether
statements made to certain witnesses in this case are
testimonial or nontestimonial. Accordingly, I respectfully
concur in part, and dissent in part.

I
¶ 60 At issue in this case are numerous statements made by
the homicide victim, Julie Jensen (Julie), to her neighbor,
Tadeusz Wojt (Wojt), police officer Ron Kosman (Kosman),
her physician, Dr. Richard Borman (Borman), and her son's
teacher, Theresa DeFazio (DeFazio), as well as a letter she
wrote to Detective Paul Ratzburg (Ratzburg). The circuit
court on September 4, 2003, reviewed over 100 statements
made by Julie and evaluated the reliability of these statements
using the balancing test established in Ohio v. Roberts, 448
U.S. 56, 100 S.Ct. 2531, 65 L.Ed.2d 597 (1980). The court
ruled that parts of many of her statements were not excluded,
while other parts were excluded. The court also reserved its
ruling with respect to some of the statements *305 until
the trial, and reserved the right to reverse itself based on
how the evidence was offered at trial. In addition, Julie's inperson statements to Kosman and her letter to Ratzburg were
admitted in their entirety.
¶ 61 Mark Jensen (Jensen), the defendant, moved for
reconsideration on the admissibility of Julie's statements in
light of the United States Supreme Court ruling in Crawford
v. Washington, 541 U.S. 36, 124 S.Ct. 1354, 158 L.Ed.2d 177
(2004). After a hearing, the circuit court concluded that Julie's
letter to Ratzburg and voicemail messages to Kosman were
testimonial and therefore inadmissible under Crawford. The
circuit court also determined that Julie's statements to Wojt
and DeFazio were nontestimonial, and, therefore, the court's

prior rulings on the admissibility of such statements remained
in effect.
¶ 62 The majority concludes that the statements that Julie
Jensen made to Kosman prior to her death and the statements
made by her in her letter to Ratzburg constitute testimonial
evidence, while the statements she made to Wojt and DeFazio
constitute nontestimonial evidence.2 Majority op., ¶ 2. The
majority concludes that the court's initial determination to
admit the nontestimonial evidence was proper. Majority
op., ¶ 58. As to the testimonial evidence, however, the
majority adopts a broad forfeiture by wrongdoing doctrine
and remands the case to the circuit court **538 to determine
whether the State can prove, by a preponderance of the
evidence, that Mr. Jensen caused the unavailability of his
wife. Id.
*306 ¶ 63 I disagree that all of the statements made by
Julie to Wojt and to DeFazio are nontestimonial. I do agree
with the majority that this court should adopt the doctrine of
forfeiture by wrongdoing, and that, under a proper application
of the doctrine, the burden be placed upon the State to
establish the doctrine's applicability by a preponderance of
the evidence. Because I conclude, contrary to the majority,
that the forfeiture doctrine should be applied (1) where the
defendant caused the absence of the witness and (2) did so
for the purpose of preventing the witness from testifying, I
respectfully dissent in part.

II
¶ 64 As noted previously, under the Sixth Amendment to the
United States Constitution, “[i]n all criminal prosecutions, the
accused shall enjoy the right ... to be confronted with the
witnesses against him [or her].” In order to properly interpret
this right of confrontation, we must understand the original
intent of the Framers in adopting the Sixth Amendment.
¶ 65 In Crawford, the United States Supreme Court examined
the historical background that culminated in the creation of
this Sixth Amendment right of confrontation. Crawford, 541
U.S. at 43, 124 S.Ct. 1354. The founding fathers' immediate
source of the Confrontation Clause was English common law.
Id. That common law tradition is one of live testimony in court
subject to adversarial testing. Id.
¶ 66 The Court explained that in the 16th and 17th centuries,
witnesses' statements against an accused could be read to the

Pet-App. 82

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

jury, and the accused was offered no opportunity to crossexamine his or her accuser. In reaction to some of these cases,
“English law *307 developed a right of confrontation that
limited these abuses.” Id. at 44, 124 S.Ct. 1354. First, courts
developed relatively strict rules of unavailability. Id. at 44–
45, 124 S.Ct. 1354. Second, “[o]ne recurring question was
whether the admissibility of an unavailable witness's pretrial
examination depended on whether the defendant had had
an opportunity to cross-examine him.” Id. at 45, 124 S.Ct.
1354. For example, in 1696 the Court of King's Bench ruled
that “even though a witness was dead, his examination was
not admissible where ‘the defendant not being present when
[it was] taken before the mayor ... had lost the benefit of
a cross-examination.’ ” Id. (quoting King v. Paine, 5 Mod.
163, 165, 87 Eng. Rep. 584, 585 (1696)). By the mid–1700s,
the right of an accused to confront any witness against the
accused was firmly rooted in English common law, and the
right of confrontation was included in declarations of rights
adopted by at least eight of the original colonies. Id. at 48,
124 S.Ct. 1354. This right was ultimately included in the
Sixth Amendment to the United States Constitution. Id. at
48–49, 124 S.Ct. 1354. Indeed, several American authorities
flatly rejected any special status that would allow for the
admissibility of statements made to a coroner absent crossexamination. Id. at 47 n. 2, 124 S.Ct. 1354.
¶ 67 The Crawford court also reviewed the first judicial
interpretations of the Confrontation Clause because these
cases “shed light upon the original understanding of the
common-law rule.” Id. at 49, 124 S.Ct. 1354. For example,
the court in State v. Webb concluded “that depositions could
be read against an accused only if they were taken in [the
defendant's] presence.” Id. (citing State v. Webb, 2 N.C. 103
(Super. L. & Equ. 1794)). Similarly, in State v. Campbell,
South Carolina excluded the deposition of a deceased witness
**539 because the deposition was taken in the absence of
the accused. Id. (quoting State v. Campbell, 30 S.C.L. 124
(App.L.1844)). That court concluded:
*308 [N]otwithstanding the death of the witness, and
whatever the respectability of the court taking the
depositions, the solemnity of the occasion and the weight of
the testimony, such depositions are ex parte, and, therefore,
utterly incompetent.
Id. (quoting Campbell, 30 S.C.L. 124).
¶ 68 The court in Crawford concluded that the history of the
Confrontation Clause supports two inferences. Id. at 50, 124
S.Ct. 1354. First, the principal purpose of the Confrontation
Clause was to exclude the use of ex parte examinations as

evidence against the accused. Id. Second, “the Framers would
not have allowed admission of testimonial statements of a
witness who did not appear at trial unless he [or she] was
unavailable to testify, and the defendant had had a prior
opportunity for cross-examination.” Id. at 53–54, 124 S.Ct.
1354 (emphasis added). The Crawford court emphasized that
this right of confrontation under the Sixth Amendment “is
most naturally read as a reference to the right of confrontation
at common law, admitting only those exceptions established
at the time of the founding.”3 Id. at 54, 124 S.Ct. 1354
(citations omitted) (emphasis added). Moreover, the United
States Supreme Court has recently reaffirmed its reliance
on this narrow, historical interpretation of the Confrontation
Clause as described in Crawford. Davis, 126 S.Ct. at 2274 n.
1.
¶ 69 Based on this historical approach, the court in Crawford
explicitly rejected the admission of otherwise inadmissible
testimonial evidence based on the reliability test established
in Ohio v. Roberts, 448 U.S. 56, 100 S.Ct. 2531, 65 L.Ed.2d
597 (1980).4
*309 This [Roberts] test departs from the historical
principles identified above in two respects. First, it is too
broad: It applies the same mode of analysis whether or
not the hearsay consists of ex parte testimony. This often
results in close constitutional scrutiny in cases that are far
removed from the core concerns of the Clause. At the same
time, however, the test is too narrow: It admits statements
that do consist of ex parte testimony upon a mere finding
of reliability. This malleable standard often fails to protect
against paradigmatic confrontation violations.
....
... Admitting statements deemed reliable by a judge is
fundamentally at odds with the right of confrontation.
To be sure, the Clause's ultimate goal is to ensure
reliability of evidence, but it is a procedural rather than
a substantive guarantee. It commands, not that evidence
be reliable, but that reliability be assessed in a particular
manner: by testing in the crucible of cross-examination.
....
The Roberts test allows a jury to hear evidence,
untested by the adversary process, based on a mere
judicial determination of reliability. It thus replaces the

Pet-App. 83

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

constitutionally prescribed method of assessing **540
reliability with a wholly foreign one.
Crawford, 541 U.S. at 60–62, 124 S.Ct. 1354.
¶ 70 The court recognized that although there existed
exceptions to the general rule of exclusion, “there is scant
evidence that exceptions were invoked to admit testimonial
statements against the accused in a *310 criminal case.”
Crawford, 541 U.S. at 56, 124 S.Ct. 1354 (emphasis in
original). The Crawford court explained that this historical
context suggests that the requirement of a prior opportunity
for cross-examination was “dispositive, and not merely one of
several ways to establish reliability.” Id. at 55–56, 124 S.Ct.
1354. The Crawford court unequivocally concluded:

to enable police assistance to meet an ongoing emergency.
They are testimonial when the circumstances objectively
indicate that there is no such ongoing emergency, and that
the primary purpose of the interrogation is to establish
or prove past events potentially relevant to later criminal
prosecution.
Davis, 126 S.Ct. at 2273–74.

Our cases have thus remained faithful to the Framers'
understanding: Testimonial statements of witnesses absent
from trial have been admitted only where the declarant is
unavailable, and only where the defendant has had a prior
opportunity to cross-examine.
Id. at 59, 124 S.Ct. 1354 (footnote omitted).

interrogation of the witness in the Hammon6 matter was
testimonial because it was clear that the interrogation was part
of *312 an investigation of past criminal events and that
there was “no emergency in progress.” Id. at 2278.

III
¶ 71 Testimonial statements cause the declarant to be a
“witness” within the meaning of the Confrontation Clause.
Davis, 126 S.Ct. at 2273. The court in Crawford did discuss a
historical dictionary definition of “testimony.” Crawford, 541
U.S. at 51, 124 S.Ct. 1354. The court noted that the dictionary
defined “testimony” as “[a] solemn declaration or affirmation
made for the purpose of establishing or proving some fact.”
Id. (quoting 2 N. Webster, An American Dictionary of the
English Language (1828)). Relying on this definition of
“testimony,” the Crawford court concluded that “testimony”
constitutes “[a]n accuser who makes a formal statement to
government officers [and] bears testimony in a sense that a
person who makes a casual remark to an acquaintance does
not.” Id. The Crawford court, however, declined to spell out
a comprehensive definition of “testimonial.”5 Crawford, 541
U.S. at 68, 124 S.Ct. 1354.
*311 ¶ 72 In Davis, the United States Supreme Court
recently shed some additional light on the difference between
testimonial and nontestimonial evidence, in the limited
context of police questioning:
Statements are nontestimonial when made in the course
of police interrogation under circumstances objectively
indicating that the primary purpose of the interrogation is

¶ 73 The Court in the Davis matter concluded that the
declarant was speaking to the police officer about events
as they were actually happening, rather than describing past
events about an ongoing emergency, and that consequently
the **541 statements in question were not testimonial. Id.
at 2276–77. The court later clarified that the police officer's

¶ 74 The court noted that this description was in the context
of interrogations because the cases they were examining
involved interrogations. The court explicitly recognized that
simply because a statement is made in the absence of
any interrogation does not necessarily mean the statement
is nontestimonial. “The Framers were no more willing to
exempt from cross-examination volunteered testimony or
answers to open-ended questions than they were to exempt
answers to detailed interrogation.” Id. at 2274 n. 1 (emphasis
added). It is with the above constitutional principles in mind
that I examine the statements to Wojt and DeFazio.

A
¶ 75 I begin with the statements allegedly made by Julie
Jensen to Tadeusz Wojt. During the week of November 9,
1998, Julie Jensen told Mr. Wojt that she was upset because
her marriage was in trouble, that she and the defendant
argued about everything, that she suspected that the defendant
was having an affair, and talked about a number of marital
problems between the two of them. Similarly, Julie had
conversations with Malgorzata Wojt on December 1 and 2,
1998, that were about day care and school, Julie getting a job,
Julie's doctor appointment, some medicine she took, and the
defendant being good to her. Because the “primary purpose”
of these conversations between Julie and the Wojts was not
“to establish or prove past events potentially relevant to later
criminal prosecution[,]” I agree with the majority that the
statements made during the *313 week of November 9, and

Pet-App. 84

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

on December 1 and December 2, 1998, were nontestimonial.
See majority op., ¶¶ 31–33.

error, as Wisconsin subsequently adopted that standard for
testimonial evidence.

¶ 76 The majority's analysis does not hold true for the
remainder of the statements made by Julie to Mr. Wojt. On
November 21, 1998, Julie told Wojt that the defendant was
going to poison her. She described past events that would
be potentially relevant to a criminal prosecution, including
the defendant leaving syringes in a drawer and looking up
something on the computer having to do with poison, and her
finding notes written by him which had to do with poison.
Wojt told her to call the police.

¶ 81 Second, in ruling on the evidence that would be available
to the jury, the circuit court believed it would have to abandon
neutrality and embrace the theme offered by the defendant
that Mrs. Jensen's motives were suicidal and malicious. Yet,
the circuit court recognized that Julie's statements could have
been motivated by those purposes, as well as driven by many
other considerations. The standard for determining whether
evidence is testimonial is its potential relevance to a later
prosecution. Given that the circuit court acknowledged that
multiple purposes could be deduced from the proffer of
evidence, and based its ruling on an erroneous view of the
law, I would conclude that the statements in question meet the
requisite standard for “testimonial.”

¶ 77 The very next day, Julie gave Wojt an envelope with
instructions to give it to the police if anything happened to
her. She also gave him a roll of undeveloped film, indicating
that these were photographs of things the defendant would
look up or note referencing poisoning. Earlier that day, she
told Wojt that the defendant was trying to pressure her to eat
or drink, and that he would become angry when she refused.
She told Wojt that she called the police, but that they were not
available. She did not sleep that night, and did not think she
would live out the weekend.
¶ 78 On November 24, 1998, she asked Wojt to return the
roll of film to her, as she was going to give it to the police.
She repeated her fears to Wojt between November 24 and
November 28, 1998, and to Ms. Wojt on November 29, 1998.
**542 ¶ 79 Clearly, the primary purpose of each of
these conversations was to establish or prove past events
potentially relevant to a later criminal prosecution, that of
Julie's husband, the defendant. Indeed, as to the purpose of
the statements, the circuit court recognized as much when it
wrote: “Mrs. Jensen's statements to *314 the Wojts ... could
be viewed as remarks which were intended for the ears of the
police, when viewed in conjunction with the conversations
which she had with Officer Kossman.” The reason that the
circuit court rejected that conclusion was twofold.
¶ 80 First, the circuit court's decision of August 4, 2004,
was based in part upon the fact that the United States
Supreme Court “did not adopt in Crawford the argument
that ‘testimonial statements' include any ‘statements that were
made in circumstances which would lead an objective witness
reasonably to believe that the statement would be available
for use at a later trial.’ ” Based on our decision in State
v. Manuel, 2005 WI 75, ¶ 3, 281 Wis.2d 554, 697 N.W.2d
811, we now know that the circuit court's conclusion was in

¶ 82 The statements were also relevant to establish or prove
past events that were potentially relevant to the prosecution
of the defendant. The syringes had *315 already been left
in the drawer. The notes about poisoning had already been
made by the defendant. She had already viewed the computer
in relation to poisoning. She had already taken pictures of a
number of these items. He had already tried to pressure her to
eat or drink. As she indicated to Wojt when she gave him the
envelope to give to the police, she wanted the police to have
that information should anything happen to her. It is obviously
relevant to the defendant's prosecution, or the State would not
attempt to use it. And it was expressly her purpose to identify
her killer should anything happen to her. These statements,
given by Julie to the Wojts, were simply as testimonial as they
come. I respectfully disagree with the majority's conclusion
to the contrary.

B
¶ 83 Whether the statements made by Julie to DeFazio are
testimonial presents a tougher question. After reviewing the
statements from November 25 and December 2, 1998, made
by Julie to DeFazio, I conclude that the majority is correct
in its determination that these statements are nontestimonial
in nature. See majority op., ¶¶ 31–33. While these statements
reflect, in part, past events potentially relevant to later
prosecution, it cannot be seriously argued that Julie's purpose
when making these statements was to establish or prove those
past events.

Pet-App. 85

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

was matter of fact, of which we were not the judges, but
their lordships.
Id. at 158 (emphasis added).

IV
¶ 84 The right of confrontation is not absolute. The
Crawford court explicitly recognized that one exception to
the inadmissibility **543 of testimonial evidence under the
Confrontation Clause is the forfeiture by *316 wrongdoing
exception. Crawford, 541 U.S. at 62, 124 S.Ct. 1354. That
exception “is most naturally read as a reference to the right of
confrontation at common law, admitting only those exceptions
established at the time of the founding.” Id. at 54, 124 S.Ct.
1354 (citations omitted) (emphasis added).
¶ 85 The Crawford court relied on Reynolds v. United States,
98 U.S. 145, 25 L.Ed. 244 (1879), in concluding that the
rule of forfeiture by wrongdoing exception “extinguishes
confrontation claims on essentially equitable grounds; it
does not purport to be an alternative means of determining
reliability.” Id. at 62, 124 S.Ct. 1354 (citing Reynolds, 98 U.S.
at 158–159).
¶ 86 In Reynolds, the United States Supreme Court discussed
the application of the forfeiture by wrongdoing rule to the
Confrontation Clause:
The Constitution gives the accused the right to a trial at
which he should be confronted with the witnesses against
him; but if a witness is absent by his own wrongful
procurement, he cannot complain if competent evidence is
admitted to supply the place of that which he has kept away.
The Constitution does not guarantee an accused person
against the legitimate consequences of his own wrongful
acts. It grants him the privilege of being confronted with
the witnesses against him; but if he voluntarily keeps
the witnesses away, he cannot insist on his privilege. If,
therefore, when absent by his procurement, their evidence
is supplied in some lawful way, he is in no condition to
assert that his constitutional rights have been violated.
Reynolds, 98 U.S. at 158. Reynolds, in turn, relied on Lord
Morley's Case, from 1666, in which the House of Lords held:
[I]n case oath should be made that any witness, who
had been examined by the coroner and was then absent,
was detained by the means or procurement of the *317
prisoner, and the opinion of the judges asked whether such
examination might be read, we should answer, that if their
lordships were satisfied by the evidence they had heard that
the witness was detained by means or procurement of the
prisoner, then the examination might be read; but whether
he was detained by means or procurement of the prisoner

¶ 87 The court in Reynolds also noted that in Regina v. Scaife
(17 Ad. & El. N.S. 242), a unanimous court determined that
“if the prisoner had resorted to a contrivance to keep a witness
out of the way, the deposition of the witness, taken before a
magistrate and in the presence of the prisoner, might be read.”
Id.
¶ 88 The Reynolds court explained that the forfeiture by
wrongdoing rule “has its foundation in the maxim that no
one shall be permitted to take advantage of his own wrong.”
Id. at 159. Applying this principle to the facts before the
court, where the witness had testified at a prior trial and the
defendant had full opportunity of cross-examination, the court
in Reynolds held the testimony admissible, explaining that
[t]he accused ... had full opportunity to account for the
absence of the witness, if he would, or to deny under oath
that he had kept her away. Clearly, enough had been proven
to cast the burden upon him of showing that he had not been
instrumental in concealing or keeping the witness away.
Id. at 160.7
**544 *318 ¶ 89 The United States Supreme Court
again reaffirmed the forfeiture exception in Davis, stating
“one who obtains the absence of a witness by wrongdoing
forfeits the constitutional right to confrontation.” Davis v.
Washington, 126 S.Ct. at 2280. The Davis court reasoned:
“ [W]hen defendants seek to undermine the judicial process
by procuring or coercing silence from witnesses and victims,
the Sixth Amendment does not require courts to acquiesce.”
Id. The Court took no position on the standards necessary
to justify application of the doctrine of forfeiture by
wrongdoing, although it did cite Federal Rule of Evidence
804(b)(6) as codifying the doctrine, and that under the
federal rule, the government has generally been held to the
preponderance-of-the-evidence standard. Id. The Court also
noted that state courts tend to follow the same practice as the
federal rule. Id.
*319 ¶ 90 At common law, the forfeiture doctrine was
applied in situations where the defendant's wrongful acts
were committed with the purpose of preventing a witness
from testifying, see Hon. Paul W. Grimm and Professor
Jerome E. Diese, Jr., Hearsay, Confrontation, and Forfeiture
by Wrongdoing: Crawford v. Washington, a Reassessment

Pet-App. 86

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

of the Confrontation Clause, 35 U. Balt. Law Forum 5,
32–33 (2004), and most modern courts have held to this
rule. See e.g. United States v. Houlihan, 92 F.3d 1271, 1278
(1st Cir.1996); United States v. Lentz, 282 F.Supp.2d 399,
426 (E.D.Va.2002). In other words, the forfeiture exception
has been applied when an accused has made a witness
unavailable, and when the accused's intent was to deny that
witness's presence at the trial.
¶ 91 Federal Rule of Evidence 804(b)(4), adopted in 1997,
even goes so far as to codify this requirement as an element
of the Rule. It states that if the declarant is unavailable as a
witness, the hearsay rule does not apply to any “statement
offered against a party that has engaged or acquiesced in
wrongdoing that was intended to, and did, procure the
unavailability of the declarant as a witness” (emphasis
added). See, e.g., United States v. Dhinsa, 243 F.3d 635,
654 (2d Cir.2001) (requiring that the government prove
“the defendant (or party against whom the out-of-court
statement is offered) acted with the intent of procuring the
declarant's unavailability as an actual or potential witness” for
a statement to be admitted under the forfeiture by wrongdoing
doctrine) (citations omitted); State v. Alvarez–Lopez, 136
N.M. 309, 314, 98 P.3d 699 (2004) (“The elements that
must be shown for **545 Rule 804(b)(6) to apply are:
(1) the declarant was expected to be a witness; (2) the
declarant became unavailable; (3) the defendant's misconduct
caused the unavailability of the *320 declarant; and (4) the
defendant intended by his misconduct to prevent the declarant
from testifying.”) (citations omitted). A defendant that is put
on trial for murder cannot be deemed to have killed that
person with the intent to deny that person's presence at the
witness's own murder trial, unless a preponderance of the
evidence establishes that the defendant in fact possessed the
intent to keep the witness from testifying.8
¶ 92 The majority's discussion of United States v. Emery,
186 F.3d 921 (8th Cir.1999) is illustrative. Majority op.,
¶ 44. In Emery, the court concluded that the defendant
forfeited his right to confrontation where he murdered a
federal informant to keep the informant from testifying in
another trial. Id. at 926. The court declined to accept his
argument that the forfeiture doctrine should only be applied
where the defendant procured the absence of the witness is
the same case the witness was to testify in, as opposed to a
subsequent homicide trial. Id.
¶ 93 The majority relies on recent cases from other
jurisdictions that adopt the broad forfeiture doctrine the

majority seeks to employ in this case. Majority op., ¶¶ 45–52.
That doctrine is based on a newly created “reflexive forfeiture
principle” first advocated by Professor Richard D. Friedman,
in *321 Confrontation and the Definition of Chutzpa, 31
Israel L.Rev. 506 (1997) (hereinafter Chutzpa ).9 By doing
so, however, the majority abandons the substantive doctrine
that was adopted by the founders in favor of a far more
expansive doctrine not contemplated by the founders or by the
Sixth Amendment, contrary to Justice Scalia's admonition.10
Crawford, 541 U.S. at 54, 124 S.Ct. 1354 (explaining that
the right of confrontation under the Sixth Amendment “is
most naturally read as a reference to the right of confrontation
at common law, admitting only those exceptions established
at the **546 time of the founding ”) (citations omitted)
(emphasis added). The Sixth Amendment to the United States
Constitution does not *322 state that, “[i]n all criminal
prosecutions, the accused shall enjoy the right ... to be
confronted with the witnesses against him [or her], except in
homicide cases.” While other courts may feel free to disregard
the very principles upon which the Confrontation Clause
rests, our decision must be limited by the Constitution and
the United States Supreme Court decisions interpreting it, i.e.,
Reynolds, Crawford and Davis.
¶ 94 In Crawford, Justice Scalia wrote that “[d]ispensing with
confrontation because testimony is obviously reliable is akin
to dispensing with jury trial because a defendant is obviously
guilty.” Crawford, 541 U.S. at 62, 124 S.Ct. 1354. In a similar
vein, applying the forfeiture doctrine to admit testimonial
evidence when the defendant is on trial for the crime that
rendered the witness unavailable, absent any showing that the
defendant's purpose was to procure the absence of the witness
to keep him or her from testifying at trial, places the cart
before the horse.
¶ 95 The circuit court got it right when it noted that the broad
forfeiture doctrine advocated by the State, which the majority
now adopts, would render superfluous the doctrine of dying
declarations. See generally Michael J. Polelle, The Death of
Dying Declarations in a Post–Crawford World, 2006 Mo.
L.Rev. 285. The circuit court discerned that both doctrines
coexisted at common law at the time the Constitution was
ratified. Thus, the circuit court properly reasoned that a
current application of the forfeiture doctrine may not do away
with the dying declaration doctrine. To quote the circuit judge:
If an accused forfeits or waives the right of crossexamination merely by killing the victim to “put her out
of the way,” then there would have been no reason for

Pet-App. 87

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

the development of the Dying Declaration Rule, which
*323 contains the added requirement that the declarant's
statement have been made “while believing that the
declarant's death was imminent.” The existence of the
Dying Declaration Rule makes sense only in an evidentiary
framework in which the mere fact that the defendant
can be convincingly shown to the judge to have killed
the declarant does not, by itself, justify exception to the
requirements of the Confrontation Clause.
¶ 96 I have no objection to applying the forfeiture doctrine
in a criminal trial. That doctrine does not, however, create a
homicide exception to the Confrontation Clause. I would not

adopt the broad forfeiture doctrine set forth by the majority
in this case. I would remand this matter to the circuit court to
apply the common law forfeiture doctrine, as it existed at the
time that the Constitution was ratified. The majority's broad
new rule, I conclude, is unconstitutional.
¶ 97 For the foregoing reasons, I respectfully concur in part
and dissent in part.
All Citations
299 Wis.2d 267, 727 N.W.2d 518, 2007 WI 26

Footnotes

1
2
3

4
5

6
7
8

After Julie's death, police seized the computer in the Jensen's home and found that on various dates between October
15 and December 2, 2002, several websites related to poisoning were visited; including one entitled “Ethylene Glycol.”
After comparing the letter to known writing samples from Julie, a document examiner with the State Crime Lab concluded
that the letter was written by Julie.
The criminal complaint provides the following summary of DeFazio's conversations with Julie on November 25, 1998:
[W]hen I coaxed her, she told me how she was afraid her husband was going to kill her last weekend. When I asked
her why she thought such a serious thing was going to happen, she explained why. She had found a paper listing
things to buy in her husband's stuff. She said it listed syringes and names of drugs on it. Then she said that she
thought he might try to kill her with a drug overdose and make it look like a suicide. I asked her why she thought
he would do this. She said that there were other things she couldn't explain. She also wondered aloud if the drugs
were for himself, but she didn't ever see him taking drugs so she didn't think that was the reason for the list.... One
other time she had mentioned that it bothered her how every time she walked into the room when her husband was
on the computer, he always turned it off or covered it quickly. She asked him why once, but he said he was doing
business stuff, and he was done.
The district attorney conceded that the statements Julie made to Kosman during a conversation on November 24, 1998,
were testimonial. With respect to these statements, the State is arguing only that they are admissible under the forfeiture
by wrongdoing doctrine, which is discussed in Section IV.
In State v. Manuel, 2005 WI 75, ¶ 60, 281 Wis.2d 554, 697 N.W.2d 811, this court held that nontestimonial statements
still should be evaluated for Confrontation Clause purposes under the test of Ohio v. Roberts, 448 U.S. 56, 100 S.Ct.
2531, 65 L.Ed.2d 597 (1980). The circuit court's findings under Roberts admitting some statements and excluding others
were not reduced to a written order and they are not the subject of either the State's appeal or Jensen's cross-appeal.
The Sixth Amendment to the United States Constitution provides that “[i]n all criminal prosecutions, the accused shall
enjoy the right ... to be confronted with the witnesses against him[.]”
Article I, Section 7 of the Wisconsin Constitution states that “[i]n all criminal prosecutions the accused shall enjoy the
right ... to meet the witnesses face to face.”
We note that recently in State v. Hemphill, 2005 WI App 248, 287 Wis.2d 600, 707 N.W.2d 313, the court of appeals
held that a declarant's spontaneous statement to responding police officers implicating the defendants in a crime was
deemed nontestimonial. The court reasoned, in part as follows:
The statement made by [the declarant] in the instant case does not fall into any of the identified categories of
“testimonial” statements. This was not a statement extracted by the police with the intent that it would be used later
at trial. It was not an interrogation situation. [The declarant] offered the statement without any solicitation from police.
It was a spontaneous statement made to a responding police officer. Like the foreign cases cited by the State in
its brief, the [declarant's] statement was offered unsolicited by the victim or witness, and was not generated by the
desire of the prosecution or police to seek evidence against a particular subject.
Id., ¶ 11. We do not read Crawford in such a restrictive light. Under the definition of testimonial adopted today we
must overrule Hemphill.

Pet-App. 88

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

18

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

9
10
11
12

13

14

15
16

1
2
3
4
5

6
7

As noted in Summers, other federal circuits have created similar standards. United States v. Summers, 414 F.3d 1287,
1302 n. 9 (10th Cir.2005) (citing United States v. Cromer, 389 F.3d 662 (6th Cir.2004); United States v. Hendricks, 395
F.3d 173 (3d Cir.2005); United States v. Saget, 377 F.3d 223 (2d Cir.2004)).
Additionally, although the circuit court considered whether the admission of the voicemails violated the Confrontation
Clause under Crawford, the court already had excluded the voicemails as inadmissible hearsay. Thus, even if the
voicemails are nontestimonial, they must still be excluded under Roberts, 448 U.S. 56, 100 S.Ct. 2531.
While we conclude that Julie's statements to Wojt and DeFazio were nontestimonial, this is not the same as concluding
that they are admissible. When considering the admissibility of such evidence, the test from Roberts, 448 U.S. 56, 100
S.Ct. 2531, applies. Manuel, 281 Wis.2d 554, ¶ 60, 697 N.W.2d 811.
The forfeiture by wrongdoing doctrine did not arise related to the Court's holding in Davis v. Washington, 547 U.S. 813,
––––, 126 S.Ct. 2266, 2273, 165 L.Ed.2d 224 (2006), but the Court addressed it because the States, and their amici,
raised it as an issue. Seemingly as dicta, the Court stated the following: “We reiterate what we said in Crawford : that
‘the rule of forfeiture by wrongdoing ... extinguishes confrontation claims on essentially equitable grounds.’ That is, one
who obtains the absence of a witness by wrongdoing forfeits the constitutional right to confrontation.” Id. at 2280 (quoting
Crawford v. Washington, 541 U.S. 36, 62, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004)) (citations omitted).
Although Diaz v. United States, 223 U.S. 442, 451–53, 32 S.Ct. 250, 56 L.Ed. 500 (1912), and other courts have used
the term waiver in this context, we conclude the term forfeiture is more appropriate “because the phrase ‘forfeiture by
wrongdoing’ better reflects the legal principles that underpin the doctrine.” Commonwealth v. Edwards, 444 Mass. 526,
830 N.E.2d 158, 168 n. 16 (2005). That is, there is an important distinction between the concept of waiver and forfeiture.
“Unlike waiver, which requires a knowing and intentional relinquishment of a known right, forfeiture results in the loss of
a right regardless of the defendant's knowledge thereof and irrespective of whether the defendant intended to relinquish
the right.” United States v. Goldberg, 67 F.3d 1092, 1100 (3d Cir.1995).
Other cases in which courts have applied the forfeiture by wrongdoing doctrine to situations where the defendant is
charged with the same homicide that rendered the declarant unavailable include the following: People v. Moore, 117
P.3d 1 (Colo.Ct.App.2004) (applying similar reasoning as State v. Meeks, 277 Kan. 609, 88 P.3d 789 (2004)); Gonzalez
v. State, 155 S.W.3d 603 (Tex.App.2004) (same); and United States v. Mayhew, 380 F.Supp.2d 961 (S.D.Ohio 2005)
(same).
Garcia–Meza's defense was that he did not have the necessary premeditation for first-degree murder because he was
too intoxicated. United States v. Garcia–Meza, 403 F.3d 364, 367 (6th Cir.2005).
Related to the proper burden of proof, the Court in Davis stated the following: “We take no position on the standards
necessary to demonstrate such forfeiture, but federal courts using Federal Rule of Evidence 804(b)(6), which codifies
the forfeiture doctrine, have generally held the Government to the preponderance-of-the-evidence standard.” Davis, 126
S.Ct. at 2280 (citations omitted).
As the majority notes, we generally apply United States Supreme Court precedents when interpreting these clauses.
Majority op., ¶ 13.
I agree with and join that part of the majority opinion that concludes that the statements to Kosman and the letter to
Ratzburg were testimonial. I do not discuss these statements further. I also agree that the statements made by Julie to
DeFazio are nontestimonial, for reasons stated later in this opinion. At issue are the statements made by Julie to Wojt.
This principle has been totally abandoned by the majority in its adoption and application of a broad forfeiture by
wrongdoing doctrine, as I will discuss later in this opinion.
We have previously recognized that Wisconsin follows the reliability standard established in Ohio v. Roberts, 448 U.S.
56, 100 S.Ct. 2531, 65 L.Ed.2d 597 (1980), for evaluating the admissibility of nontestimonial evidence. State v. Manuel,
2005 WI 75, ¶ 3, 281 Wis.2d 554, 697 N.W.2d 811.
In Wisconsin, at a minimum, testimonial evidence includes ex parte in-court testimony or its functional equivalent (such
as affidavits, custodial examinations, prior testimony not subject to cross-examination by the defendant, or similar
pretrial statements declarants would reasonably expect to be used prosecutorially), extrajudicial statements contained in
formalized testimonial materials (such as affidavits, depositions, prior testimony, or confessions), and statements made
under circumstances that would lead an objective witness reasonably to believe that the statement would be available
for use at a later trial. Manuel, 281 Wis.2d 554, ¶¶ 37, 39, 697 N.W.2d 811.
Hammon v. Indiana, 547 U.S. 813, 126 S.Ct. 2266, 165 L.Ed.2d 224 (2006) (decided in the same opinion as Davis v.
Washington ).
The majority does not address the fact that the doctrine of forfeiture by wrongdoing at common law merely provided
that “if a witness is kept away by the adverse party, his testimony, taken on a former trial between the same parties

Pet-App. 89

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

19

State v. Jensen, 299 Wis.2d 267 (2007)
727 N.W.2d 518, 2007 WI 26

8

9

10

upon the same issues, may be given in evidence.” Reynolds v. United States, 98 U.S. 145, 158–59, 25 L.Ed. 244 (1879)
(emphasis added). See also Adam Sleeter, Injecting Fairness into the Doctrine of Forfeiture by Wrongdoing, 83 Wash. U.
Law Quarterly 1367, 1370–71. Thus, the historical rule was limited to where the witness was corruptly and wrongfully kept
away, and the rule only allowed former trial evidence between the same parties upon the same issues to be admitted.
This case does not involve former testimony at an earlier trial. In Crawford v. Washington, 541 U.S. 36, 54, 124 S.Ct.
1354, 158 L.Ed.2d 177 (2004), the court stated that it would recognize “only those exceptions established at the time of
the founding,” which included the forfeiture doctrine (emphasis added). In Davis v. Washington, 547 U.S. 813, 126 S.Ct.
2266, 2280, 165 L.Ed.2d 224 (2006), the court then discussed, without adopting, the version of the doctrine codified in
Federal Rule of Evidence 804(b)(6), which does not limit the doctrine to cases in which testimony was given at an earlier
trial. Neither Crawford nor Davis answered whether the scope of the forfeiture by wrongdoing exception must be limited
to that which was recognized at the founding.
The court in Davis took “no position on the standards necessary to demonstrate” forfeiture by wrongdoing, but recognized
that federal courts, relying on the Federal Rules of Evidence § 804(b)(6) (codifying the forfeiture doctrine) “have generally
held the Government to the preponderance-of-the-evidence standard.” Davis, 126 S.Ct. at 2280. I accept that, for
purposes of this opinion, the majority is not in error in adopting this standard. See majority op., ¶ 57.
Professor Friedman recognizes that reflexive application of the forfeiture doctrine is controversial, as well as “quite farreaching.” Richard D. Friedman, Confrontation and the Definition of Chutzpa, 31 Israel L.Rev. 506, 508 (1997) (hereinafter
Chutzpa ). The majority declines, however, to adopt Professor Friedman's recommendation that “the court should not
hold that the accused has forfeited [the confrontation right] unless the court is persuaded to a rather high degree of
probability that the accused has rendered the declarant unavailable[.]” Id. at 519.
Professor Friedman's far-reaching approach, if fully embraced by the majority, would clearly lead to nonsensical
applications. For example, Friedman suggests that “[t]he prosecution should bear the burden of taking all reasonable
steps to protect whatever aspects of confrontation are possible given the defendant's conduct, and of demonstrating that
it has done so.” Chutzpa at 525. Thus, under the reflexive forfeiture principle advocated by Friedman, once Julie left the
voicemail to Officer Kosman that indicated that she thought Jensen was trying to kill her, the State had an obligation
to notify Jensen that Julie made the statement, and give him an opportunity to cross-examine her by way of videotape
or deposition. Id. For obvious reasons, the majority does not advance that view. Yet, this is the proper application of
Professor Friedman's reflexive forfeiture doctrine adopted by the majority in this case.

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

Pet-App. 90

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

20

Amendment VI. Jury trials for crimes, and procedural rights..., USCA CONST Amend....

United States Code Annotated
Constitution of the United States
Annotated
Amendment VI. Jury Trial for Crimes, and Procedural Rights (Refs & Annos)
U.S.C.A. Const. Amend. VI-Jury Trials

Amendment VI. Jury trials for crimes, and procedural
rights [Text & Notes of Decisions subdivisions I to XXII]
Currentness
<Notes of Decisions for this amendment are displayed in multiple documents.>
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be confronted with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have the Assistance of Counsel for his defence.

Notes of Decisions (5897)
U.S.C.A. Const. Amend. VI-Jury Trials, USCA CONST Amend. VI-Jury Trials
Current through PL 117-17 with the exception of PL 116-283, Div. A, Title XVIII, which takes effect January 1, 2022.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Pet-App. 91

WEST AW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

